<html>
<title> - OVERSIGHT HEARING ON THE USE OF MARINE PROTECTED AREAS AS A FISHERIES MANAGEMENT TOOL</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





                        MARINE PROTECTED AREAS

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              May 23, 2002

                               __________

                           Serial No. 107-120

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                -------
79-780              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 23, 2002.....................................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2
    Peterson, Hon. Collin C., a Representative in Congress from 
      the State of Minnesota.....................................     4
        Prepared statement of....................................     5
    Underwood, Hon. Robert A., a Delegate in Congress from Guam..     2
        Prepared statement of....................................     3
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska, Prepared statement of...........................     7

Statement of Witnesses:
    Davis, Gerry W., Guam Department of Agriculture, Acting 
      Chief, Division of Aquatic and Wildlife Resources..........    53
        Prepared statement of....................................    57
    Gilmore, Jim, Director, Public Affairs, At-Sea Processors 
      Association................................................    46
        Prepared statement of....................................    49
    Houde, Dr. Edward D., Chair, NRC Committee on Marine 
      Protected Areas, and Professor, University of Maryland 
      Center for Environmental Science...........................    25
        Prepared statement of....................................    28
    Keeney, Timothy R.E., Deputy Assistant Secretary for Oceans 
      and Atmosphere, U.S. Department of Commerce................    12
        Prepared statement of....................................    14
    Morrison, Patricia E., Deputy Assistant Secretary, Land and 
      Minerals Management, U.S. Department of the Interior.......     7
        Prepared statement of....................................    10
    Shipp, Dr. Robert, Chair, Department of Marine Sciences, 
      University of South Alabama................................    33
        Prepared statement of....................................    34
    Warner, Dr. Robert R., Professor of Marine Ecology, 
      Department of Ecology, Evolution and Marine Biology, 
      University of California, Santa Barbara....................    63
        Prepared statement of....................................    71
        ``Plugging a Hole in the Ocean: The Emerging Science of 
          Marine Reserves'' submitted for the record.............    63
        ``Scientific Consensus Statement on Marine Reserves'' 
          submitted for the record...............................    75

Additional materials supplied:
    Evans, Hon. Donald L., Secretary, U.S. Department of 
      Commerce, Statement submitted for the record...............    12
    Natural Resources Defense Council, Statement submitted for 
      the record by The Honorable Robert Underwood...............    93

 
 OVERSIGHT HEARING ON THE USE OF MARINE PROTECTED AREAS AS A FISHERIES 
                            MANAGEMENT TOOL

                              ----------                              


                         Thursday, May 23, 2002

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 11:39 a.m., in 
room 1334, Longworth House Office Building, Hon. Wayne 
Gilchrest [Chairman of the Subcommittee] presiding.

STATEMENT OF HON. WAYNE GILCHREST, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MARYLAND

    Mr. Gilchrest. The Subcommittee will come to order.
    I would like to welcome our witnesses today. As most of you 
know, the reauthorization of the Magnuson-Stevens Fishery 
Conservation and Management Act has been one of the top 
priorities of the Subcommittee during the 107th Congress, and 
we have just finished a Subcommittee markup of H.R. 4749, the 
Magnuson Stevens Act Amendments of 2002. I appreciate the 
witnesses' patience as we worked through the markup process 
prior to the start of this hearing.
    Today's hearing is focused on the use of Marine Protected 
Areas as a fishery management tool, as a means to protect and 
restore ecosystem function, and as a research tool. I believe 
it is of fundamental importance that we continue our recent 
progress to prevent overfishing, rebuild overfished stocks, 
reduce bycatch, and protect essential fish habitats. All of 
these actions represent important steps toward implementing a 
comprehensive, ecosystem-based fishery management strategy for 
the United States. I believe that there is a strong scientific 
basis for using Marine Protected Areas as one of the fishery 
management tools to accomplish these objectives and to 
implement ecosystem-based fishery management. MPAs represent 
one way to ensure that we are only withdrawing the interest and 
not the principal from our marine resource bank accounts.
    However, I also recognize that some MPA proposals may raise 
significant controversy, especially provisions for establishing 
no-take reserves, where removal or disturbance of all fishery 
and other resources is prohibited. We need to keep in mind that 
no-take reserves have a legitimate place within a broad 
strategy to conserve ocean resources and that the process of 
establishing such reserves must be based on sound science and 
must include participation from the full range of affected 
stakeholders.
    MPAs represent a tool that can be used to benefit the 
public, the marine ecosystem, the commercial fishermen, the 
recreational fishermen and anybody who has an interest in the 
nation's and the world's oceans. We will pursue this effort in 
the way that we pursue other things, with the best available 
information at our disposal and in a process that will include 
everybody.
    I will now yield to my good friend to withdraw his 
statement--I mean, to give his statement--
    [Laughter.]
    Mr. Gilchrest. Thank you, Mr. Underwood.
    [The prepared statement of Mr. Gilchrest follows:]

 Statement of The Honorable Wayne Gilchrest, Chairman, Subcommittee on 
              Fisheries Conservation, Wildlife and Oceans

    I would like to welcome our witnesses today. As most of you know, 
the reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act has been one of the top priorities of the Subcommittee 
during the 107th Congress, and we have just finished a Subcommittee 
mark-up on H.R. 4749, the Magnuson-Stevens Act Amendments of 2002. I 
appreciate the witnesses patience as we worked through the mark-up 
process prior to the start of this hearing.
    Today's hearing is focused on the use of marine protected areas as 
a fishery management tool, as a means to protect and restore ecosystem 
function, and as a research tool. I believe it is of fundamental 
importance that we continue our recent progress to prevent overfishing, 
rebuild overfished stocks, reduce bycatch, and protect essential fish 
habitats. All these actions represent important steps towards 
implementing a comprehensive, ecosystem-based fishery management 
strategy for the United States. I believe that there is a strong 
scientific basis for using marine protected areas as one of the fishery 
management tools to accomplish these objectives and to implement 
ecosystem-based fishery management. MPAs represent one way to ensure 
that we're only withdrawing the interest and not the principle from our 
marine resource bank accounts.
    However, I also recognize that some MPA proposals may raise 
significant controversy, especially provisions for establishing no-take 
reserves, where removal or disturbance of all fishery and other 
resources is prohibited. We need to keep in mind that no-take reserves 
have a legitimate place within a broad strategy to conserve ocean 
resources, and that the process of establishing such reserves must be 
based on sound science and must include participation from the full 
range of affected stakeholders
    I look forward to the testimony of the witnesses and hope that we 
can have a constructive discussion that will continue to move us toward 
better management of the Nation's marine resources.
                                 ______
                                 

STATEMENT OF HON. ROBERT UNDERWOOD, A DELEGATE IN CONGRESS FROM 
                     THE TERRITORY OF GUAM

    Mr. Underwood. Thank you, Mr. Chairman. I ask unanimous 
consent to enter my full statement into the record, and I want 
to thank you for holding this hearing. And as you have 
outlined, Marine Protected Areas are a controversial issue in 
many communities.
    I am very gratified that you have scheduled this morning's 
hearing to discuss the concept and application of MPAs. In my 
home island of Guam, we have set aside a significant portion of 
territorial waters as MPA areas, and I am very pleased that Mr. 
Gerry Davis, Guam's Acting Chief of Aquatic and Wildlife 
Resources, could be with us today to relay the experience that 
we have had with MPAs and to speak to the practical benefits of 
MPAs as a resource management tool.
    I recognize that not everybody thinks it is a good idea, 
and some question whether they are scientifically valid, and I 
think that is the crux of the issue. I think there is an 
intersection of many considerations here: certainly, the 
residents who live in the areas affected; the need to continue 
to support both commercial and recreational fishing; as well as 
trying to understand the science of the issue, and I think that 
would be very informative and hopefully would provide guidance 
for the Subcommittee as we continue our work in this.
    I am also very pleased to see that our first witness is a 
distinguished friend and colleague from Minnesota.
    [The prepared statement of Mr. Underwood follows:]

Statement of The Honorable Robert A. Underwood, a Delegate in Congress 
                               from Guam

    Thank you, Mr. Chairman. We are at an important crossroad as we 
attempt to balance the needs of a growing human population with the 
physical and ecological limits of the ocean environment.
    Reports of depleted fisheries, habitat degradation, and loss of 
marine biodiversity continue unabated. Ever more frequently the 
failures of resource managers to protect the ocean environment wind up 
in protracted legal proceedings that are expensive and often 
inconclusive.
    The need to find new strategies to manage ocean resources has never 
been more apparent. The risk of inaction has never been as great. That 
is the challenge before us. That is also why I am gratified that 
Chairman Gilchrest has scheduled this morning's hearing to discuss the 
concept and application of marine protected areas.
    Guam has set aside a significant portion of its territorial waters 
as marine protected areas. I am extremely pleased that Mr. Gerry Davis, 
Guam's Acting Chief of Aquatic and Wildlife Resources, could be with us 
to relay Guam's experience with MPAs and to speak to the practical 
benefits of MPAs as a resource management tool.
    I realize that not everyone believes that MPAs and marine reserves 
are good ideas. Some question whether they are scientifically valid. 
Certainly it is reasonable, if not expected, for a new scientific 
concept to come under the harsh rigor of genuine peer review.
    But I must say that I find the heated rhetoric and criticism of 
MPAs by those individuals opposed to the concept to be nothing short of 
self-serving and bordering on paranoia. Contrary to their assertions, 
no one is suggesting that MPAs should replace all traditional fisheries 
management practices. No one is boasting that MPAs will solve all 
environmental threats confronting marine life. And no one is proposing 
that MPAs be imposed anywhere and everywhere.
    Less than one percent of U.S. territorial waters, and less than one 
percent of the world's oceans, are currently placed in marine reserves 
and therefore completely protected from all extractive human uses. The 
reality is that the use of MPAs is still in its nascency.
    Nevertheless, an impressive empirical record is emerging which 
verifies the success of MPAs in restoring biodiversity, increasing 
productivity, and sustaining ecological function. Numerous examples can 
be found in coastal regions around the U.S., such as the Florida Keys, 
or abroad in other nations such as New Zealand and Australia.
    Polling data from 2001 also indicates that opponents of MPAs are 
out of step with a sizable majority of Americans. According to these 
surveys, almost 65 percent of all Americans support setting aside some 
ocean areas from all human activities, even recreational activities. 
And 83 percent of poll respondents supported President Clinton's 
Executive Order which called for setting aside 20 percent of the U.S. 
EEZ as marine protected areas.
    I note in closing that the concept of MPAs must have some 
legitimate scientific merit. After all, over 150 marine scientists 
risked their professional credibility when they endorsed a 1999 
consensus statement which verified the scientific basis for MPAs and 
strongly promoted the establishment of networks of protected areas.
    My belief is that we have turned the corner to embark on a new 
path. Dr. Jane Lubchenco perhaps said it best when she stated that, 
``it is no longer a question of whether to set aside fully protected 
areas, but where to establish them.''
    I say that we should get on with this important work. MPAs offer a 
new opportunity to enhance our abilities to adaptively manage and 
conserve ocean resources, and I look forward to this morning's 
discussion. Thank you.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Welcome, Mr. Peterson. You may begin.

STATEMENT OF HON. COLLIN PETERSON, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman and distinguished 
Ranking Member Underwood. We appreciate the chance to come 
before you today and testify before your esteemed Committee 
regarding the Marine Protected Areas.
    As a leader of the Congressional Sportsmen's Caucus, I 
recently introduced H.R. 3547, known as the Freedom to Fish 
Act, which is a bill that provides reasonable and responsible 
guidelines for the use of Marine Protected Areas as a fishery 
management tool. It requires the involvement of the public in 
the development of these areas and ensures that recreational 
fishing will only be curtailed as a last resort.
    For a long time, fishermen have supported temporary closed 
fishing seasons to allow fish populations to grow to optimum 
size. However, at the end of the closed season, fishermen 
rightfully expect these areas to be reopened in order to enjoy 
the benefit of their conservation efforts. When fishermen have 
a voice in the decisionmaking process, they can more readily 
support the conservation efforts being made.
    The present rhetoric about marine reserves differs 
substantially from this tradition of involving recreational 
fishermen. Some advocates of marine reserves intend to close 
vast portions of the ocean to all forms of fishing on a 
permanent basis, including catch and release fishing that is 
now becoming practiced by an increasing number of Americans. 
They want these massive areas declared off-limits to fishing 
without scientific proof that permanent, no-fishing zones would 
actually produce more fish.
    To put it simply, the marine reserve movement seeks to 
exclude the American public from a public resource without 
scientific justification for doing so and without any input 
from recreational fishermen who use it. In addition, depending 
on the size of the areas to be closed, there could be 
significant adverse environmental effects by forcing fishermen 
from their historic fishing grounds and into other areas.
    My Freedom to Fish Act would not prevent the Federal 
Government from adopting any permanent no-fishing zones but 
would ensure that fishermen would be actively involved in the 
decisionmaking process and that no areas would become a Federal 
marine reserve unless traditional fishery management programs 
could not provide for the conservation of the resource. H.R. 
3547 would also provide that each and every marine reserve 
would be subject to review every 3 years, and based on those 
reviews, these no-fishing zones will be reopened whenever they 
fail to demonstrate positive benefits for the fishing public's 
enjoyment of our nation's fishery resources.
    Mr. Chairman, I appreciate the chance to visit with you, 
and we would be pleased to answer any questions that you or any 
other member of the Committee would have at this time, and 
again, thank you for the opportunity.
    [The prepared statement of Mr. Peterson follows:]

  Statement of The Honorable Collin C. Peterson, a Representative in 
                  Congress from the State of Minnesota

    The Chairman. Thank you for allowing me to testify before your 
subcommittee regarding Marine Protected Areas. As a leader of the 
Congressional Sportsmen's Caucus, I recently introduced H.R. 3547, 
known as the Freedom to Fish Act, which is a bill that provides 
reasonable and responsible guidelines for the use of marine protected 
areas as a fishery management tool. It requires the involvement of the 
public in the development of these areas and ensures that recreational 
fishing will only be curtailed as a last resort.
    For a long time, fishermen have supported temporary closed fishing 
seasons to allow fish populations to grow to optimum size. However, at 
the end of the closed season, fishermen rightfully expect these areas 
to be reopened in order to enjoy the benefit of their conservation 
efforts. When fishermen have a voice in the decision-making process, 
they can more readily support the conservation efforts being made.
    The present rhetoric about marine reserves differs substantially 
from this tradition of involving recreational fisherman. Some advocates 
of marine reserves intend to close vast portions of the ocean to all 
forms of fishing on a permanent basis, including catch and release 
fishing that is now being practiced by an increasing number of 
Americans.
    They want these massive areas declared off-limits to fishing 
without scientific proof that permanent no-fishing zones would actually 
produce more fish. To put it simply, the marine reserve movement seeks 
to exclude the American public from a public resource without 
scientific justification for doing so and without any input from the 
recreational fisherman who use it.
    In addition, depending on the size of the areas to be closed, there 
could be significant adverse environmental effects by forcing fishermen 
from their historic fishing grounds and into other areas.
    My Freedom to Fish Act would not prevent the Federal Government 
from adopting any permanent no-fishing zones, but would ensure that 
fishermen would be actively involved in the decision-making process and 
that no areas would become a Federal marine reserve unless traditional 
fishery management programs could not provide for the conservation of 
the resource. H.R. 3547 would also provide that each and every marine 
reserve would be subject to review every three years and, based on 
those reviews, these no-fishing zones will be reopened whenever they 
fail to demonstrate positive benefits for the fishing public's 
enjoyment of our Nation's fishery resources.
    Mr. Chairman, I would be pleased to answer any questions that you 
or any other member of the subcommittee may have at this time. Thank 
you.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Peterson.
    We will look forward to working with your group and other 
members as we pursue a better understanding of Marine Protected 
Areas, where they should be, how they should work and all of 
the variables. It is an issue that I think is vital; it is 
important; it is timely, and it will be successful only if all 
of us work together to develop that policy.
    Mr. Underwood?
    Mr. Underwood. Thank you very much for your testimony. You 
know, coming from Guam and seeing fish--I could never 
understand the concept of catch and release.
    [Laughter.]
    Mr. Underwood. And I see it, and I hear people talk about 
it, and I just do not understand that, you know, there is no 
viable end to the fishing. I just--but thank you very much for 
your testimony, and thank you very much for your legislation, 
and we will certainly consider that and take it into account as 
we continue to work on this issue.
    Mr. Peterson. Well, Mr. Chairman and Mr. Underwood, we 
would be happy to host both of you in Minnesota and show you 
why it is we do catch and release. You know, in the freshwater 
area, we had a real problem with overfishing and taking too 
many fish out of our lakes, and it really did have an impact. 
We really do not have commercial fishing many places, but the 
overfishing on sport fishing really caused problems for the 
resort industry, and, you know, we had less fishermen coming to 
the state, so we adopted these catch and release.
    I was chairman of the Game and Fish Committee in the 
Minnesota Senate for 10 years, and we adopted a lot of 
innovative regulations, and it really made a huge difference. 
We have a lot bigger fish; we have a lot more fish, and we have 
many, many fishermen now that will only keep one or two fish, 
enough to have shore lunch or whatever, and, you know, they do 
not take home a whole cooler full of fish, and it has really 
made a big difference.
    So, you know, whether that would work in the ocean, I do 
not know, but it works in Minnesota, and we would be happy to 
have you come up and sample how great the fishing is up there.
    Mr. Underwood. Well, thank you very much. I will go when it 
is warm.
    [Laughter.]
    Mr. Gilchrest. I would like to go ice fishing sometime 
there, Mr. Peterson.
    Mr. Peterson. We can do that. I have an ice house every 
year that is about 30 yards in front of my house. I live on a 
lake, and we catch a lot of fish. So you let me know, and we 
will do it.
    Mr. Gilchrest. We will come up and use your ingenuity and 
innovative ways to adopt a better policy.
    Mr. Peterson. OK; great.
    Mr. Gilchrest. Thank you very much.
    Mr. Gilchrest. Our second panel is Mr. Tim Keeney, Deputy 
Assistant Secretary for Oceans and Atmosphere, U.S. Department 
of Commerce; Ms. Rebecca Watson, Assistant Secretary for Land 
and Minerals Management, U.S. Department of the Interior.
    Is Mr. Keeney here? Oh, there is Mr. Keeney; OK, and Ms. 
Watson? There is some question whether you are Ms. Rebecca 
Watson.
    Ms. Morrison. I am not.
    Mr. Gilchrest. You are not? So you are here in lieu of 
Rebecca? And Ms. Morrison?
    Ms. Morrison. I am the Deputy Assistant Secretary for Land 
and Minerals Management.
    Mr. Gilchrest. Thank you very much for coming.
    I have a new panel list. And Ms. Morrison, when you are 
ready, ma'am, thank you very much for coming. Do you need a 
little more time to get your papers in order?
    Ms. Morrison. No, sir, I am ready.
    Mr. Gilchrest. OK; thank you very much. You may begin.

STATEMENT OF PATRICIA E. MORRISON, DEPUTY ASSISTANT SECRETARY, 
 LAND AND MINERALS MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Morrison. Mr. Chairman, I wanted to first introduce 
myself since there was some confusion. I am Patricia Morrison, 
the Deputy Assistant Secretary for Land and Minerals Management 
for the Department of the Interior, and I am here today to 
testify on behalf of the Department of the Interior on the 
implementation of Executive Order 13158, the Marine Protected 
Areas.
    I would like to thank you first for allowing the Department 
of the Interior to come and to testify about this important 
issue and would ask at this time if I could introduce and have 
my written testimony included in the record.
    Mr. Gilchrest. Without objection, so ordered. And I have to 
say something else that I forgot to say about 45 minutes ago. I 
ask unanimous consent to insert Mr. Young's statement into the 
record for the markup, if that could be done, OK? Thank you.
    Mr. Underwood. I will not object.
    Mr. Gilchrest. Thank you very much.
    [Laughter.]
    Mr. Gilchrest. Ms. Morrison?
    Ms. Morrison. Thank you.
    Mr. Gilchrest. Hold on. One other correction. Mr. Young's 
statement is for this hearing, not the markup, OK, fellows? 
Thanks. Two canoeists down there at the end of the table. Thank 
you.
    [The prepared statement of Mr. Young follows:]

Statement of The Honorable Don Young, a Representative in Congress from 
                          the State of Alaska

    Mr. Chairman, I appreciate you holding this hearing today and hope 
that it will serve as the beginning of some rational thought on the 
issue of Marine Protected Areas (MPAs).
    As all of you know, the Clinton Administration issued an Executive 
Order on Marine Protected Areas. I had a number of problems with the 
Executive Order and have let my feelings be known to the new 
Administration.
    I did not, as some of you may suspect, call for the elimination of 
the Executive Order; however, I do think it has some fatal flaws that 
will keep stakeholders from ever joining this effort.
    Fishermen--both commercial and recreational--are one of the most 
affected and most important stakeholder groups that need to understand 
and support these MPAs if they are to work. At this point, I see little 
if any attempt to bring them into the picture. In fact, I see the 
opposite. Let me give you a few examples:
    1) Proponents of the MPA idea have rallied around the idea that 
MPAs can be beneficial to fisheries conservation and management. 
Fishermen are told that MPAs will eventually result in more sustained, 
constant harvest levels. At the same time they are told this, some in 
the environmental community are telling them that they cannot have any 
access to these areas and the areas need to be vast and connected in 
order to be effective. We are also told that these areas must also be 
permanent. I'm not sure I understand the need for these restrictions.
    Regional Fishery Management Councils have used the current 
authority under the Magnuson-Stevens Act to establish areas that are 
either no fishing areas, or seasonal time/area closures to protect 
habitat or to minimize bycatch during important times of the year. 
These closures are being used to increase productivity of certain 
species and are the right step for Councils to take--in some cases--for 
fisheries conservation and management. However, because they are not 
permanent and year-round, the Clinton Administration told us they were 
not considered marine protected areas--that only permanent closure 
could be considered good for fisheries conservation and management.
    This is the same Administration that declared that the Klondike 
Gold Rush National Historic Park was a marine protected area. I'd like 
to know how an inland National Park is a marine protected area. This is 
one area of the Executive Order that needs some serious attention. The 
definition of ``marine'' that was used when developing the Executive 
Order was ridiculous and needs to be fixed.
    2) The Dry Tortugas example--This example has been hailed as a 
wonderful example of the public process at work. I disagree.
    The draft plan for the reserve included a large ``no-take'' area 
that was labeled a ``fishery replenishment zone.'' Boy, that sounds 
good. But when fishermen asked how the zone was developed and how the 
resulting ``fish replenishment'' would be monitored, the drafters of 
the plan realized they had made a mistake and couldn't answer the 
questions. So what did they do? They changed the name to ``ecological 
research reserve''. Same result--no fishing--but the lesson of the 
exercise was that the drafters of the plan had a preconceived notion of 
what they wanted and it didn't include fishermen. Is this a way to get 
stakeholder input and involvement?
    3) A number of National Marine Sanctuaries have been established 
around the country with a public process that is required under statute 
and that included significant public input. Now that some of these 
Sanctuaries are being reviewed, there is a move to close them to all 
extractive uses. This seems to me, and to a number of fishing groups, 
as a type of bait-and-switch. Let's get fishermen to be involved in the 
process to create a sanctuary which allows them continued access and 
then when we review the plan, lets kick them all out. Why not? We've 
got them on record supporting the Sanctuary, so we can kick them out 
and they can't fuss too much. Maybe I'm being too cynical, but it 
certainly seems that people really feel that way. Is this the way to 
get support for the National Marine Sanctuary Program?
    4) What are MPAs? This is a question that is the real cause of the 
frustration that fishermen have shown. Are all MPAs no-take zones? Do 
they allow limited access by fishermen? What is their purpose? How will 
we know if they are working? If they are permanent, how can they be 
changed if conditions change? Some in the environmental community want 
these areas to be a huge interconnected belt around the U.S. that 
prohibits access by fishermen permanently.
    Here is a quote from an e-mail that my staff received, ``It seems 
logical, to some at least, that we should place no-take reserves in 
places where there historically has been fishing pressure (the theory 
being that if that area has supported fishing pressure for several 
years, it must be an important habitat for that species being 
targeted).''
    If you follow this train of thought to its conclusion, the idea is: 
to protect fisheries for fishermen, you need to protect the areas that 
are important to fish. To protect the areas important to fish, find out 
what those areas are. To find out where the fish are, follow the 
fishermen. Then close the areas where fishermen fish and that will 
protect the fish and will benefit the fishermen. Is that what we are 
doing? Close the fishing grounds to help fishermen? And people wonder 
why fishermen are reluctant to embrace the idea of MPAs?
    If we are going to move forward with MPAs, we need to do a couple 
of things. First, we need to agree on terminology. If MPAs are not 
necessarily ``no-take'' zones, then people need to stop equating the 
two.
    Secondly, we need to realize that all MPAs are not the same and 
should not be managed the same manner. The Thunder Bay National Marine 
Sanctuary was established to protect historical shipwrecks not protect 
fisheries. It should not be managed in the same manner as the Red King 
Crab Savings Area in the Bering Sea.
    Thirdly, we need to realize that there are existing statutory 
authorities for MPAs and they should be used. We do not need a new set 
of laws, regulations, Executive Orders, etc.
    If we are to use MPAs as a fisheries management tool, there needs 
to be significant participation by the fishing community in the 
development of the goals and design of the MPA. The MPA needs to have 
achievable goals and the success in achieving the goals needs to be 
monitored and quantified. If the goals aren't being met, then the 
stakeholders may want to rethink the MPA. The MPAs may need to be 
fluid. Ocean conditions and habitat conditions change. If an MPA is 
established for fisheries management, it may need to change as those 
conditions change. MPAs do not necessarily need to be permanent for 
fisheries management. Depending on the goal of the MPA, a time/area 
closure or a seasonal restriction may be all that is needed. Current 
law allows this type of closure and many Regional Fishery Management 
Councils are already using them. Finally, the Councils are the 
appropriate place for these discussions to take place. If MPAs are to 
be established to help fisheries and they are being done to restrict 
fishing in specific areas, the Councils are the appropriate, and only 
appropriate place, for these MPAs to be developed and implemented.
    Mr. Chairman, I thank you for holding this hearing and look forward 
to working with the new Administration to redraft the Executive Order 
to make it workable and acceptable to the fishing community.
                                 ______
                                 
    Ms. Morrison. Thank you, Mr. Chairman. At this time, I 
would like to simply summarize my testimony and perhaps just 
hit the highlights of what the Department of the Interior's 
position is on this particular Executive Order.
    America's marine environment contains some of the vital, 
important fisheries, wildlife and natural resources that 
provide much of the fuel and food for all of its citizens in 
this country. It supports the recreational activities for 
millions of Americans, and it provides routes for domestic and 
international commerce that are critical to our security and 
economic well-being.
    We believe at the Department of the Interior that each of 
these uses is important to this country. Everyone benefits from 
the healthy and well-managed marine resources, and the 
Executive Order seems to the Department of the Interior an 
important part of achieving these goals.
    We view the Executive Order as an opportunity to focus on 
the attention of existing protected sites and, as necessary, 
set aside discrete areas which have a special natural or 
cultural resource or areas which have potential to provide a 
continuing basis for environmentally and economically 
sustainable use of the marine environment. This Executive Order 
provides the necessary framework for the development of a 
scientifically based, comprehensive national system of MPAs or 
Marine Protected Areas.
    It requires the analysis of the effects of managing or 
creating MPAs on social and economic systems while, at the same 
time, protecting the special natural and cultural resource 
values associated with these areas. We strongly agree with 
these premises and further believe that decisions involving 
MPAs should be made on the basis of the best available science 
with a full public review and with full public comment.
    The Department of the Interior has several diverse areas of 
interest in this Executive Order through its bureaus: the 
National Park Service, the U.S. Fish and Wildlife Service as 
well as the Bureau of Land Management. In addition, through the 
Minerals Management Service, the Department manages the outer 
continental shelf for environmentally sound production of oil, 
natural gas and other minerals. The OCS currently provides 
approximately one quarter of the oil and natural gas produced 
in the United States. Finally, the Minerals Management Service 
and the U.S. Geological Survey conduct significant programs of 
marine research in support of our programs to manage and 
conserve the areas of the Department's jurisdiction.
    We at the Department of the Interior strongly support the 
basic premise of the Executive Order that Marine Protected 
Areas not only provide lasting protection for valuable 
resources but that they also support the environmentally and 
economically sustainable use of these marine environments. As 
you may know, the Department has considerable experience with 
both of these concepts, which we believe are not necessarily 
mutually exclusive.
    In our review of the Executive Order, the Department has 
identified several principles which should guide us in our 
future activities. First, the Department believes that this 
order appropriately recognizes the adequacy of existing 
authorities and provides no new authorities for MPAs. We 
believe that the existing authorities are sufficient for the 
Department to carry out the mandate of Executive Order 13158 
effectively and that those authorities should be the 
cornerstone of the Marine Protected Areas.
    Second, we believe that any actions by the Federal 
Government regarding MPAs must fully involve the people for 
which they are effected. We understand and appreciate the 
important role of public input through communication and 
collaboration with the Department in our decisionmaking.
    Third, the Department of the Interior believes that the 
Marine Protected Areas Advisory Committee is an extremely 
important tool for both the Secretary of Interior and the 
Secretary of Commerce. We believe that it is critical that this 
Committee adequately be represented by all of the interests of 
the marine user groups that may be affected by MPA designations 
and management regimes.
    The Department of the Interior and Department of Commerce 
have already begun to inventory Federally managed marine sites, 
and we are in the process of initiating the inventory of marine 
sites that States, localities, tribes, and other territories 
have set aside for the protection of one or more natural or 
cultural resources in the marine areas. This is our first step 
in the deliberative and careful process that we are 
undertaking. At the end of this inventory, these sites managed 
by Federal agencies, must determined whether or not they are 
truly Marine Protected Areas, a process that highlights the 
importance of clear criteria and public involvement.
    Mr. Chairman, we believe that the Marine Protected Area 
Executive Order gives all Americans with an interest in the 
marine environment an opportunity to participate in managing it 
for the present and, more importantly, in the future. We must 
ensure that all of the interests are represented in these 
deliberations, and we must bring the best available science to 
this process. Finally, we must remember that these areas have a 
purpose and that that purpose is scientifically based 
protection of marine life; conservation of important submerged 
cultural and natural resources; and ecological and economical 
sustainable use of the marine environment for future 
generations.
    If we can successfully merge all of those requirements, we 
will develop a system that serves all Americans well.
    Thank you for your time, Mr. Chairman, and allowing the 
Department to testify.
    [The prepared statement of Ms. Morrison follows:]

Statement of Patricia E. Morrison, Deputy Assistant Secretary, Land and 
          Minerals Management, U.S. Department of the Interior

    Mr. Chairman, I thank you for the opportunity to appear before you 
today to discuss the Department of the Interior's views on the 
implementation of Executive Order 13158, Marine Protected Areas.
    America's marine environment contains vitally important fisheries, 
wildlife, as well as natural resources that provide food and fuel for 
all of its citizens. It supports recreational activities for millions 
of Americans. It provides routes for domestic and international 
commerce that are critical to our security and economic well being. 
Each of these uses is important to this country. Everyone benefits from 
healthy and well-managed marine resources, and the Executive Order is 
an important part of achieving these policy goals. We view the 
Executive Order as an opportunity to focus attention on existing 
protected sites and, as necessary, set aside discrete areas which have 
special natural or cultural resources or areas which have the potential 
to provide a continuing basis for environmentally and economically 
sustainable use of the marine environment. The Executive Order provides 
the necessary framework for the development of a scientifically based, 
comprehensive national system of MPA's, representing diverse U.S. 
marine ecosystems, and the Nation's natural and cultural resources. It 
requires the analysis of the effects of managing or creating Marine 
Protected Areas on social and economic systems while protecting the 
special natural and cultural resource values associated with these 
areas. We strongly agree with these premises. Further, we believe that 
decisions regarding MPAs should be made on the basis of the best 
available science and with full public review.
    The Department of the Interior has several diverse interests in 
Executive Order 13158. Through the National Park Service (NPS), the 
U.S. Fish and Wildlife Service (USFWS), and most recently the Bureau of 
Land Management, the Department manages hundreds of marine areas 
reserved to provide lasting protection for their important fisheries, 
precious wildlife, and natural and cultural resources. In fact, the 
USFWS manages 162 sites which are included on a preliminary inventory 
of marine managed sites, and the NPS manages an additional 39 sites. 
Through the Minerals Management Service, the Department manages the 
United States Outer Continental Shelf (OCS) for the environmentally 
sound production of oil, natural gas and other minerals. The OCS 
currently provides approximately one-quarter of the oil and natural gas 
produced in the U.S. Finally, the Minerals Management Service and the 
U.S. Geological Survey conduct significant programs of marine research 
in support of our programs to manage and conserve the areas under the 
Department's jurisdiction.
    The Department strongly supports a basic premise of the Executive 
Order that Marine Protected Areas not only provide lasting protection 
for valuable resources but that they also support the environmentally 
and economically sustainable use of the marine environment. The 
Department has considerable experience with both of these concepts 
which we believe are not necessarily mutually exclusive.
    In its review of Executive Order 13158, the Department identified 
several principles that would guide its future activities.
    First, the Department believes that the Executive Order 
appropriately recognizes the adequacy of existing authorities, and 
provides no new authority for Marine Protected Areas. The authorities 
for the management of existing Marine Protected Areas are contained in 
their charters and in the organic authorities of the agencies that 
manage them. In the case of the Department of the Interior, these sites 
are National Parks, National Wildlife Refuges, and a National Monument. 
We believe that existing authorities are sufficient for the Department 
of the Interior to carry out the mandate of Executive Order 13158 
effectively. We also believe these authorities are clear and well 
understood by the public. They should be the cornerstones of a Marine 
Protected Areas Program.
    Second, we believe that any actions by the Federal Government 
regarding Marine Protected Areas must fully involve the people most 
directly affected by those actions. The Department of the Interior has 
a long history of land management. We understand and appreciate the 
important role of public input in our decision making. The Department 
most recently demonstrated its commitment to public participation 
through the Secretary's broad invitation for the public's involvement 
in the planning process for management of the many monuments 
established by the previous administration. We believe that public 
education and involvement should be major components of the Marine 
Protected Areas initiative.
    Third, we believe that the Marine Protected Areas Advisory 
Committee is an extremely important tool for both of the Secretaries. 
This Committee offers the opportunity for the various interest groups 
to advise the Secretaries about the scope and direction of this 
program. We believe that it is critical that this Committee adequately 
represent the interests of the many marine user groups that may be 
affected by Marine Protected Area designations and management regimes.
    The Department of the Interior and the Department of Commerce 
together have already begun to inventory Federally managed marine sites 
and are in the process of initiating the inventory of marine sites that 
States, localities, tribes and territories have set aside for the 
protection of one or more natural or cultural resources. This is a 
first step in a deliberate and careful process. At the end of this 
inventory of these sites and sites managed by Federal agencies, we must 
determine which are truly Marine Protected Areas, a process that 
highlights the importance of clear criteria and public involvement. 
Subsequently, we must determine if this ``patchwork quilt'' of 
protected areas approaches an effective ``National System'' as 
envisioned in the Executive Order. If we determine that existing 
protected areas do not provide the benefits envisioned in the Executive 
Order, we must determine if changes in their management would provide 
those benefits. We see this as a long-term deliberative process in 
which good science and public review are critical. Our goal is to 
conduct a thorough analysis of existing Marine Protected Areas and how 
they provide or do not provide for an effective ``National System'' 
prior to considering the designation of new Marine Protected Areas.
    The designation of new Marine Protected Areas is probably the facet 
of this program which arouses the greatest emotion. In addition to 
existing legislative authorities for designation, we believe that the 
designation of new Marine Protected Areas should be based on needs 
identified from the inventory of existing protected areas, and on sound 
science and full public review. We believe that the Executive Order is 
clear about the considerations that must precede the designation of a 
new Marine Protected Area. Some of those considerations should 
supplement existing processes required for the designation of protected 
areas under Federal statutes and laws such as the National 
Environmental Policy Act.
    Finally, we believe that the Executive Order's requirement that 
Marine Protected Areas be monitored and evaluated for their 
effectiveness should be rigorously followed. This is an important 
process. We must be prepared to examine management regimes and 
protected area boundaries as part of this process and be prepared to 
take necessary steps to enhance the effectiveness of protected areas. 
As with all important components of this process, the evaluation of 
effectiveness should be based on the best available science and full 
public participation.
    Mr. Chairman, the Marine Protected Area Executive Order gives all 
Americans with an interest in the marine environment an opportunity to 
participate in managing it for the present and the future. We must 
ensure that all interests are represented in these deliberations. We 
must bring the best available science to the process. Finally, we must 
remember that these areas have a purpose, and that purpose is the 
scientifically-based protection of marine life, conservation of 
important submerged cultural and natural resources, and ecologically 
and economically sustainable use of the marine environment for future 
generations. If we can successfully merge these requirements, we will 
develop a system that serves all Americans well.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Ms. Morrison.
    Mr. Keeney, welcome.

STATEMENT OF TIM KEENEY, DEPUTY ASSISTANT SECRETARY FOR OCEANS 
          AND ATMOSPHERE, U.S. DEPARTMENT OF COMMERCE

    Mr. Keeney. Thank you, Mr. Chairman, Chairman Gilchrest and 
Ranking Member Underwood.
    Good afternoon. I am Timothy R.E. Keeney, Deputy Assistant 
Secretary of Commerce for Oceans and Atmosphere. Thank you for 
the opportunity to discuss the Department's views on Marine 
Protected Areas and to report on our progress in implementing 
the Marine Protected Areas Executive Order 13158.
    Mr. Chairman, I would like to ask that my complete written 
statement be introduced into the record. Thank you.
    Last June, Secretary of Commerce Donald Evans issued a 
statement on MPAs which we wish to include for the record as 
well, Mr. Chairman.
    [The prepared statement of Secretary Evans follows:]

Statement by Secretary of Commerce Donald L. Evans Regarding Executive 
       Order 13158, Marine Protected Areas (Dated: June 4, 2001)

    Washington, DC--``The Administration has decided to retain 
Executive Order 13158 on marine protected areas. America must strive to 
harmonize commercial and recreational activity with conservation. We 
can do both.
    This Administration is committed to improving conservation and 
research in order to preserve our great marine heritage. It is a 
national treasure. It must be protected and dutifully maintained.
    At the Department of Commerce alone, the President's budget 
included $3 million in first time funding to support marine protected 
area activities consistent with existing law. If approved by Congress, 
these dollars can help us better manage this critical effort.
    I also plan to appoint a Marine Protected Area Advisory Committee 
comprised of key experts and stakeholders. The membership will include 
academic, state and local, non-governmental and commercial interests. 
The process will be open and will draw on America's great reservoir of 
experience and expertise.
    Past MPA designations like the Dry Tortugas in the Florida Keys 
were successful because they followed a well-planned process and 
secured grassroots support. The Dry Tortugas MPA offers a model for the 
years ahead.
    Conservation can be balanced with commercial and recreational 
activity. It is our stewardship responsibility. We will work with the 
Department of Interior, the Environmental Protection Agency and other 
federal agencies to safeguard our valuable coastal and ocean resources 
for the tomorrows in which we all will live.''
                                 ______
                                 
    Mr. Keeney. In this statement, he announced the 
Administration's decision to retain the MPA Executive Order.
    Secretary Evans underscored the need to harmonize 
commercial and recreational activity with conservation and 
declared that we can do both. The Executive Order provides for 
a useful set of organizing principles for us to achieve these 
aims. I want to reaffirm the Administration's commitment to 
working with the Subcommittee to address the opportunities and 
challenges in using this promising resource management tool.
    The term MPA is broadly used to describe specific marine 
areas that could be called reserves, parks, sanctuaries, 
refuges, fishery management zones, wildlife preserves and 
conservation areas. They come in a wide range of shapes, sizes 
and management characteristics established for different 
purposes with varying types of protection and uses. MPAs are 
most effective when used in combination with and as a 
complement to other management measures. MPAs have long been 
used by NOAA as a tool contributing to fishery management to 
rebuild fish populations, maintain healthy fish stocks, restore 
and protect marine habitats and recover protected species.
    NOAA also uses MPAs to conserve areas for their ecological, 
historic, recreational, scientific and educational value under 
our authorities to establish national marine sanctuaries and, 
in partnership with coastal states, national estuarine research 
reserves.
    Only a small portion of our MPAs are fully restricted in 
terms of extractive activities. We also know that once 
established, MPAs must be adequately supported, especially in 
two key areas: the enforcement of conservation measures and the 
monitoring of effectiveness of the site in achieving its goals. 
The MPA Executive Order stems directly from the recognition 
that the widespread interest in establishing MPAs is at all 
levels of government; provides opportunities for common 
approaches, terminology and objectives.
    To this end, the Executive Order directs the Departments of 
Commerce and the Interior to work closely with all levels of 
government and stakeholders to coordinate and share 
information, tools and strategies for the effective management 
for the nation's diverse systems of MPAs.
    The Order's mission and activities are intended to support 
existing MPA programs and statutory authorities. The order does 
not--and I repeat does not--designate new sites, create new 
authorities or change existing ones, focus solely on no-take 
reserves, set specific targets for habitat protection, 
restructure existing MPA programs or Federalize state or local 
programs.
    The National MPA Center has been working across NOAA and 
with the Department of the Interior to build the foundation 
necessary to carry out the Executive Order. The following are 
some of the achievements that have been reached since the 
signing of the Executive Order in May of 2000: the order calls 
for the Department to establish an MPA Federal advisory 
Committee. The planned 25-member committee of resource 
managers, scientists and stakeholders will advise the 
Secretaries of Commerce and the Interior on the national system 
of MPAs. Establishing the committee has involved two rounds of 
nominations and dedicated efforts of a joint NOAA-Interior 
review team. We are nearing completion of this selection 
process.
    Also, to help resolve the confusion over MPA terminology, 
we are developing a simple user's guide to MPA types and terms. 
We are also working to build a dialog with the fishing 
community by cosponsoring fishermen forums; holding a national 
conference on MPAs called RecFish II to be held in Florida 
early next year and briefing the Fishery Management Council 
Chairmen on the Executive Order next week in Sitka, Alaska.
    We are also improving the mpa.gov website and holding a 
series of educational workshops aimed at increasing the 
awareness and understanding of MPAs. The Center is developing 
research strategies for natural and social science to meet the 
need for improved science-based decisionmaking on MPAs. In 
partnership with the Department of the Interior, we have also 
begun a comprehensive inventory of marine areas under all 
levels of management. Science and experience indicate that MPAs 
can be effective tools, especially when designed in concert 
with existing management measures and when planned and 
established with broad, meaningful and equitable stakeholder 
input.
    In conclusion, we all value the nation's oceans and benefit 
from their sustainable use. Through NOAA's continuing efforts 
to use science-based MPAs as a proven management tool, we are 
working together with partners and stakeholders to protect the 
nation's most important marine areas and the human communities 
they support. We welcome the Subcommittee's involvement in this 
evolving national dialog regarding the role of MPAs as a 
management tool. Thank you, Mr. Chairman; I would be pleased to 
answer any questions.
    [The prepared statement of Mr. Keeney follows:]

Statement of Timothy R.E. Keeney, Deputy Assistant Secretary for Oceans 
 and Atmosphere, National Oceanic and Atmospheric Administration, U.S. 
                         Department of Commerce

    Chairman Gilchrest and members of the Subcommittee, thank you for 
the opportunity to appear before you today to discuss the role of 
marine protected areas as a promising marine resource management tool 
and to report on the progress being made by the Department of Commerce 
in implementing the Marine Protected Areas (MPA) Executive Order 13158 
of May 26, 2000. MPAs can be an important and versatile tool in meeting 
multiple objectives for conservation and resource use in the marine 
environment. They are most effective when used in combination with, and 
as a complement to, other management measures. MPAs are, however, not 
without controversy. I will describe some of the current sources of 
confusion surrounding MPAs and how they are used, and highlight what 
NOAA is doing through the implementation of the Executive Order (E.O.) 
to encourage this healthy and evolving national debate.
    Last June, Secretary of Commerce Donald Evans issued a statement on 
MPAs in which he announced the Administration's decision to retain the 
MPA E.O. He expressed the Administration's commitment to ``improving 
conservation and research to preserve our great marine heritage'' with 
$3 million in first time funding for the Department ``to support MPA 
activities consistent with existing law.'' He underscored the need to 
``harmonize commercial and recreational activity with conservation'' 
and ``declared that we can do both.'' Subsequently, $3 million was 
appropriated for MPA activities in Fiscal Year 2002; and, again in the 
President's Fiscal Year 2003 Budget, the Administration has requested 
to retain the $3 million in funding for MPA activities. The E.O. charts 
a course of action for the development of a scientifically based, 
comprehensive national system of MPAs, representing diverse U.S. marine 
ecosystems, and the Nation's natural and cultural resources. Similarly, 
it offers a useful set of organizing principles for us to follow in 
achieving these aims. I want to reaffirm the Administration's 
commitment to working with the Subcommittee to address both the 
challenges and opportunities related to this resource issue. Today I 
would like to discuss several things, including some basic details 
about MPAs, such as what they are, how they are used, and some common 
misconceptions about them. In addition, I would like to discuss NOAA's 
charge under the E.O. and the status of the MPA Executive Order 
implementation.
What are MPAs and some common misconceptions?
    The term ``MPA'' is broadly used to describe specific marine areas 
that are given some sort of special protection for marine resources. 
The term itself has been used for over two decades, while the concept 
of using MPAs for allocating and managing marine resources has been 
around for centuries. There are many different types of MPAs in use 
around the world today. They come in a wide range of shapes, sizes, and 
management characteristics, established for different purposes with 
varying types of protection and uses.
    MPAs can be unique tools in marine resource management because they 
can shift the emphasis from the traditional single-species focus to the 
protection of a specific area or habitat. In so doing, they can often 
help meet multiple goals and objectives in a single area. MPAs are an 
important and frequently used tool for fishery management, with 
examples including area and seasonal fishing closures for the 
protection of habitat, or closures for restoration of depleted stocks. 
Other types of MPAs maintain biodiversity and functioning ecosystems, 
protect sensitive habitat and endangered species, preserve historically 
or culturally important submerged archaeological resources, or provide 
valuable opportunities for science, recreation, and education in 
natural areas. MPAs designed to increase scientific knowledge or 
protect biodiversity and MPAs designed for recreational or fishery-
enhancement purposes are not mutually exclusive.
    Last month, NOAA Assistant Administrator for Fisheries, Dr. William 
Hogarth testified on MPA policy before the U.S. Commission on Ocean 
Policy. Dr. Hogarth described how much of the current confusion and 
controversy regarding MPAs stems from the continued uncertainty about 
the terminology used to define what is an MPA or what activities will 
be prohibited if an MPA is established. The controversy also stems from 
the mistaken belief that there is some specific percentage of the 
marine environment targeted to be set aside from all use, as well as 
the perception that MPAs are synonymous with the complete prohibition 
of all extractive activities, such as fishing, mining, etc.
    I am aware of the concerns the topic raises at all levels and agree 
with Dr. Hogarth's observations, especially with regard to the 
perception that MPAs are synonymous with total prohibitions. The 
perception that all MPAs are ``no-take'' reserves, when in fact MPAs 
can encompass (sometimes within the same site) a wide variety of 
management approaches and allowable uses, is perhaps the greatest point 
of confusion regarding MPAs.
    MPAs may be called reserves, parks, sanctuaries, refuges, fishery 
management zones, seashores, wildlife preserves, and conservation 
areas. Sometimes the same term is used to describe distinctly different 
types of MPAs. The wide array of ill-defined terms to describe MPAs 
contributes to the high level of confusion among both proponents and 
detractors. This in turn creates contention, often where it need not 
exist.
    In considering the use of MPAs, as well as other resource 
management tools, we must clearly identify the management problem to be 
solved and examine the range of potential solutions before determining 
that an MPA should be implemented. The success of any type of MPA is 
based on the protection it provides to ensure a healthy marine 
ecosystem and by the level of stakeholder participation and community 
support that can be achieved. We also know that once established, MPAs 
must be adequately supported, particularly in two key areas: the 
enforcement of any conservation measures that have been implemented and 
the monitoring of effectiveness to verify that the site is fulfilling 
the goals for which it was created.
How MPAs are used at NOAA.
    NOAA uses MPAs as a tool to manage fisheries and other marine 
resources for a number of reasons. Among these reasons are rebuilding 
fish populations; maintaining healthy fish stocks; restoring and 
protecting marine habitats; recovering protected species; protecting 
areas for the purposes of science, education, and cultural and historic 
resources; and conserving the integrity of marine ecosystems on which 
healthy fish populations and protected species depend.
    More specifically, we use MPAs to protect fish spawning areas; 
conserve essential fish habitats; and restore endangered, threatened, 
and depleted marine mammal, sea turtle, and fish populations. NOAA also 
uses MPAs to conserve areas for their ecological, recreational, 
cultural, scientific, and educational value under our authorities to 
establish national marine sanctuaries and, in partnership with coastal 
states, national estuarine research reserves. Our MPAs cover a wide 
gamut, ranging in size, purpose, and level of protection. Those related 
to the management of living marine resources form the largest category, 
both in terms of number and area. Only a small portion of these sites 
are fully restricted in terms of extractive activities.
    Each living-marine-resource-management MPA is designed to fulfill 
particular objectives, such as rebuilding a distinct stock of 
commercially or recreationally targeted fish, recovering an endangered 
marine mammal or turtle species, or protecting a sensitive coral reef 
ecosystem. Unlike other types of MPAs, fisheries-management and related 
MPAs may not be designed to exist in perpetuity. Upon fulfilling its 
intended management objective, a particular MPA may be reduced in size 
or level of protection or may be discontinued. Temporary fishery 
closures or restrictions are still considered MPAs because they have 
been created as an area-based protection to fulfill a specific 
conservation objective. NOAA monitors and reviews all of its MPAs to 
ensure they are achieving their management objective and strives to 
implement changes in a timely manner where they are warranted.
    NOAA also uses MPAs to provide valuable research on the status of 
species and habitats. For example, NOAA Fisheries is currently involved 
in several projects in the southeast region to monitor the status of 
reef fish and coral reef habitats in the Florida Keys National Marine 
Sanctuary (in conjunction with the Sanctuary), Oculina Bank Habitat 
Area of Particular Concern off the Eastern central coast of Florida, 
and the Hind Bank Marine Conservation District in the U.S. Virgin 
Islands. These MPA monitoring activities help the agency complete the 
annual Status of Fisheries report, a public document that details the 
status of managed stocks. More importantly, these types of MPAs provide 
valuable information regarding the characteristics of fish stocks and 
their habitats, such as rebuilding and recovery times, historical 
abundance levels, and population structure. This information can then 
be incorporated into fishery management plans for improved management. 
In addition, MPAs such as the Monitor National Marine Sanctuary and the 
Thunder Bay National Marine Sanctuary have been designated for the 
coordinated protection and management of submerged cultural resources, 
enabling researchers to further understand and build on the historical 
record made possible by the existence of these underwater shipwrecks.
Our charge under the MPA Executive Order
    Signed on May 26, 2000, the MPA Executive Order stems directly from 
the recognition that the widespread interest in establishing MPAs among 
many Federal and state agencies poses a tremendous opportunity for 
conservation. To this end, the E.O. directs the Department of Commerce 
and the Department of the Interior (DOI) to work closely with other 
Federal, state, local, and tribal authorities, non-governmental 
partners, and stakeholders to coordinate and share information, tools, 
and strategies, and provide guidance on the use of technical and 
scientific studies to strengthen the effectiveness of existing MPAs. 
This includes support from evaluating the management effectiveness of 
existing MPA sites. The E.O. also directs the Department of Commerce 
and the Department of the Interior to develop a science-based framework 
for a national system of MPAs representative of the Nation's diverse 
natural and cultural ocean and coastal resources. The Order makes it 
clear that our mission and activities are intended to support existing 
agency programs and statutory authorities and not to duplicate, 
overshadow, or interfere with them. Nonetheless, it is important to 
emphasize what the Executive Order does not do. It does not:
    <bullet> designate new sites,
    <bullet> create new authorities or change existing ones,
    <bullet> focus solely on ``no-take'' reserves,
    <bullet> set specific targets for habitat protection,
    <bullet> restructure existing MPA programs,
    <bullet> supercede or ignore best available science, or
    <bullet> ``Federalize'' state or local programs.
    The MPA E.O. defines ``MPA'' for the purposes of the Order as ``any 
area of the marine environment that has been reserved by Federal, 
State, territorial, tribal, or local laws r regulations to provide 
lasting protection for part or all of the natural and cultural 
resources therein.''
    In identifying the development of a science-based framework and 
network approach for managing marine resources, the Order challenges us 
to improve science and coordination and encourages the use the various 
existing authorities associated with the many types of MPAs, as an 
important aspect of marine resource management strategy.
    The E.O. recognizes that resource managers from Federal, State, and 
local agencies, tribes, regional fishery management councils, and 
others have been designing, implementing, and refining MPAs for decades 
and directs the Department of Commerce/NOAA and the Department of 
Interior to seek their expert advice and recommendations.
    The E.O. calls for the establishment by the Department of Commerce 
of an MPA Federal Advisory Committee, which I will discuss in more 
detail shortly.
    NOAA and DOI agencies are directed also to establish a publicly-
accessible web site, mpa.gov, for disseminating information on MPAs and 
to publish and maintain a list of MPAs.
Status of Executive Order Implementation
    The $3 million appropriated by Congress in Fiscal Year 2002 to the 
National Oceanic and Atmospheric Administration has enabled the agency 
to build the foundation necessary to carry out the E.O., including the 
establishment of the National MPA Center called for in the Order. 
Housed in the NOAA Ocean Service, the MPA Center receives staff level 
support from the NOAA Fisheries and NOAA Research agencies, as well as 
from the Department of the Interior's Minerals Management Service, 
National Park Service, Fish and Wildlife Service, and Geological 
Service.
    The Center has co-located its Science Institute with the NOAA 
Fisheries Laboratory in Santa Cruz, California, and its Training and 
Technical Assistance Institute with the NOAA Coastal Services Center in 
Charleston, South Carolina. Both Institutes are actively working to 
fill some of the key information gaps regarding MPAs, and are forming 
diverse partnerships with other agencies, academia, and industry. The 
MPA Center and its two thematic Institutes are dedicated to the 
principle of leveraging external capacity by working closely with 
institutions already engaged in various aspects of MPA design, 
management, and evaluation.
    With the appropriated funding, the Center has begun to focus on the 
national need for consistent information, education, science and 
analysis, and technical assistance and training on MPAs that the E.O. 
was envisioned to address. The Center has allocated these funds to 
focus on the national need for communication, education, and 
information ($950,000); science, analysis, and inventory ($1,150,000); 
and training and technical assistance ($900,000). Funds are being used 
in all three of these categories to engage stakeholders as called for 
in the Fiscal Year 2002 Marine Protected Areas Spending Plan for the 
Engagement of Stakeholder Groups, which was approved by House and 
Senate Appropriations Committees in March 2002. The National MPA Center 
will also play an instrumental role in helping to facilitate broad 
engagement in planning and public involvement processes for 
identifying, assessing, and evolving toward a more comprehensive and 
integrated network of MPAs. The following are some specific examples in 
three broad areas of what we have been able to accomplish since 
approval of the E.O. in May 2000 in engaging stakeholders, building the 
scientific foundation, and building capacity.

1. Engaging Stakeholders:
    The 2001 National Academy of Sciences report on MPAs stressed the 
need to involve all potential stakeholders through all phases of 
consideration and implementation MPAs if they are to be successful and 
achieve their goals. In recognition of the importance of maximum 
involvement, NOAA continues to engage a broad range of stakeholders in 
a national discussion on the potential of MPAs to conserve marine 
resources, while using these national and regional forums to gain input 
on needs and concerns surrounding MPA use. For example:
    Advisory Committee -- The E.O. calls for the Department of Commerce 
to establish an MPA Federal Advisory Committee. We expect this 
Committee to be one of the key avenues for engaging stakeholders at the 
national level. The planned 25-member Committee would advise the 
Secretary of Commerce and the Secretary of the Interior on the 
development of a national system of MPAs. Establishing the Advisory 
Committee has involved two rounds of nominations and dedicated efforts 
of a joint NOAA-Department of Interior review team. Selecting a group 
of individuals representing the wide range of commercial and non-
commercial interests and scientific disciplines related to the coastal, 
marine and Great Lakes environments from the nearly 350 well-qualified 
applicants has proven to be quite a challenge. We are nearing 
completion of this selection process. Once background checks are 
completed and formal appointments by the Secretary of Commerce are 
made, the first meeting of the Committee will convene.
    Users' Guide To MPA Terms and Types -- There is considerable 
confusion about how MPAs are used and for what purpose. In order to 
create a common language among all participants in the MPA discussion, 
the MPA Center Science Institute is developing a simple ``users'' 
guide'' to the many types and purposes of MPAs and to the growing body 
of scientific and policy terms used to describe them.
    Outreach to Fishermen -- The National Marine Fisheries Service in 
collaboration with the MPA Center and NOAA Sea Grant Program will be 
holding a national conference on MPAs, called ``RecFish II'', in 
Florida in February 2003. The meeting is designed to enable the 
recreational fishing community to discuss their concerns regarding MPAs 
and provide an opportunity to contribute to a white paper for 
consideration by the MPA Federal Advisory Committee and other bodies. 
Earlier this year, the MPA Center Science Institute was instrumental in 
building a two-way dialogue with the fishing community on the west 
coast regarding the uses of MPAs and the underlying science and 
socioeconomic issues. The two Fishermen's Forums served to inform this 
key stakeholder group about the costs and benefits of MPAs, 
demonstrated the importance of effective participation in MPA planning 
processes, and provided a model for similar Forums in other parts of 
the country. And at the end of May, representatives from the MPA Center 
will brief the Chairs and Executive Directors of the Fishery Management 
Councils at their invitation on the E.O., the Center's current 
activities and work plans, and the legal authorities associated with 
the design and management of Federal MPAs.
    mpa.gov Web Site -- The various components of the mpa.gov web site 
continue to develop in scope and size, particularly the virtual MPA 
library, maps, and background information on existing sites. The MPA 
Center plans to conduct a major revision of the web site to reflect the 
evolution in experience gained since the site was unveiled in 2000.
    Education Workshops -- The Center is working with other NOAA 
programs in sponsoring a series of educational workshops for site-based 
educators to increase the awareness and understanding of MPAs among 
site interpreters, K-12 grade students, teachers, and the general 
public. The first MPA workshop was held in November 2001 in Maryland 
and two more are planned for California and Minnesota in September 
2002.

2. Building the Scientific Foundation:
    Most MPA legislation and policy requires science-based decision 
making in both the design, management and evaluation of MPAs. Relevant 
science ranges from oceanography, ecology, population dynamics, 
pollution threats, effects of human activities on marine processes, and 
carrying capacity, to aspects of the human dimension such as economic 
impacts, social systems, and cultural heritage.
    Social and Natural Science Strategies -- The human dimension is 
critically important in the effective design and management of sites, 
and in their long-term support by the affected communities. Recognizing 
the growing demand to base MPA design and management on sound and 
transparent science, the MPA Center is developing parallel strategy 
documents on the natural and the social science needs for MPAs. In 
April, the MPA Center's Science Institute convened a workshop attended 
by over 80 scientists and practitioners from across the U.S. and Canada 
to identify information gaps and research priorities to form the basis 
for a social science strategy. This, along with a natural science 
strategy, expected in late 2002, will help guide the allocation of 
limited resources toward filling the most important information gaps.
    Collection of Information on Existing U.S. Sites -- Before 
assessing how existing MPAs might contribute as part of regional 
networks and a national system, it is first necessary to determine what 
currently exists. NOAA and the Department of the Interior have begun 
building a comprehensive database of marine areas under Federal, state, 
territorial, tribal, and local management. Profile information for 
about 280 sites from five Federal programs within NOAA and DOI has been 
collected. This information has been posted on the web site in mapped 
and text formats. A State Advisory Group has been established to 
provide guidance and recommendations as the team moves on to initiate 
the collection of state and territorial data.
    Measuring MPA Effectiveness and Lessons Learned -- A second factor 
in assessing regional MPA networks or establishing a national system is 
determining the effectiveness of existing sites. Increasingly, MPA 
agencies are required, whether by law, policy or stakeholder demands, 
to demonstrate that MPAs are effective in meeting their goals and 
objectives. To this end, NOAA's MPA Center Science Institute is working 
with a variety of domestic and international partners to develop 
practical measures of MPA effectiveness, and to provide a single, 
publicly-accessible web site for monitoring results and trends in the 
health of protected ecosystems. Related to measuring effectiveness is 
the evaluation of the approaches used to establish MPAs by various 
authorities. In the past few years, a number of high-profile efforts 
have been undertaken to plan and establish MPAs, some more successful 
than others. In an effort to learn from these experiences, and to 
ultimately improve meaningful stakeholder engagement in MPA planning, 
the MPA Center Training and Technical Assistance Institute is 
conducting an analysis of the lessons learned from six recent processes 
in the U.S.

3. Building Capacity:
    MPA Needs Assessment -- A major, comprehensive national needs 
assessment was completed in March 2002 by the NOAA Coastal Services 
Center in cooperation with the National MPA Center. The assessment 
targets the needs of coastal and marine resource managers for 
information, skills, tools and processes to foster the effective 
management of MPAs at all levels of government and marine uses.
    Facilitate External Training -- The Training and Technical 
Assistance Institute will continue to populate the database for 
existing training and technical assistance providers. This database 
will be used to refer requests for training and technical assistance to 
appropriate providers. The Institute will also work with established 
providers to modify training so that it addresses MPA issues and MPA 
staff needs.
    Fishery Management Council Technical Support -- The Training and 
Technical Assistance Institute has been providing a range of technical 
support for the South Atlantic Fishery Management Council as the 
Council moves forward with their decision to use MPAs as a management 
tool to aid in the recovery of severely over-fished deepwater snapper-
grouper species in the region.
Conclusion
    We all share concerns about the increased demands being placed on 
living marine and submerged cultural resources and the mounting threats 
to the quality and abundance of these resources. Finding a way to meet 
our needs from the ocean while ensuring that these resources are 
sustained for the benefit of future generations is a challenge we all 
must confront. Science and experience indicate that MPAs can be 
effective tools to help manage, protect, and sustain the nation's 
valuable marine resources, as well as the people and economies that 
depend on them, but they are not a panacea to solve all management 
challenges. Many challenges remain as we implement the Executive Order, 
including finding ways to better integrate MPAs with existing 
authorities and approaches for meeting resource conservation goals. We 
welcome the Subcommittee's involvement in this evolving national 
dialogue regarding the role of MPAs as a management tool. Thank you Mr. 
Chairman. I would be pleased to answer any questions
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Keeney.
    Ms. Morrison, you said in your testimony that the Executive 
Order gave you, Interior, and I assume you also meant Commerce, 
adequate existing authority for Marine Protected Areas, and so, 
you feel that there is no need for any type of legislation 
dealing with this issue or creating more expansive policies 
dealing with this issue.
    Ms. Morrison. Mr. Chairman, at this time, I think it would 
be premature to say that additional legislative action needs to 
be taken. I think as we evaluate each of the areas that we are, 
with NOAA, creating an inventory of marine areas; evaluating 
their existing authorities to see if there is additional 
protection that is needed, and I think through that--what I 
would call a universal data base of the inventories and of 
those existing authorities--we can then make that decision 
determination better with NOAA.
    Mr. Gilchrest. So with the Executive Order, Interior and 
NOAA are looking for areas that--and also looking for criteria, 
I would assume--first of all, looking for criteria upon which 
you might base Marine Protected Areas for parks, refuges, 
fishery management zones, conservation areas, sanctuaries and 
those kinds of things. So you are looking to develop criteria 
to set aside areas in the ocean for these types of reserves; is 
that correct?
    Ms. Morrison. I think that is essentially correct, yes, 
yes, sir.
    Mr. Gilchrest. And at this point, no additional legislation 
is needed to pursue that, developing criteria for various areas 
that can be set aside for various reasons, whether it is 
fishing or conservation or refuges or whatever.
    So, Mr. Keeney, you said that the Executive Order--at this 
point, the Executive Order does not designate new sites other 
than what we have right now; does not create new authorities; 
focuses solely on no-take reserves; sets specific targets for 
habitat protection and so on, but you do not have any authority 
to designate new sites that could be a refuge, a sanctuary or 
whatever under the Executive Order?
    Mr. Keeney. That is correct, Chairman Gilchrest. We believe 
the Executive Order, though, has been extremely helpful in 
getting NOAA to integrate its existing statutory authorities, 
and it gives us sort of an umbrella to review all of the 
protected areas that we currently have and to look at them in 
their totality.
    Mr. Gilchrest. Will Interior or NOAA, sometime within 6 
months, a year, 5 years, recommend different additional areas 
based on your research to be put into a certain category that 
could be called protected or a sanctuary or a refuge or a 
fishing reserve, et cetera?
    Mr. Keeney. Mr. Chairman, we can do that under existing 
statutes.
    Mr. Gilchrest. Pardon?
    Mr. Keeney. We can do that under existing statutes, find 
additional protected areas.
    Mr. Gilchrest. And then designate them as protected?
    Mr. Keeney. We can.
    Mr. Gilchrest. You can now?
    Mr. Keeney. Yes.
    Mr. Gilchrest. What advantage did the Executive Order give 
you?
    Mr. Keeney. I think the primary advantage it gave us was 
the ability to review all existing protected areas from the 
scope of what does a protected area mean to begin with? As you 
know, we use Marine Protected Areas for many different reasons, 
and this also allows us to work more closely, with our co-
department, the Department of the Interior, to jointly work out 
some of the issues and to better manage the resources that we 
have.
    Mr. Gilchrest. Did both Interior and NOAA work on the 
sanctuary in the Florida Keys together? Or did you have 
anything to do with that?
    Mr. Keeney. Yes, Mr. Chairman, we did work together jointly 
on the designation and management plan for the Florida Keys 
Marine Sanctuary Area. The Dry Tortugas area is a national 
park, and it was actually designated as a no-take for fishing 
area after a very extensive review with all of the stakeholders 
involved: fishermen, residents of Florida, Department of the 
Interior and other state and local authorities.
    Mr. Gilchrest. So your participation in the development of 
that particular sanctuary came from existing authority in NOAA 
and if Interior participated in that. Did the Executive Order 
give any enhanced authority in that process?
    Mr. Keeney. I do not believe the Executive Order gives us 
any enhanced authority. As I recall, we had a statute that 
actually directed us to--
    Mr. Gilchrest. I see.
    Mr. Keeney. --to designate the Florida Keys as a marine 
sanctuary. It was passed in 1990.
    Mr. Gilchrest. The last question that I have is if you look 
at existing authority, and you look at the Executive Order, 
where do those intersect with the Oculina area off Florida and 
the decision to close George's Bank some few years ago?
    Mr. Keeney. The Oculina area off of Florida and the 
George's Bank off of New England are areas that are 
specifically managed under the Magnuson Act, Magnuson-Stevens. 
But this Executive Order will assist us in integrating the 
appropriate management of those areas.
    Mr. Gilchrest. So there is a great deal that can be learned 
about--it seems to me that those areas now are under review. 
There is a lot of information coming out from those areas about 
the benefits to the full range of that ecosystem, and I would 
assume, then, that the knowledge gained in those two areas, 
Oculina and George's Bank, can be replicated and adapted in 
other areas, I would hope.
    Mr. Keeney. Absolutely.
    Mr. Gilchrest. And just a quick closing comment, and then, 
I will yield to my friend from Guam. As we go through this 
process, and I am sure that both of you have made that 
definitive statement that bringing in all of the stakeholders 
in the process is really vital for the success of that process. 
And it seems that while there are some hiccups in the sanctuary 
in the Florida Keys, once that became apparent that that was 
part of the success of that project.
    Mr. Keeney. We believe that was probably the most important 
element in designating the Florida Keys Sanctuary and in 
putting together the management plan.
    Mr. Gilchrest. Thank you very much.
    Mr. Underwood?
    Mr. Underwood. Thank you very much, Mr. Chairman, and thank 
you for the questions and the extent of their authority and 
whether new legislation is needed. I think down the road, there 
has to be some decisions made about whether new legislation is 
needed regarding the MPA Executive Order.
    This is a question for both of you, and I am interested in 
hearing your perspectives about how the two agencies coordinate 
with each other in the designation of MPAs. Structurally, how 
does that work, since you are both here?
    Ms. Morrison. Mr. Underwood, what we have taken in the 
Department of the Interior, there is a Mr. Joe Uravitch at NOAA 
that we are coordinating with, and we are working through a 
list of issues with them. It seems to be about on a weekly 
basis that we touch base, and to the extent that we have 
meetings with the States or meetings with stakeholders. We are 
doing that jointly and staffing that through MMS as well as 
through Fish and Wildlife.
    So it is a group with the acting director for MPAs, Joe 
Uravitch, at NOAA as well as myself and my staff, and we are 
meeting roughly every week.
    Mr. Underwood. Mr. Keeney, do you have a response to that?
    Mr. Keeney. Yes, Congressman Underwood. Any rule that we 
develop at NOAA goes through interagency review and necessarily 
would be reviewed by the Department of the Interior. Also, 
statutes like the Marine Mammal Protection Act and the 
Endangered Species Act give joint authority to each department 
with particular responsibilities, and there are many occasions 
when we are both involved in trying to address the challenges 
that those acts present.
    Mr. Underwood. I know you mentioned this, Mr. Keeney, in 
your testimony; you did not, Ms. Morrison, but talking about 
the advisory council, it seems that this has taken some 
significant amount of time to put the council in place. So what 
is the current status of that, and when can we see it come into 
place? And if you do not have sufficient candidates, I can 
suggest some candidates.
    Ms. Morrison. Currently, Mr. Underwood, we are reviewing 
the candidates for that council, and I would expect very 
shortly we will have that advisory council pulled together. 
Both agencies have offered up candidates, and we are going 
through that process that I described earlier with Mr. 
Uravitch.
    Mr. Underwood. So we can--I mean, the length of time that 
it has taken, you know, I understand that of course with a new 
administration, a lot of things take time to come about. But 
there is no reason to interpret that the length of time that it 
has taken to develop the council means any diminished 
commitment to the Executive Order?
    Mr. Keeney. Certainly not. In fact, NOAA and the Department 
of the Interior staff completed a review of nearly 350 nominees 
in late February of this year, and we expect very soon to have 
a final determination of who the 25 members or nominees will be 
for that advisory council.
    Mr. Underwood. And are there any holdovers from the 
previous council? Are there any holdovers?
    Mr. Keeney. I am sure there will be some.
    Mr. Underwood. In your testimony, Ms. Morrison, you 
indicated that no new MPAs are contemplated.
    Mr. Keeney. No, we are not contemplating any--well, under 
existing statutes, we are always looking at the use of Marine 
Protected Areas as a management tool; for instance, just the 
groundfish closures that just came out off of the George's Bank 
and off of Maine a few weeks ago, the rolling closure approach 
could be looked at as a Marine Protected Area. But we are not 
anticipating as a result of the Executive Order, per se, 
designating additional areas.
    Mr. Underwood. Under what process is an MPA withdrawn?
    Mr. Keeney. I guess that depends on the statutory authority 
setting up the MPA to begin with.
    Mr. Underwood. You know, I guess I ask that because I just 
want to make sure that, you know, in support of the Executive 
Order and trying to understand the Chairman's line of 
questioning, I am trying to understand whether there really is 
a need for clear statutory language on how MPAs are dealt with, 
because, you know, as a resource management tool, it is fine, 
and as a process of collaboration, use of the advisory council, 
trying to figure out how MPAs are established, how they are 
disestablished, to the extent that those processes are 
clarified by both agencies here, then, it would give more 
comfort, I think, to the Subcommittee that legislation is not 
necessary.
    To the extent that it is just kind of hanging out there, 
and no clarity is given to it, it tends to invite interest on 
the part of the Subcommittee for legislation.
    Mr. Keeney. Well, Congressman Underwood--
    Mr. Underwood. If you get my drift.
    Mr. Keeney. --I think we have clear authority under 
existing statutes like the Marine Mammal Protection, the Marine 
Sanctuaries Act, the Coastal Zone Management Act that 
authorizes the national estuarine research reserves, the 
Magnuson-Stevens Act. These acts give us clear authority to set 
up Marine Protected Areas. So we do not believe that there is 
any particular question about what a Marine Protected Area can 
be, but under the Executive Order, we are currently reviewing, 
what the proper definition would be under the Executive Order.
    Mr. Underwood. Then, under the existing statutes, is NOAA 
interested in establishing any new reserves?
    Mr. Keeney. Yes, of course, in consultation with Congress, 
we do look at the potential need for additional protected 
areas. Now, a good example would be the East San Francisco Bay 
that we are currently reviewing to be a national estuarine 
research reserve. In fact, I had an opportunity to fly over it 
just this past weekend, and it is a pretty fascinating and 
interesting area. And we have various issues involved with what 
we want to include within the boundaries of the reserve and 
what the purpose of the reserve will be.
    We do have existing authorities that allow us to do that.
    Mr. Underwood. OK; thank you. Does that take into account 
all of the baseballs that are hit into the bay--
    [Laughter.]
    Mr. Underwood. --at Pac Bell Park?
    Mr. Keeney. We will have to review that as one of the 
potential restricted uses.
    Mr. Underwood. OK; thank you.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Oh, so you do not want them to do that 
anymore?
    Mr. Underwood. No, I am a Dodger fan.
    [Laughter.]
    Mr. Gilchrest. That is good. I am a Brooklyn Dodger fan.
    [Laughter.]
    Mr. Gilchrest. Well, just a quick comment on Mr. 
Underwood's line of questioning.
    It appears from your perspective, Ms. Morrison and Mr. 
Keeney, that additional statutory authority is not necessary 
for you to pursue your working relationship, in this case 
between Minerals Management Service and NOAA to study and 
review and then, possibly designate new Marine Protected Areas; 
is that correct?
    Mr. Keeney. That is correct.
    Mr. Gilchrest. Could--
    Ms. Morrison. That would be correct for the Department of 
the Interior as well.
    Mr. Gilchrest. Could you through existing authority and 
whatever impact that has with the Executive Order create Marine 
Protected Areas in the EEZ, anywhere in the EEZ?
    Mr. Keeney. Yes, we can, under the Magnuson Act and the 
Marine Sanctuaries Act.
    Mr. Gilchrest. So Mr. Underwood said that sometimes, we 
feel a little tentative when, for example, it has been 2 years 
since the Executive Order was issued, and there is no advisory 
committee announced yet. And are there any regular meetings 
between Interior and Commerce on this issue? And how does the 
Minerals Management Service work with the Park Service and the 
refuge system? Are any of those nuances--do they all work 
efficiently? Do you meet regularly? Are you going to announce 
within the next 3 months an advisory group? Do we need 
legislation to say there are certain timeframes for all of this 
to happen?
    Mr. Keeney. Mr. Chairman, we do meet regularly. We meet 
every week, representatives of NOAA and members of the 
Department of the Interior. We believe that the members or the 
nominees and then subsequent members will be announced sometime 
soon, and we do not need additional direction from Congress.
    Mr. Gilchrest. From the Congress? You do not want 
additional direction from the Congress?
    [Laughter.]
    Mr. Gilchrest. I am surprised!
    [Laughter.]
    Mr. Gilchrest. Mr. Underwood, any more questions?
    Mr. Underwood. Yes; I just have one follow-up question.
    Mr. Keeney, could you tell us a little bit about the status 
of the designation process for the Northwest Hawaiian Islands 
Coral Reef Reserve? There have been some concerns expressed 
about it that there is perhaps a weakening of interest in its 
support?
    Mr. Keeney. Certainly, Congressman Underwood. We really 
have just begun the designation process, and we have had 
recently, within the last 6 weeks, a series of scoping 
meetings, I think, held out in Hawaii and on all of the 
islands.
    We have a very open and public process that we pursue, and 
we are looking to use the best science available as well. We 
have no predetermined positions on the management plan for the 
soon-to-be designated marine sanctuary. We expect the process, 
the entire process to put together a management plan and to put 
it in place will take some two to 3 years. And that is all I 
have.
    Mr. Underwood. OK; thank you.
    Thank you very much.
    Mr. Gilchrest. We look forward to working with both of you 
on all of these issues, and thank you for your participation 
here this morning. We do want to stay engaged in this issue, 
because we feel this type of management tool, if appropriately 
applied, can help us realize enormous benefits.
    Thank you very much.
    Mr. Keeney. Thank you.
    Ms. Morrison. Thank you, Mr. Chairman.
    Mr. Gilchrest. Our next panel, panel No. 3, is the adjunct 
staffer to the Subcommittee, Dr. Edward Houde. Did I say that 
appropriately, Dr. Houde? Adjunct staff member to the 
Subcommittee.
    [Laughter.]
    Mr. Gilchrest. Actually, Dr. Houde is chairman of the NRC 
Committee on Marine Protected Areas; Professor, University of 
Maryland Center for Environmental Studies; Dr. Robert Shipp, 
Chair, Department of Marine Sciences, University of Southern 
Alabama; Mr. Jim Gilmore, Director, Public Affairs, At-Sea 
Processors Association; Mr. Gerry Davis, Guam Department of 
Agriculture, Acting Chief, Division of Aquatic and Wildlife 
Resources; Dr. Robert Warner, Professor, Department of Ecology, 
Evolution and Marine Biology, University of California at Santa 
Barbara.
    Welcome. You may come up to the table.
    Gentlemen, by your presence, I have a sense that the IQ is 
rising in this room. Thank you for your attendance here today. 
I want to assure everybody that there is no imminent pending 
legislation with MPAs, but we are interested in the process 
that the executive branch is following. We would like to be a 
part of that process, Mr. Underwood and I, and so, we are 
interested in your perspective on the potential possibilities 
for existing Marine Protected Areas in all their various forms 
and the possibility for additional areas categorized as such.
    Welcome.
    Mr. Underwood, do you want to say anything about the 
gentleman from Guam?
    Mr. Underwood. I already did in my opening statement. He is 
a very fine gentleman, I might add.
    Mr. Gilchrest. Thank you.
    Dr. Houde, welcome again to our humble abode. We appreciate 
your patience with our persistence. You may begin, sir.

   STATEMENT OF EDWARD HOUDE, CHAIR, NRC COMMITTEE ON MARINE 
 PROTECTED AREAS AND PROFESSOR, UNIVERSITY OF MARYLAND CENTER 
                   FOR ENVIRONMENTAL STUDIES

    Dr. Houde. Thank you, Mr. Chairman and thanks to the 
Subcommittee for inviting me once again to testify.
    I chaired a National Academy of Sciences study on MPAs a 
couple of years ago which was published last year. That study 
reached favorable conclusions regarding the potential of MPAs 
for marine fisheries management as well as to preserve habitat 
and biodiversity in the sea.
    Today, I will summarize some of the Academy recommendations 
and also present personal views on the potential of MPAs. Most 
of my comments relate to MPAs and fisheries management.
    MPAs represent a hierarchy of spatial management measures, 
ranging from wilderness areas where no removals of organism or 
substrata are allowed and no impact is tolerated to areas where 
only a few specific restrictions may be designated.
    Recent reviews by the National Academy of Sciences and by a 
NMFS Ecosystems Principles Panel that was mandated by Congress 
concluded that MPAs, including marine reserves, which are 
sometimes referred to as no-take areas, have a role in the 
management of U.S. coastal fisheries, especially if combined 
with conventional management approaches.
    Although area closures have been used in fisheries 
management literally for centuries, they are seldom a major 
management alternative. Conventional management depends mostly 
on controlling fish catches and fishing effort. Broader 
implementation of MPAs would shift that emphasis to recognizing 
the importance of the patchiness and spatial heterogeneity in 
marine ecosystems and the need to preserve their structure to 
sustain fisheries. Area closures are recognized explicitly as a 
possible tool in the Magnuson-Stevens Act, but there is 
relatively little supporting language to encourage their 
innovative use or to conduct research on their potential.
    In planning and designating MPAs, it is essential that all 
stakeholders onsite and off be involved from the outset. This 
was a major conclusion of the National Academy and I think 
probably a consensus that we will have here. Selecting MPA 
sites is critical. The most valued MPA sites probably will be 
the most productive habitats of marine ecosystems. These are 
often described as source sites that will contribute to 
spillover of young fish to open fishing areas as opposed to 
sinks that may collect dispersed young fish but contribute 
relatively little to fisheries.
    Personally, I do not believe that there is any particular 
size and number of MPAs that can be recommended for fisheries 
management or to protect marine ecosystems. In some cases, 
rather small MPAs may be effective. In other cases, a large 
fraction of marine ecosystems, possibly more than 50 percent, 
should be closed if an MPA is to be effective. MPAs must be 
planned and designed to fit the circumstances to operate in 
conjunction with conventional management.
    The NAS study recommended that zones should be developed 
for prescribed uses of marine areas within broader coastal zone 
management planning. MPAs may cross agency jurisdictions, and 
conflicts may not only involve different users, for instance 
fishermen, transportation, mining interests, but also agencies 
with jurisdictional responsibility and authority. There will be 
a need for cooperation and coordination among state and Federal 
agencies for successful establishment of zoned regions that 
include a hierarchy of MPA types. Networks of MPAs also were 
recommended by the NAS and Presidential Order 13158, which 
actually, I think, asks for the development of a framework for 
a national MPA network. Effective development of such networks 
will require broad knowledge of oceanography and community 
ecology as well as a strong appreciation of its human uses. 
Admittedly, much of the knowledge required is rudimentary at 
present and in need of dedicated research.
    Predicting how an MPA will perform requires a knowledge of 
the dispersal behavior of organisms at different life stages. 
Will young fish be exported from an MPA and spill over its 
boundaries into areas open for fishing? Will an increase in 
fecundity and egg production by adults in an MPA result in 
increased recruitment of young fish to areas open to fishing? 
Will mobility of the stock be so great that an MPA does not 
afford sufficient protection to control fishing mortality?
    If the objective of an MPA is to protect a community or 
many species, will the different behaviors of the many 
organisms act to protect only a fraction of them?
    To date, there is strong evidence that stocks within MPA 
boundaries have become more abundant; individuals are larger 
and older, and fecundities are increased. These are the 
expected responses when fishing mortality is reduced and could, 
in many cases, be obtained by other management methods. There 
is evidence that spillover and dispersal beyond boundaries does 
occur for some species in fisheries, although more research and 
modeling is needed.
    I believe that if the objective is fisheries management, 
mechanisms should exist to allow changes in MPA policies and 
design if performance does not meet expectations. For example, 
MPAs could be designated with fixed time limits during which 
evaluation of performance would determine if an MPA was 
successful, or if its design needed revision, or if it should 
be terminated in favor of other management approaches. 
Management policies that include MPAs should be instituted with 
the same adaptive flexibility as measures used in conventional 
fisheries management.
    Like all fisheries management tools, there are costs and 
benefits associated with MPA management. In fisheries, unless a 
stock has collapsed, it is not likely that there will be 
economic incentives to adopt MPAs; nor is it likely that there 
will be near-term increases in profitability from MPA 
implementation. Benefits are likely to be long-term and a 
consequence of stabilization and recovery of critical 
components of an ecosystem in response to MPA implementation.
    In closing, Mr. Chairman, I know that you are aware that 
there are many reasons to protect marine ecosystems beyond 
fisheries management. Creating parks; protecting unique 
habitats or historical sites; and protecting vulnerable species 
and biological communities are valid reasons to create MPAs. In 
fisheries, MPAs are not a stand-alone approach. But they do 
have a role in management as part of a balanced package of 
management methods.
    Mr. Chairman, I wish to thank you and the Subcommittee for 
holding this hearing on MPAs. It is a timely topic of 
importance to fisheries and to the broader interests of U.S. 
citizens who are concerned about marine ecosystems and the 
utilization of marine resources. If I can answer questions, I 
would be pleased to do so.
    [The prepared statement of Dr. Houde follows:]

Statement of Edward D. Houde, Professor, University of Maryland Center 
                       for Environmental Science

Introductory Comments
    I appreciate having the opportunity to address the Subcommittee and 
to present my views on the potential of Marine Protected Areas (MPAs) 
as an effective tool to manage marine fisheries and to conserve marine 
ecosystems. My comments represent personal views and do not necessarily 
represent views of the University of Maryland's Center for 
Environmental Science (UMCES).
    Marine Protected Areas, if broadly adopted for marine fisheries and 
marine ecosystem management, will shift emphasis from controlling 
amounts of catches (removals) and amounts of fishing effort in marine 
ecosystems to an increased emphasis on spatially-explicit management. 
Adoption of MPAs as a significant component of a suite of ecosystem-
based approaches for marine fisheries management will add emphasis to 
conserving the productive capacity of the ecosystem, in addition to its 
individual stocks.

Habitats and Spatial Management: a Role for Protected Areas
    The NMFS Fisheries Ecosystem Principles Advisory Panel (NMFS, 1999) 
and the National Academy of Science's Committee on Marine Protected 
Areas (NRC, 2001) strongly recommended incorporation of protected areas 
and other spatially-explicit approaches for fisheries management into 
ecosystem approaches for fisheries management. These approaches can 
move management towards more ecosystem-sensitive approaches that can 
protect essential fish habitats, reduce bycatches, and protect 
threatened species. Closed areas, no-take zones, and other spatial 
restrictions on fishing or exploitative use are not new to fisheries 
management. Yet, they are seldom a major tool selected as a management 
option. Marine protected areas (MPA) represent a hierarchy of spatial 
measures, ranging from wilderness areas, where no removals are allowed 
and no impact on habitat is tolerated, to areas where only a few 
restrictions on use may be designated. Three recent reviews and 
evaluations have concluded that MPAs, including marine reserves (no-
take areas), have a role in management of U.S. coastal fisheries, 
especially if combined with conventional management approaches (NMFS, 
1999; NAS, 1999, 2001). The consensus is that MPAs can be effectively 
included in broad coastal zone management plans to promote habitat 
protection/restoration and serve the goals of sustainable fisheries 
management.
    The sea is a patchwork of habitats and water masses that support 
fishery stocks and biological communities at varying levels of 
productivity. This patchiness is appreciated by fishers who don't cast 
their nets randomly but focus effort in historically productive areas 
where fish aggregate around preferred habitat. As a consequence, stocks 
may be depleted and habitats impacted by fishing activities that are 
concentrated in productive parts of coastal zones. Broader 
implementation of MPAs in fisheries management would shift the emphasis 
of management policies from controlling catches and effort to 
recognizing the importance of spatial heterogeneity in marine habitats 
and the need to preserve the structure of marine ecosystems to ensure 
sustainable fisheries. Area closures to protect individual stocks have 
been a traditional management tool for centuries. Extending the concept 
to protect the ecosystem and its biological community for the benefits 
of multispecies management is an extension of the area closure concept, 
although more complex. Will all stocks benefit? Will benefits accrue to 
the aggregate fisheries? What are the costs of managing MPAs vs 
conventional management approaches? For many marine ecosystems, answers 
to these questions may not be immediately available.

Marine Protected Areas
    The concept of marine reserves or other closed areas, with various 
restrictions on fishing and other human uses, was recognized in the 
1996 reauthorization of the MSFCMA and has been on the planning tables 
of Regional Councils in recent years. Some marine areas have, in fact, 
been closed to certain kinds of fishing effort (e.g., parts of Georges 
Bank). The NAS Committee (NRC 2001) concluded that MPAs have a role in 
fisheries management as well as in conserving biodiversity and the 
integrity of marine ecosystems that are affected by human activities.
    In a broad sense, setting aside areas as MPAs to protect spawning 
stock can serve as a buffer against the uncertainties and errors of 
stock assessments or effectiveness of regulations, i.e., a kind of 
insurance. More specifically, the NAS Committee recommended that MPAs 
for fisheries management should be designed as parts of broader 
networks of MPAs that are zoned for prescribed activities, and that 
these networks be embedded in an even broader plan of coastal ocean 
management that considers the full spectrum of human activities and 
need to protect ecosystem structure and function.
    In the context of fisheries and fishing impacts, properly designed 
MPAs can:
    <bullet> Protect nursery areas
    <bullet> Protect or restore critical habitats
    <bullet> Limit bycatch
    <bullet> Protect threatened or endangered species
    <bullet> Rebuild age and size structure of stocks (and increase 
fecundity)
    <bullet> Promote spillover and dispersal from protected to open 
fishing zones
    <bullet> Reduce fishing mortality rates
    <bullet> Reduce the need for stock assessment science
    <bullet> Recognize ``uncertainties'' in science and management and 
adopt MPAs as insurance
    <bullet> Promote education and research on marine ecosystems.
    However, as with implementation of other kinds of fisheries 
regulations, there may be economic costs to traditional users of 
fishery resources associated with initial designation of MPAs. It is 
for this reason that fishers and other stakeholders must be included in 
all phases of MPA planning and implementation.
    There is strong evidence that MPAs lead to increased abundance and 
sizes of protected species within the boundaries of reserves, but the 
benefits to surrounding areas are less certain in the absence of 
knowledge of dispersal or migration patterns of key organisms in a 
protected community. There is evidence that benefits may be exported to 
surrounding regions in some cases, including estuarine fisheries in 
Florida (Roberts et al., 2001).
    MPAs will not solve all fishery management problems but their role 
and potential should be recognized. For example, language in the 
pending reauthorization of the Magnuson-Stevens Act could be added to: 
1) address the issues and identify probable benefits of MPAs; 2) 
specify research needs; and 3) develop criteria for MPA implementation.

Planning and Design
    Performance of MPAs is dependent on adequate planning and design, 
whether the overall goal is to promote biodiversity, manage fisheries, 
or some combination of goals. Design of effective MPAs should proceed 
through four sequential stages: 1) evaluate conservation needs at local 
and regional levels; 2) clearly define objectives and goals for 
establishing an MPA; 3) describe key biological and oceanographic 
features of the region; and 4) identify and choose site(s) that have 
highest potential for implementation.
    To assure success in MPA implementation, it is essential that all 
stakeholders, including those geographically distant from the site, 
participate in the planning and design phases. Affected communities, 
especially fishing interests, cannot be isolated from a process that 
will impact their way of life and earning potential. In many cases, 
establishment of MPAs will have goals that go beyond improving fishery 
management (e.g., protection of biodiversity, rare species, habitats, 
cultural sites), and it is essential that the broad community of 
stakeholders be fully aware of, and involved in, the planning phase of 
MPA designation.
    Selecting MPA sites is no simple task. There are few case studies 
on MPAs in U.S. waters and little knowledge of long-term performance of 
protected sites. Two major gaps in knowledge that are problematic are 
lack of information on movements of fish and a poor understanding of 
the responses of fishers to area closures. Dispersal of fish eggs and 
larvae, or migrations of older stages, are critical in MPA site 
selection. The nature and level of dispersal of early life stages and 
the so-called ``spillover'' of young fish from an MPA to open areas 
depend upon a complex interaction of oceanographic factors and stage-
specific behaviors of fish. Although little is known directly about 
these factors and interactions, modeling research clearly demonstrates 
that dispersal, combined with behavior of fishers outside the MPA, is a 
major determinant of whether an MPA will be a success (Lauck et al., 
1998; Hastings and Botsford, 1999; Sladek-Nowlis and Roberts, 1999; 
Holland, 2000; Mangel, 2000). Potential MPA sites that serve as 
``sources'' for dispersal, rather than ``sinks'' that receive dispersed 
migrants have the highest potential to improve fisheries that are under 
heavy exploitation (Crowder et al., 2000). Furthermore, it is very 
likely that protection of highly productive habitats and nurseries, 
rather than expanses of relatively unproductive areas, will provide 
greatest benefits to fisheries restoration and management.

Size and Number
    There is no general rule, in my view, for allocating size, area, or 
numbers of MPAs to a marine ecosystem. Location, size and number of 
potential MPAs certainly must be considered in developing an MPA 
strategy. In some cases rather small MPAs, or networks of MPAs, in 
critical areas may play a significant role in protecting fish stocks, 
e.g., protecting vulnerable spawning aggregations of reef fishes. In 
other situations, e.g., for sedentary species of long-lived demersal 
stocks, percentages of an ecosystem much larger than 20%, a percentage 
often recommended, will be required to sustain or restore fisheries 
productivity (Lauck et al., 1998: Walters, 2000), especially if 
effective conventional management measures are not rigorously and 
synoptically applied. Modeling research indicates that, as a stand-
alone management approach, MPAs occupying as much as 30-70% of a 
management region might be required.
    Hundreds of MPAs are presently designated in the U.S. coastal zone, 
but a minuscule number have fisheries management as their primary goal 
and even fewer are true marine reserves where fishing is not permitted. 
The NOAA Marine Sanctuary Program is one prominent effort in which 13 
sanctuaries have been established but, with only a few exceptions, the 
sanctuaries presently do not address fisheries management concerns in 
any major way. The Regional Fishery Management Councils presently are 
developing MPA plans within their respective jurisdictions. It seems 
clear to me that implementation of MPAs will increase in importance in 
the U.S. during the next decade as ecosystem approaches for fisheries 
management and the need to conserve biodiversity and habitats become 
prominent. In anticipation of this trend, careful site selection and 
consideration of the need to zone and network MPAs are recommended to 
assure that MPAs will meet performance goals.

Conventional Fisheries Management and MPAs
    Conventional management that emphasizes controls over effort and 
catches will continue to be employed because fishing will continue and 
effort probably will increase outside the boundaries of MPAs after area 
closures.
    The NAS Committee (NRC, 2001) considered weaknesses and drawbacks 
of conventional fisheries management in the context of alternative MPA-
based management. Quota and effort controls have not always led to 
sustainability in U.S. fisheries and many analysts claim that 
conventional approaches have failed to achieve sustainability (Botsford 
et al., 1997). Quality of stock assessments is often uncertain; stock 
abundance or fishing mortality-rate reference points and targets are 
poorly known or imprecise for many fished stocks. Uncertainties in 
stock assessments, combined with overcapacity, the major problem in 
management of U.S. fisheries (NRC, 1999), lead to failed effort 
control, followed by declining stocks and poorly performing fisheries.
    The NAS Committee concluded that MPAs can benefit habitats and 
fishery resources, but near-term benefits in yields or profits of MPAs 
to fishers are not certain or may be negative. MPAs can protect 
vulnerable habitats from destructive fishing practices and other 
threats and they may be particularly effective in protecting nurseries 
that support young fish. MPAs properly located can reduce bycatch of 
pre-recruits of targeted species and reduce the unintentional catches 
of non-target species. They can be effective in protecting endangered 
or threatened species of mammals, turtles and birds. And, MPAs 
potentially can reduce excessive mortalities on species such as the 
tropical groupers that form highly vulnerable spawning aggregations. 
The argument that MPAs are insurance against the uncertainties of 
complex science and conventional management has merit and justifies 
consideration of MPAs as a management tool.

Developing MPA Zones and Networks
    Coastal regions are heavily utilized or appreciated by a multitude 
of industries and interests, which often are competing for resources or 
other benefits and services of marine ecosystems. In the U.S., the 
coastal ocean falls under jurisdictions of several Federal, state, and 
local authorities. Effective management ultimately will require zoned 
use and cooperation, not only among users but also among management 
agencies. The possibilities for zoned use to alleviate conflicts and 
spatially partition acceptable uses of habitat should be considered; 
and, the potential to develop networks of complementary MPA sites to 
raise the probability for success should be evaluated. The NAS study 
(NRC, 2001) recommends that MPAs, zoned for specific uses, ultimately 
must be developed within the broader context of coastal zone 
management. Also, the report recognizes the broad spectrum of protected 
areas and reserves that could be designated. MPAs of various types, 
extending from terrestrial habitats to offshore, might be implemented 
within the jurisdictions of local, state and Federal authorities. Such 
designs imply linkages and convey the obvious need for cooperation and 
coordination among agencies to insure effective MPAs that are 
protective of resources and habitats.
    Designating protected areas and reserves of appropriate size in 
proper spatial context can enhance contributions of MPAs to habitat 
protection, biodiversity, and overall productivity. Networks of MPAs 
have been proposed as an effective means to expand their utility. 
Networks imply that linked and complementary systems of MPAs (implying 
connectivity) can provide added value to protection and restoration of 
fishery resources. Effective development of such networks requires 
broad knowledge of oceanographic characteristics, habitats, and 
community ecology, which is not consistently available for many marine 
ecosystems. A Presidential Executive Order (No. 13158) was issued by 
President Clinton in May 2000 that called for development and 
implementation of a coordinated network of MPAs in the U.S. coastal 
zone. This Order directs the National Oceanic and Atmospheric 
Administration (NOAA), in cooperation with the Department of the 
Interior, to establish a MPA Center and develop a framework for a 
national system of MPAs (See http://www.mpa.gov/).

Monitoring and Enforcement
    Many of the thousands of protected areas in marine ecosystems 
throughout the world are little more than ``paper parks'' because there 
is no enforcement of fishing and other regulations, or monitoring of 
ecosystem properties to determine if the MPA is performing up to 
expectations. Plans for routine monitoring and enforcement are 
essential and should be developed during the MPA design phase. 
Monitoring must include collection of socio-economic information on 
costs and benefits as well as information on fisheries catch and 
effort, habitats, and water quality.
    Expectations for MPA performance may differ for single-species 
protection relative to MPAs for multispecies (or community) protection. 
Monitoring and regular evaluation of performance are required if MPAs 
are adopted as a major component of a marine-ecosystem or fisheries-
management regime. It goes without saying that enforcement of 
boundaries and MPA regulations is essential for a spatial approach to 
be effective.

Performance Issues
    The performance of MPAs depends on the particular migration and 
dispersal behaviors of organisms at each relevant life stage (Fogarty 
et al., 2000). In a fisheries context, MPAs usually are designated with 
the expectation that benefits will be exported from the protected area 
to some wider surrounding area. That expectation should be evaluated 
through reviews of the state of knowledge, by experiments and by 
modeling during the MPA design phase. To date, most evidence of MPA 
success in rebuilding fished stocks and restoration of ecosystem 
properties has been observed ``within'' an MPA's boundaries. Export of 
benefits to surrounding regions (a usual goal) is less certain and 
dependent on dispersal patterns of fish and behavior of fishermen in 
areas that remain open to fishing.
    If MPAs are implemented, mechanisms should be in place to allow 
amendments to MPA policies and designations if performance does not 
meet expectations. For example, MPAs for fisheries management could be 
designated with fixed time limits during which evaluation of 
performance would determine if the MPA has met management goals. Non-
performance should lead to revision of the MPA design or termination of 
an MPA in favor of alternative management approaches. Spatially-
explicit management policies that include MPAs as a major tool should 
be instituted with the same adaptive flexibility as measures used in 
conventional management.

Research Needs
    There is relatively little knowledge regarding performance of MPAs 
as a fisheries management tool. Research on fish dispersal and 
migration is critical to determine whether a designated MPA will be 
productive and serve as a source for spillover to areas that remain 
open to fishing. Evaluation of sizes and shapes of reserves with 
respect to reserve perimeter/area ratios and effects on dispersal for 
many species of fishes and fish assemblages are needed. Socioeconomic 
research on the impact of MPAs on fishermen and fishing communities, in 
both short and longer terms, is required.
    Establishing MPAs will provide opportunities to not only monitor 
their performance but to conduct research on fish behavior, age-
specific dispersal potentials, and productivity. In addition, 
fundamental information on life histories, stock structure, and 
population dynamics can be collected in MPAs. Manipulative experiments 
that involve mark-recapture approaches, or selective removals and 
additions of organisms, are possible in MPAs where potentially 
confounding effects of fishing are absent.

Costs and Benefits
    There are costs and benefits associated with MPA-based management 
relative to more conventional fishery management approaches (Table 1, 
from NRC, 2001) and these must be considered when MPAs are planned. 
Except in the case of collapsed stocks, there may not be economic 
incentive for MPAs or increases in profitability from MPA 
implementation and, in fact, profits may decline in the near term.

[GRAPHIC] [TIFF OMITTED] T9780.001

Essential Fish Habitat, Fisheries Ecosystem Plans and Marine Protected 
        Areas
    The need to define essential fish habitat (EFH) and to manage 
fishing to insure its protection was highlighted in the amended MSFCMA 
(1996); additional required actions and recommended research have been 
proposed in the draft M-S reauthorization now before the 107th 
Congress. A report of the Congressionally-mandated Ecosystems 
Principles Advisory Panel (NMFS, 1999) included many specific 
recommendations on ecosystem approaches to improve fisheries 
management. That Panel also proposed a major conceptual 
recommendation--that each Council develop a Fishery Ecosystem Plan(s) 
(FEP) within its region. A FEP is envisioned to serve as an umbrella 
plan under which individual Fishery Management Plans (FMPs) would sit 
and to which they must adhere. An FEP essentially defines the important 
ecosystem considerations that must be addressed in a FMP. Language in 
the newly drafted M-S Act reauthorization Bill promotes development of 
criteria and research plans for FEPs in Council regions.
    The EFH and FEP concepts are closely allied and are related to 
evolving thought on how MPAs will fit into ecosystem-sensitive 
approaches for fisheries management. In my view, the pending M-S 
reauthorization does not need a National Standard that calls for MPA 
implementations by Regional Councils for fisheries management. However, 
the reauthorized Act would be well-served to explicitly recognize and 
encourage the designation of MPAs as a tool to protect critical 
habitats (EFH) and provide supportive management at the ecosystem level 
to insure conservation of the productive capacity of marine ecosystems 
(FEP) that can support sustainable fisheries.

References
    Botsford, L.W., J.C. Castilla and C.H. Peterson. 1997. The 
management of fisheries and marine ecosystems. Science 277:509-515.
    Crowder, L.B., S.J. Lyman, W.F. Figueira and J. Priddy. 2000. 
Source-sink population dynamics and the problem of siting marine 
reserves. Bull. Mar. Sci. 66:799-820.
    Fogarty, M.J., J.A. Bohnsack and P.K. Dayton. 2000. Marine reserves 
and resource management. In: Seas at the Millenium. Elsevier, 
Amsterdam.
    Holland, D.S. 2000. A bioeconomic model of marine sanctuaries on 
Georges Bank. Can. J. Fish. Aquat. Sci. 57:1307-1319.
    Lauck, T.C., C.W. Clark, M. Mangel and G.R. Munro. 1998. 
Implementing the precautionary principle in fisheries management 
through marine reserves. Ecol. Applic. 8(1):S72-S78.
    Mangel, M. 2000. Trade-offs between fish habitat and fishing 
mortality and the role of reserves. Bull. Mar. Sci. 66:663-674.
    NMFS. 1999. Ecosystem-based fishery management. Ecosystem Advisory 
Panel to NMFS. NOAA Tech. Memo NMFS-F/SPO-33. NOAA/National Marine 
Fisheries Service, Silver Spring, MD.
    NRC. 1999. Sustaining marine fisheries. National Academy of 
Sciences, National Research Council. National Academy Press, 
Washington, D.C.
    NRC. 2001. Marine protected areas: tools for sustaining ocean 
ecosystems. National Academy of Sciences, National Research Council. 
National Academy Press, Washington, D.C.
    Roberts, C.M., J.A. Bohnsack, F. Gell, J.P. Hawkins and R. 
Goodridge. 2001. Effects of marine reserves on adjacent fisheries. 
Science 294:1920-1923.
    Sladek-Nowlis, J. S. and C. M. Roberts. 1999. Fisheries benefits 
and optimal design of marine reserves. Fish. Bull., U.S. 97:604-616.
    Walters, C. 2000. Impacts of dispersal, ecological interactions, 
and fishing effort dynamics on efficacy of marine protected areas: how 
large should protected areas be? Bull. Mar. Sci. 66:745-758.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Dr. Houde.
    And our next--I cannot see the name--Dr. Shipp is next on 
my list. Are you Dr. Shipp?
    Dr. Shipp. Yes, I am, Mr. Chairman.
    Mr. Gilchrest. I guess the names are switched. No, maybe 
they are not. They are compressed; OK.

    STATEMENT OF ROBERT SHIPP, CHAIR, DEPARTMENT OF MARINE 
             SCIENCES, UNIVERSITY OF SOUTH ALABAMA

    Dr. Shipp. And I greatly appreciate that you pointed out 
that I am from the University of South Alabama and not the 
University of Alabama. It is a very touchy issue, and most of 
the time, there is an error there.
    Mr. Gilchrest. To someone from Maryland, it makes almost no 
difference.
    [Laughter.]
    Mr. Gilchrest. But I guess if you are from Alabama, it is 
significant. It is like Kent County and Kent Island in 
Maryland.
    You may begin, sir. Thank you.
    Dr. Shipp. Thank you.
    I am going to digress a moment or two from my prepared 
statement to give a little background. Recently, I issued a 
paper on the pragmatic perspective on MPAs, and I was 
immediately branded as an anti-MPA person. And that is 
certainly not the case.
    I served on the Gulf of Mexico Fishery Management Council 
for 9 years. I chaired the council when the Tortugas sanctuary 
was set up and was a very active proponent of that. However, I 
have raised some questions about the value of MPAs as far as 
their productivity and harvest are concerned, and those are the 
comments that I will offer today.
    Establishment of MPAs may have numerous beneficial 
purposes. However, as a tool for fisheries management, where 
optimal and/or maximum sustainable yield is the objective, MPAs 
are generally not as effective as traditional management 
measures and are not appropriate for the vast majority of 
marine species. This is because most marine species are far too 
mobile to remain within an MPA and/or are not overfished. For 
those species which could receive benefit, creation of MPAs 
would have an adverse effect on optimal management of sympatric 
forms.
    Eight percent of U.S. fish stocks in the EEZ are reported 
to be experiencing overfishing. The fin fish stocks included in 
this number are primarily pelagic or highly mobile species, 
movement patterns that do not lend themselves to benefit from 
MPAs. Thus, a small percentage, something about 2 percent 
depending on the mobility potentials, are likely to benefit 
from creation of these no-take zones. However, many of these 
species have come under management within the last decade, 
employing more traditional fishery management measures and are 
experiencing recovery.
    Establishment of MPAs are often intended as near proxies 
for a virgin stock. If so, several factors need to be kept in 
mind, and it might be helpful in gaining perspective to recall 
that some of these principles have been well-known for decades 
or longer though sometimes forgotten.
    First, by definition, a virgin stock provides no yield. 
Therefore, a perfect proxy would be a negative in terms of 
management goals to produce an MSY or an OY. However, 
proponents of MPA usage for management purposes refer to the 
spillover effect of harvestable adults to adjacent areas. The 
impact of this spillover will always be less than that of a 
properly managed stock, which generates the optimum yield per 
recruit, again by definition.
    Another claim is that larvae from MPAs will be a 
significant addition to the overall stocks. This may well be 
beneficial but only for a very seriously depleted stock. In 
other cases, larval production, always in excess of the 
carrying capacity of the habitat, does not normally relate to 
year-class strength; rather, density-dependent factors usually 
control ultimate recruitment to the harvestable stock.
    While this principle has been the subject of scores of 
books and probably thousands of publications, it was espoused 
nearly 150 years ago by Darwin and is restated frequently in 
almost every fishery text.
    MPAs can serve a positive function as a management tool in 
protecting breeding aggregations; in helping recovery of 
severely overfished and unmanaged insular fish populations with 
little connectivity to adjacent stocks and in protecting 
critical habitat which can be damaged by certain fishing 
methods.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Shipp follows:]

                 A Report to the Fishamerica Foundation
                       BY ROBERT L. SHIPP, PH.D.
                           EXECUTIVE SUMMARY

    Marine Protected Areas (MPAs) are portions of the marine 
environment which are protected from some or all human activity. Often 
these are proposed as a safeguard against collapse of fish stocks, 
although there are numerous other suggested purposes for their 
establishment. ``No take'' MPAs (hereafter referenced as nMPAs) are 
those from which no harvest is allowed. Other types include those where 
certain types of harvest are prohibited, which are reserved for certain 
user groups, or which are protected from other human activities such as 
drilling or dredging.
    Establishment of nMPAs may have numerous beneficial purposes. 
However, as a tool for fisheries management, where optimal and/or 
maximum sustainable yield is the objective, nMPAs are generally not as 
effective as traditional management measures, and are not appropriate 
for the vast majority of marine species. This is because most marine 
species are far too mobile to remain within an nMPA and/or are not 
overfished. For those few species which could receive benefit, creation 
of nMPAs would have an adverse effect on optimal management of 
sympatric forms.
    Eight percent of U.S. fish stocks of the Exclusive Economic Zone 
(EEZ) are reported to be experiencing overfishing. The finfish stocks 
included in this number are primarily pelagic or highly mobile species, 
movement patterns that don't lend themselves to benefit from nMPAs. 
Thus a very small percentage, something less than 2%, depending on 
mobility potentials, is likely to benefit from creation of these no-
take zones. However, many of these species have come under management 
within the last decade, employing more traditional fishery management 
measures, and are experiencing recovery.
    MPAs (both ``no take'' and other types) can serve a positive 
function as a management tool in protecting breeding aggregations, in 
helping recovery of severely overfished and unmanaged insular fish 
populations with little connectivity to adjacent stocks, and in 
protecting critical habitat which can be damaged by certain fishing 
methods.

                              INTRODUCTION

Concept of MPAs
    In recent years, a great deal of interest has been expressed in the 
establishment of Marine Protected Areas (MPAs), marine ``no take'' 
areas, or marine sanctuaries (e.g. National Research Council: ``Marine 
Protected Areas: Tools for Sustaining Ocean Ecosystems,2001; National 
Resource Defense Council: ``Keeping Oceans Wild: How marine reserves 
protect our living seas, 2001'') This interest has been spurred by the 
frequent references to depleted fish stocks, and continued decline in 
marine fishery resources.
    Proponents of so called ``no take'' Marine Protected Areas (nMPAs) 
have described the benefits to include potential as a fishery 
management tool as well as several other related advantages, 
specifically, conserving biodiversity, protecting (coastal) ecosystem 
integrity, preserving cultural heritage, providing educational and 
recreational opportunities, and establishing sites for scientific 
research (Houde et al., 2001). In addition, other benefits suggested 
include enhancing ecotourism, and reducing user group conflict (e.g. 
divers and harvesters).
    The concept of nMPAs is initially attractive, and will no doubt 
elicit a great deal of support and discussion among various groups 
interested in protecting marine habitats. However, the many offered 
benefits described above often overlap, and become intertwined in the 
discussions which ensue. A fishery management tool is one that sustains 
and/or increases through time the yield of a fish stock, or several 
sympatric stocks of an ecosystem. If nMPAs are to be considered as a 
management tool, then that goal or objective, sustained and/or 
increased yield, needs to be clearly stated, and distinguished from 
other, more theoretical goals.

Traditional Management Tools
    Traditional management tools generally focus on reducing effort, 
enhancing stocks from hatchery operations, and protecting critical 
habitat. Effort reduction includes bag and size limits (including 
sometimes slot limits), quotas, seasonal and/or areal closures, gear 
restrictions, and by-catch reduction. These have been successful for 
more than a century in freshwater environments. Their use in marine 
habitats has only become widespread in the United States in recent 
decades, especially since passage of the Fishery Conservation and 
Management Act in 1976. Hatchery operations and stocking have also been 
primarily a freshwater endeavor, although recent efforts to stock some 
marine species have been attempted and yet to be evaluated over the 
long term. Protection of critical marine habitats has become an issue 
of extreme concern and is the focus of current efforts on the part of 
all Fishery Management Councils, as required in the most recent 
reauthorization of the Sustainable Fisheries Act. Use of MPAs for this 
purpose is discussed later in this paper.

Purposes of MPAs
    In order for nMPAs to function as a management tool for marine 
fisheries, there needs to be an examination in specific instances and 
with specific stocks to determine the potential benefits. This is 
especially true when stakeholders are currently so involved in 
management decisions that impact their livelihood. In their work on no-
take reserves (Murray et al., 1999), the authors list guidelines for 
these reserves, including first:
    1. Reserves should have clearly identified goals, objectives, and 
expectations.
    a) Clearly identify and describe the purposes of each reserve.
    b) Clearly identify the species, communities, and habitats to be 
protected.
    c) Clearly identify the projected role and contribution of each 
reserve to the network.
    I am in total agreement with these guidelines. For this reason, a 
systematic approach, detailing the potential benefits or lack thereof 
of nMPAs on managed stocks is justified, and is the intent of this 
paper. It is not the intent of this paper to pass judgment on the 
benefits of MPAs (``no take'' or MPAs of other design) on any of the 
other stated objectives (e.g. conserving biodiversity, study sites for 
ecosystem research, ecotourism sites, protection of habitat from 
destructive fishing methods, protection of habitats from other harmful 
anthropogenic activities such as drilling, coastal development etc.). 
These are socioeconomic or scientific questions that may have 
socioeconomic and/or scientific consequences, but are distinct from 
evaluating scientifically nMPAs as a fishery management tool.

                              METHODOLOGY

    The procedure followed here is to develop a comprehensive list of 
economically (commercial and recreational) important finfish from the 
mid to south Atlantic, the Gulf of Mexico, and Pacific U.S. coasts 
(shellfish are excluded here because of the radical differences in 
their life history, harvest methods, etc.). For each species in the 
list, determine the status of the stocks (underutilized, fully 
utilized, over utilized, unknown). Then review their life histories, 
especially movement and/or migratory patterns, and make a judgment as 
to the possible benefits that may be conferred by establishment of an 
nMPA.

Determination of nMPA impacts
    NMPAs are predicated on two fundamental components: keeping 
harvesters out and keeping the species in. The first of these is 
primarily an enforcement, compliance, and education issue and not to be 
discussed herein. The second is wholly a scientific issue, that is, 
whether the biology of the species is such that they will remain within 
an nMPA for a period of their life long enough to accrue the protection 
desired.
    Studies assessing the management potentials of nMPAs recognize 
this, and the ``keeping species in'' component is critical in modeling 
efforts. For example, Nowlis and Roberts (1998) state that their models 
``included the key assumptions that adults did not cross reserve 
boundaries and that larvae mixed thoroughly across the boundary but 
were retained sufficiently to produce a stock-recruitment relationship 
for the management area.''
    In addition, for an nMPA to be an effective management tool, the 
clear implication is that management is needed. Thus, the stocks must 
be overfished, or overfishing is occurring or likely to occur, and the 
stocks may be approaching an overfished condition. There are formal and 
legal definitions for these terms, but briefly, an ``overfished stock'' 
is one whose current biomass is below that needed to maintain current 
harvest rates, and ``overfishing'' refers to a rate of fishing pressure 
that will lead to the overfished condition, even though current biomass 
of that stock is adequate to sustain maximum sustainable yield (MSY) if 
properly managed.
    If the stocks are healthy, and projected to remain so, that is they 
are neither overfished nor is overfishing occurring, the need for nMPAs 
as a management tool is nil. This is also true if the preferred but 
complex ecosystem management strategy is employed, and no species 
within the complex is overfished or experiencing overfishing. In fact 
the literature is clear on this point, that if the stocks are healthy, 
nMPAs at best are yield neutral or will reduce harvest in some ratio to 
the size of the nMPAs (e.g. Polachek, 1990; DeMartini, 1993; Holland 
and Brazee, 1996; Sladik and Roberts, 1997; Botsford et al., 1999; 
Hastings and Botsford, 1999; R. Hilborn, U. of Wash. pers. com.).

Current status of fisheries
    So it is first important to gain some perspective on the extent of 
overfishing in U.S. waters before we can assess the possible benefits 
of nMPAs. In the latest Report to Congress (NMFS 2001), 905 fish stocks 
in the EEZ were addressed, including both finfish and shellfish. Ninety 
two stocks (10%) were determined to be overfished; seventy-two stocks 
(8%) were found to have overfishing occurring. Of these, 57 stocks 
(6.3%) were found to be both overfished and are experiencing 
overfishing. These percentages are somewhat misleading in that there 
were a large number of stocks for which the stock status was 
undetermined. However most of these were economically less important 
and less targeted species.

Determination of Potential Benefits
    In determining possible benefits for each species, while movement 
patterns and stock condition are primary considerations, additional 
parameters include any which may impact the management of the species. 
Examples include utility and effectiveness of alternative management 
measures, presence of critical habitat, by-catch mortality, release 
mortality, and recruitment (i.e. larval dispersal) characteristics.
    The species movement patterns of course relate to the proposed 
dimensions of an nMPA, but in most discussions, vast area nMPAs, 
covering extents within which a migratory species or all life history 
stages of sedentary species would be contained, are not proposed. 
Exceptions exist in dire cases, such as the major areas established off 
the upper western North Atlantic shelf, where an attempt is being made 
to recover the depleted ground fish stocks (NOAA, 1999). In fact, these 
can also be interpreted as a proxy for effort reduction on a collapsed 
fishery.
    There have been suggestions that certain areas which serve as major 
migratory pathways or important spawning areas for pelagic species be 
considered as nMPAs (e.g. NOAA, 1999). These in fact will be discussed 
as critical habitat parameters, but are not what are generally 
considered as an nMPA, as these may be seasonal, or even variable in 
locale, depending on certain physical conditions.
    The basic document employed for this list determination is the 
aforementioned ``Report on the Status of U.S. Living Resources'' 
published by the U.S. Department of Commerce for the year 1999 (NOAA, 
1999) and ``The Report to Congress. Status of Fisheries of the United 
States'' (NMFS, 2001). These reports provide species lists for each of 
the coasts, and their current stock status. This is supplemented by 
including additional species which may fall under individual state 
management, or have some economic importance external to the parameters 
of the Federal documents. Where these species have been added, a brief 
commentary on the rationale to do so is included.
    Thus the concern often expressed is for troubled species, and the 
purpose of this report is to determine if those species are potential 
beneficiaries of nMPAs.

Mid to south Atlantic species
Anadromous Species
    NOAA (1999) lists five managed anadromous species of the Atlantic 
Coast: Striped bass, American shad, alewife/blueback, sturgeons, and 
Atlantic salmon. All these stocks are considered overfished except 
striped bass.
    Striped bass (Morone saxatilis) suffered severe recruitment 
failures in the 1970s, but restrictive management measures implemented 
in the 1980s and some good recruitment levels have restored the stocks. 
For the other species, agricultural and industrial development and 
damming of rivers are cited as the major impediments to rebuilding. And 
while improvements of these riverine habitats may be necessary for 
recovery of these stocks, none of these species can be considered as 
potential beneficiaries of an nMPA.

Atlantic Highly Migratory Species.
    NOAA (1999) lists 10 categories of highly migratory fish stocks: 
yellowfin tuna, bigeye tuna, albacore, skipjack tuna, bluefin tuna, 
``other'' tunas, swordfish, blue marlin, white marlin and sailfish. Of 
these, all are considered over exploited, except yellowfin (fully 
exploited), skipjack (possibly fully exploited) and other tunas 
(unknown). While there is grave concern for the future of these 
severely overfished stocks, their highly migratory nature and 
requirements for international quota regulations preclude them from 
receiving significant benefit from an nMPA. However, identification of 
critical spawning areas may justify seasonal/areal closures in the 
future.

Atlantic Shark Fishery.
    There are thirty-four species of sharks listed in the Atlantic 
shark fishery by NOAA (1999), however these are grouped into only three 
categories: large coastal, small coastal, and pelagic. The large 
coastal species as a group are considered overfished, although lack of 
knowledge of the individual species status is a concern. Small coastal 
sharks are thought to be fully utilized, and their stock levels above 
that necessary to maintain a long term potential maximum yield. The 
exploitation status of the highly pelagic grouping is unknown. But 
practically all shark species for which tagging studies have been 
implemented show extensive movement patterns, and as a result, are 
unlikely to benefit from nMPAs. However, recent information on critical 
nursery areas for some species may warrant seasonal/areal closures or 
other measures to protect critical habitat of juveniles.

Summer Flounder.
    Along the New England and mid Atlantic coast, summer flounder 
(Paralichthys dentatus) of the mid Atlantic states is a heavily 
exploited species, both commercially and recreationally. The species 
undergoes an offshore spawning migration from late summer to mid-
winter, and the larvae and post-larvae drift inshore, where 
metamorphosis is completed, and the juveniles utilize eelgrass beds or 
similar habitats. The extensive migratory patterns minimize potential 
benefit to the species by nMPAs, however, consideration should be given 
to protection and even expansion of the required juvenile habitat.
Other south Atlantic and Gulf of Mexico stocks

Atlantic and Gulf of Mexico Migratory Pelagic Fisheries.
    Because of their migratory patterns which ingress between both the 
Gulf and south Atlantic, Gulf and Atlantic migratory species are 
included together. The species listed include dolphinfish, king 
mackerel, Spanish mackerel, cobia, and cero mackerel. To this list is 
added wahoo, because both Management Councils (the South Atlantic 
Fishery Management Council [SAFMC] and the Gulf of Mexico Fishery 
Management Council [GOMFMC]) have recently begun an assessment and 
management plan for this species.
    Of these seven species, only the Gulf stock king mackerel have been 
considered overfished, although the most recent stock assessment has 
concluded that this stock has now recovered to the fully utilized level 
(Dr. Will Patterson, chair GOMFMC Coastal Migratory Stock Assessment 
Panel, pers. com). Dolphinfish, cobia, cero, and wahoo fishery 
utilization levels are unknown. But in any case, these species are so 
migratory that none could be considered to benefit by an nMPA.

Atlantic and Gulf of Mexico Reef Fisheries.
    About 60 species of reef fishes are managed in the South Atlantic 
and Gulf EEZ. For the vast majority of these, stock assessments have 
not been performed and life history data, including movement patterns, 
are also unknown. Thus any consideration of nMPA benefits for these 
species is pre mature. However, in recent decades, great concern has 
been expressed for several of the more valuable species, and more is 
known of their stocks and life history than the lesser known forms. 
These will form the analytical basis for the potential benefits of 
nMPAs, and for the present, can be considered as reasonable proxies for 
the other less studied species.
    The species included in this discussion are: jewfish (=goliath 
grouper), Nassau grouper, gag grouper, red grouper, red snapper, 
vermilion snapper, mutton snapper, greater amberjack, red porgy, and 
gray triggerfish. Each of these is treated individually in regard to 
their stock status and current trends, life history parameters, and 
potential benefits of nMPAs.
    Goliath grouper (Epinephelus itajara) has been a species of great 
concern for more than a decade. In fact, a total harvest prohibition 
was placed on this species in the late 1980s. Since then, the 
population has experienced significant recovery (A. E. Eklund, NMFS, 
pers.comm.), and has led many commercial and recreational fishermen to 
express concern that its predatory behavior may negatively impact 
populations of sympatric reef species, especially spiny lobsters. At 
the recent (January 2002) meeting of the Reef Fish Advisory Panel 
(RFAP) of the GOMFMC, several members noted that these stocks have 
rebounded so strongly and are impacting their prey species so heavily 
that the Panel voted unanimously to request that the Council consider a 
controlled harvest to determine the status of the stocks.
    Nassau groupers (Epinephelus striatus) are found only in the most 
extreme southern US, primarily the Florida Keys (Sadovy and Eklund, 
1999). The status of their stocks has also been of great concern, 
especially because of their well documented spawning aggregations 
(Colin, 1992) which make them vulnerable to intense harvest at that 
time. For this reason, protection of these sites during spawning is 
certainly a positive function of an nMPA. Whether these sites should be 
so designated permanently would require additional studies to determine 
if habitat requirements were threatened by harvest activities during 
other times. In addition, designation of areas other than the spawning 
sites as nMPAs for protection of Nassau would not be beneficial, since 
they would leave those areas during spawning, and thus become 
vulnerable to capture (Bolden, 2000).
    Gag grouper (Mycteroperca microlepis) is an extremely important 
commercial and recreational species, occurring along the entire mid- 
Atlantic and Gulf coasts. There has been a great deal of study on this 
species (see Turner et al., 2001) because of its economic importance, 
fears for the condition of the stock, the formation of spawning 
aggregations, its protogynous life cycle, and the possibility of a 
major shift in sex ratios (fewer males) due to overfishing and the 
extremely aggressive habits of the males during this period (Coleman et 
al., 1996). Several regions off the big bend area of Florida were 
proposed as nMPAs by the GOMFMC for this species during the spawning 
period (late winter-early spring), but prevented from implementation by 
subsequent litigation. However, the occurrence of spawning aggregations 
and concern over sex ratios does argue for protection in those areas 
well documented as spawning sites. Although the current stock 
assessment indicates that the stocks are not overfished (GOMFMC, Stock 
Assessment Panel [SAP], 2001), gag is definitely a potential candidate 
for protection at aggregate spawning sites and during spawning periods.
    Red grouper (Epinephelus morio) range from Massachusetts to Brazil, 
and are most abundant on the west Florida and Yucatan shelves. They're 
found from coastal estuaries to the outer continental shelf (Robins et 
al., 1986; Shipp, 2000) and will likely be declared overfished during 
the year 2002 (Dr. Jim Cowan, chair, GOMFMC, SAP), although there 
continues to be a great deal of uncertainty regarding the status of the 
stocks, due in large part to historical catch by the Cuban fleet 
through the 1960s. In addition, little is known about the migratory 
patterns of this species. But there is no indication that they are any 
more sedentary than other groupers, and the juveniles occur in 
nearshore waters, moving offshore as they approach maturity. It is 
possible that adults form small breeding aggregations (Coleman et al., 
1996), but whether these occur in well defined areas is not known. If 
such areas are located, they could possibly be designated as an nMPA 
during spawning periods.
    Red snapper (Lutjanus campechanus) has doubtlessly become the most 
controversial finfish species in the Gulf of Mexico, less so in the 
south Atlantic. It's high market value, favor by recreational 
fisherman, and the vulnerability of juveniles to shrimp trawls, has 
resulted in stakeholder conflicts on many fronts. The species was 
declared as severely overfished in the late 1980s and early 1990s 
(Goodyear, 1995; Schirripa and Legault, 1999). This resulted in 
numerous harvest restrictions, including minimum size limits, seasonal 
closures, trip limits for commercial fishermen, bag limits for 
recreational fishermen, and mandates for by-catch reduction devices by 
the shrimp fleet.

[GRAPHIC] [TIFF OMITTED] T9780.002

    Because of these factors, and the fact that it's a reef species 
thought to have relatively sedentary habits, several recent papers on 
red snapper have cited the species as one that might be benefitted by 
nMPAs (Bohnsack,1996; Fogarty et al. 2000, Houde, 2001). However, on 
closer examination, red snapper would likely not benefit. Recent papers 
describing results of tagging studies (Watterson et al., 1998; 
Patterson et al. 2001) demonstrate that while strongly reef associated, 
red snappers exhibit slow movement away from tagging sites under normal 
conditions, and extensive movement as a result of tropical cyclones, a 
very frequent occurrence throughout the entire range of the species 
Figure 1). Thus, a ``permanent'' red snapper stock in an nMPA would be 
largely relocated to other areas with each of these events.
    In addition, recent model projections of snapper recovery 
(Goodyear, 1995; Schirripa and Legault, 1999) cite the need for very 
substantial (40%-80%) shrimp trawl by-catch reduction of age 0 and 1 
juveniles. Red snapper larvae remain in the plankton for two weeks or 
more. Thus any potential contribution of larvae to the overall 
population from and nMPA stock would be subjected to the same mortality 
over most of its range. But despite the stresses experienced by the 
stock, red snapper appear to have begun to recover. With the 
implementation of the traditional management measures described above, 
quotas and CPUE have increased consistently during the last decade.
    Vermilion snapper (Rhomboplites aurorubens) is a moderately 
important reef species of the Gulf and south Atlantic. The stock 
assessment panels have not been able with certainty to evaluate stock 
status. However, in the Gulf, it is likely that this species may be 
heading toward an overfished condition (J. Cowan, chair, GOMFMC Stock 
Assessment Panel, pers. comm.), although the most recent assessment 
contained so many uncertainties that the GOMFMC Reef Fish Advisory 
Panel in 2002 recommended ``status quo'' on setting a quota until a 
more reliable assessment could be developed. The species has been 
managed primarily by a minimum size limitation. There is little 
information as to its migratory or movement patterns, so the benefits 
of an nMPA for this species cannot be determined.
    Mutton snapper (Lutjanus analis) is known to form distinct spawning 
aggregations. One of the best known is the Riley's hump area near the 
Dry Tortugas in the Florida Keys. This area is protected during the 
spawning season, and except for some occasional violations and 
attendant enforcement problems, the protection will likely benefit the 
species.
    Greater amberjack (Seriola dumerili), though listed as a reef 
species, is better considered a coastal pelagic. Although frequenting 
reef areas, this active species is very mobile, and its movements, 
though not extensive long range migrations, do traverse hundreds of 
kilometers on a regular basis (Ingram, et al., in press), and thus is 
an unlikely candidate to benefit from any but the most expansive nMPAs.
    Red porgy (Pagrus pagrus) ranges on both sides of the Atlantic in 
temperate and tropical seas. It favors live bottom habitats. It is a 
species of some concern regarding the health of the stocks, especially 
in the south Atlantic U.S. coast. Recent increases in fishing pressure 
have resulted in a greatly reduced stock, and a call for reduced 
fishing mortality. Earlier tagging studies did not indicate extensive 
migrations. The species is currently under management by the SAFMC, and 
effort restrictions have been put in place to reduce harvest. 
Contingent on the results of this management and additional data on 
population movements, the red porgy is a species that could possibly 
benefit from an nMPA until stocks are returned to a level more 
manageable by traditional fishery methods. However, the population 
appears to be experiencing a substantial rebound (Dr. Robert Mahood, 
Exec. Dir. SAFMC, pers. com.), and a new stock assessment will be 
completed in June of 2002.
    Gray triggerfish (Balistes capriscus) is a temperate-tropical 
species found on both sides of the Atlantic. The species has received 
additional fishing pressure in recent years, probably resulting from 
more stringent management regulations on co-occurring species, 
especially red snappers and groupers. However, the stocks are not 
considered overfished, but as a precautionary move, a 12'' minimum TL 
size limit has been implemented by most management agencies. Recent 
studies (Ingram, 2001) suggest that gray triggerfish are more sedentary 
than previously thought, more so than red snapper, but nevertheless do 
display some limited movement. Should future fishing pressures indicate 
additional limitations on harvest, this species might be the best 
candidate among the fishes discussed here to benefit from an nMPA, 
especially given that recent stock assessment data indicate that gray 
triggerfish may be experiencing local overfishing in some locations in 
the Gulf of Mexico (J. Cowan, chair, GOMFMC Stock Assessment Panel, 
pers. comm.).

Other Snapper/Grouper Species.
    In the south Atlantic, there are nine species of snappers and 
groupers (gag grouper, red snapper, speckled hind, snowy grouper, 
Warsaw grouper, golden tilefish, yellowtail snapper, red grouper, and 
black grouper) that are considered overfished and overfishing is 
occurring. The SAFMC has initiated rebuilding plans by imposing catch 
restrictions on all these species. These plans are generally 10-15 year 
plans, and most are about five years away from completion. If these 
traditional management measures fail, nMPAs might be appropriate for 
some or all of these species. However, migratory patterns of these 
forms are at present poorly understood. Therefore, establishment of 
nMPAs at this time is pre mature.
    There are an additional 19 snapper/grouper species in the South 
Atlantic, as well as scores of sympatric species under management (e.g. 
grunts, porgies), for which the stock status is unknown.

Southeast Drum and Croaker Fisheries.
    Black drum, Atlantic croaker, spot, red drum, seatrouts, and 
kingfishes (whitings) are included in this grouping. Atlantic croaker 
and red drum are considered overfished, while the other species' status 
is considered unknown. All these species spawn in higher salinity 
waters or offshore, and the young enter estuaries where they reside 
until reaching sexual maturity.
    Of the two overfished stocks, management plans are in place for the 
recovery of both. Croaker (Micropogonias undulatus) stocks suffer 
greatly from by-catch discards, which include about 7.5 billion 
individuals killed annually (NOAA 1999). Improvement in gear designs 
will likely reduce this mortality and lead to recovery of the species.
    A total harvest ban in Federal waters by the South Atlantic and 
Gulf of Mexico Councils has been put in place for red drum (Sciaenops 
ocellatus). In addition, the states have implemented various 
restrictive harvest measures. The results suggest that these 
conservation measures have substantially increased the escapement of 
juveniles, and the offshore adult stocks are increasing.
    Thus there appears no benefit of nMPAs as a management tool for the 
southeast drum and croaker fisheries.
    Other Gulf and south Atlantic species under some form of management 
include striped mullet, tarpon, and snook. Only regional assessments 
exist for these species, but none is considered overfished on a range-
wide basis, and all have moderate to long range migratory patterns, and 
would not benefit from traditional nMPAs. However, the juvenile phase 
of tarpon may benefit from some nursery area protection (Shipp, 1986).
Pacific Coast fisheries (excluding Alaska)

Pacific Coast Pelagic Species.
    There are five species included within the Pacific pelagic group 
(northern anchovy, Pacific sardine, jack mackerel, chub mackerel, and 
Pacific herring, NOAA, 1999). All are listed as under or fully 
utilized, none overfished. Therefore, because of their healthy stock 
conditions and pelagic life history, they would receive no benefits 
from creation of nMPAs.

Pacific Coast Groundfish Fisheries.
    The Pacific groundfish assemblage is a diverse group of species, 
principally flatfishes and rockfishes. These are mainly long lived, 
slow growing species, subject to harvest by both commercial and 
recreational fishers. Included are about 60 species of rockfishes, 
principally Sebastes and several species of thornyheads (Genus 
Sebastolobus), several cods, the sablefish (Anolopoma fimbria) and the 
lingcod (Ophiodon elongatus). Recently, life history data were provided 
to the Pacific States Marine Fisheries Commission of the nearshore 
fishes of California (Cailliet, 2000). This, along with several 
supplementary references, and combined with the NOAA document (1999) 
and the Report to Congress NMFS 2001) provide the background for 
determination of the possible impacts of nMPAs on these species.
    The Pacific whiting (=Pacific hake, Merluccius productus), is a mid 
to moderate depth species, with relatively extensive movement patterns. 
It is considered fully but not over exploited, and with extremely 
variable year class strengths. Because of these factors the species is 
not likely to benefit from establishment of an nMPA.
    The sablefish (Anaplopoma fimbria) is an important commercial 
species, ranging from Japan and the Bering Sea to Baja. The stock 
status is considered fully exploited, and stock levels are below 
optimum. However, it is a deep water, often migratory species, thus not 
likely to benefit from an nMPA.
    The lingcod (Ophiodon elongatus) is a large member of the greenling 
family, ranging from Kodiak Island to southern California, but is most 
abundant in the northern part of its range. It is an extremely 
important recreational and commercial species, with a high food value, 
although representing only about 2% of the Pacific Coast groundfish 
catch. This species is considered to be over exploited, with stock 
levels well below that necessary to maintain the long term projected 
yield. The species is relatively sedentary, usually in rocky reefs at 
depths of 10 to 100 m. It is a nest building species, and the males 
become extremely aggressive during this time, particularly vulnerable 
to attack by marine mammals. The species is also cannibalistic.
    The life history and stock condition indicate that this species 
could benefit by an nMPA in the more northern part of its range. 
However, other management measures have been put in place, including 
protection of spawning and nesting sites during spawning season, 
minimum size requirements to ensure at least one spawn before subject 
to harvest, and restricted catch limits through recreational bag limits 
and commercial quotas. Though recovery is likely to be slow because 
this is a long lived species (up to 25 years), these measures are 
thought to be sufficient to effect recovery (Alaska Dept. of Fish and 
Game, 1994).
    Pacific cod (Gadus macrocephalus) is a wide ranging, highly 
migratory species of commercial importance in the North Pacific. It is 
considered underutilized, although stock status and long term potential 
yield are unknown. Therefore, the species would not benefit from 
establishment of an nMPA.

Pacific Flatfishes.
    Pacific halibut (Hippoglossus stenolepis) is a carefully managed 
species, with its center of abundance in the Gulf of Alaska. Landings 
from the U.S. Pacific Coast (excluding Alaska) average about 570 metric 
tons, representing a little more than 1% of the total harvest (NOAA, 
1999). The species is well managed throughout its range by traditional 
methods, and recent harvest has been near record. Thus the species 
would not likely benefit from establishment of an nMPA.
    The status of four other U.S. Pacific Coast flatfish species 
(arrowtooth flounder [Atheresthes stomias], Dover sole [Microstomas 
pacificus], English sole [Pleuronectes vetulus], and petrale sole 
[Eopsetta jordani] ) are considered individually while the many 
additional flatfishes are grouped together (NOAA, 1999). Of these four, 
none is listed as overfished, and all are wide ranging with extensive 
offshore movement patterns. For this reason, none would benefit from 
nMPAs. For the many remaining flatfish species, their stock status is 
unknown.

Rockfishes.
    There are about 65 species of rockfishes endemic to the U.S. 
Pacific coast, most in the genus Sebastes. They live in a diversity of 
habitats, from clean bays, to depths greater than 400 M. They are long 
lived species, with some living well over 50 years. Thus, annual 
exploitation to attain the management goals of 35-40% spawning biomass 
per recruit is often as low as about 5-10%. In recent years, the 
surplus present in most of these stocks has been fished down, resulting 
in reductions in recommended annual harvest (NOAA, 1999).
    In its report to Congress, NMFS (2001) lists 52 species of 
rockfish. For four species (Pacific ocean perch [Sebastes alutus], 
bocaccio [S. paucispinus], canary rockfish [S. pinniger], and cowcod 
[S. levis], all but the latter are major stocks) the stocks are 
overfished but overfishing is not presently occurring and rebuilding 
programs are in place or under development. These species are all wide 
ranging forms with extensive portions of their populations in very deep 
water. Thus for fishery management purposes, nMPAs are likely not 
needed Only nMPAs of impractical extent both longitudinally and 
bathymetrically would have any impact on the stocks as a whole.
    For three species (darkblotched rockfish [Sebastes crameri], 
silvergrey rockfish [S. brevispinis], and yelloweye rockfish [S. 
ruberrimus], all major stocks) overfishing is occurring, but for the 
former species the stocks are not currently overfished, and for the 
latter two stock conditions are unknown. Reduced mortality will be 
required, but currently, rebuilding plans are not yet in place. These 
three are also very wide ranging, from the Bering Sea to southern 
California, and out to depths of well more than 500 M, thus nMPAs would 
be impractical as a management tool. And in fact, due to the bathymetry 
of the eastern North Pacific coast, many of the areas inhabited by 
rockfishes are such as to prevent extensive fishing effort, or create a 
``natural refuge'' (see Yolklavich et al. below).
    For eight species (seven of which are major stocks) for which 
assessments exist the stocks are not overfished, nor is overfishing 
occurring. For the remaining species, most of which are minor stocks, 
their status and rate of fishing mortality is unknown. Therefore, 
particular management measures are premature.
    The Pacific Fishery Management Council has implemented limits for 
individual vessels, as well as other measures in an attempt to maintain 
a year round harvest for most rockfish species.
    Life history data and stock assessments for most species are not 
yet determined. Cailliat (2000) lists data on about 30 species, and 
about half are known to be resident species. Of the overfished or 
species experiencing overfishing, movement data are available only for 
the canary rockfish which is considered transient/resident, with tagged 
movements of over 259 km documented, and the yelloweye, which is 
considered a resident species.

General Life History Comments Regarding Rockfish.
    In their study of the Soquel Submarine Canyon, off Monterey 
California, (Yoklavich et al., 2000) suggested that ``rock outcrops of 
high relief interspersed with mud in deep water of narrow submarine 
canyons are less accessible to fishing activities and thereby can 
provide natural refuge for economically important fishes.'' Their study 
was represented by 52 fish species, of which rockfishes were 
represented by a minimum of 24 species. In addition, they concluded 
that ``There was remarkable concordance between some of the guilds 
identified in Soquel Canyon and the results of other habitat-specific 
assessments of fishes along the west coast of the United States from 
central California to Alaska.'' Certainly this suggests that there is 
an inherent control of fishing effort in these habitats and 
consideration of more extensive areas designated as nMPAs is pre-mature 
and likely unnecessary.
    Soh et al. (2001) studied the role of marine reserves on Alaskan 
rockfishes. Although Alaska is beyond the scope of this report, the 
findings are likely applicable. While predicting that harvest refugia 
(=MPA) can be used to greatly reduce discards and serial overfishing, 
they state that the effectiveness of marine refugia ``in fisheries 
management is poorly understood and concepts regarding their use are 
largely untested.''

                               DISCUSSION

    NMPAs may serve many purposes, as described above. But when 
intended to serve as a fishery management tool, there are several 
situations for which they may be extremely beneficial, and many others 
for which more traditional methods are much preferred. These are 
reviewed briefly as follows.

Benefits of nMPAs as management tools
    NMPAs can have a strong beneficial impact for fishery management 
during periods of active spawning by aggregations, when species may be 
especially vulnerable to harvest, and when certain components of the 
stock (e.g. large male gag grouper) may be disproportionately liable to 
capture. This can lead to imbalanced sex ratios which can further 
jeopardize a stressed stock. The utility of these is likely to be 
seasonal, and normally would not require year around catch 
restrictions.
    In instances where a stock is severely overfished and subject to 
little or no management, an nMPA can be used along with other measures 
to more rapidly replenish populations. This is especially true in 
isolated, insular populations (e.g. Roberts et al., 2001, for St Lucia) 
which are not strongly connected to proximal populations for 
replenishment.
    Where habitats are damaged by fishing practices, establishment of 
nMPAs may help ensure habitat recovery. This is useful when these 
habitats, such as submerged aquatic vegetation, reef structures or 
other hard bottom habitat, are critical for vulnerable life stages. 
Oftentimes, however, gear restrictions can be enacted to lessen the 
social impact that would result in declaration of a total no-take zone.
    NMPAs may also be beneficial where ecosystem management is employed 
in fisheries (primarily of near sedentary species) where by-catch of 
non-targeted species has become excessive, or conversely, where a 
protected species has reached population levels which increase natural 
mortality rates of targeted species, preventing a reasonable harvest 
(see comments on Goliath grouper, above). An nMPA will allow some 
version of dynamic equilibrium to return. When the equilibrium has been 
reestablished, then alternate, more traditional management actions may 
be desirable to allow yield from the system. However, ecosystem based 
management is still in its infancy, and much research needs to be done 
before tested management principles can be established.

Liabilities and ``non benefits'' of nMPAs as management tools
    When establishment of an nMPA is intended as a near proxy for a 
virgin stock, several factors need to be kept in mind. And it might be 
helpful, in gaining perspective, to recall that some of these 
principles have been well known for decades or longer, though sometimes 
forgotten. First, by definition, a virgin stock provides no yield. 
Therefore a perfect proxy would be a negative in terms of management 
goals to produce an MSY or OY. However, proponents of nMPA usage for 
management purposes refer to a ``spillover effect'' of harvestable 
adults to adjacent areas. The impact of this spillover will always be 
less than that of a properly managed stock, which generates the optimal 
yield-per-recruit, again, by definition. These models are discussed in 
numerous classical and modern texts (e.g. Rounsefell, 1975; Iverson, 
1996),
    The issue of spillover is addressed briefly by Houde et al. (2001). 
The authors describe the difficulty of direct confirmation of spillover 
effects, and suggest models may be more useful in understanding how 
marine reserves function in a regional context. But they also note that 
those conclusions are limited by underlying assumptions on which the 
model is based. For species with low mobility, the spillover is 
minimal, yet these sedentary species are the very ones for which an 
nMPA is supposedly most effective.
    Another claim is that larvae from an nMPA will be a significant 
addition to the overall stocks. This may be beneficial, but only for a 
very seriously depleted stock. In other cases, larval production, 
always in excess of the carrying capacity of the habitat, does not 
normally relate to year class strength. Rather density dependent 
factors usually control ultimate recruitment to the harvestable stock. 
While this principle has been the subject of scores of books and 
probably thousands of publications, it was espoused nearly 150 years 
ago by Darwin and restated frequently in most every fishery text (e.g. 
Gulland, 1977; Rothschild 1986).
    And much more recently, data presented by the GOMFMC Coastal 
Pelagic Stock Assessment Panel (January 2002) re emphasizes for very 
practical management purposes, such as in the case of Gulf king 
mackerel, that egg production does not correlate to an increase in 
stock size, the panel stating: ``recruitment is assumed to increase to 
some level of spawning stock, and then to remain at the average 
recruitment for higher spawning stock values (Figure 2).''

Stocks within an nMPA
    There are numerous examples in the literature of stock increases 
within an nMPA (e.g. Johnson et al., 1999; Roberts et al., 2001). 
However, one must not forget what the point is here in regard to yield. 
While effective nMPAs may support a stock with relatively greater 
biomass, perhaps larger individuals, and a higher spawning potential 
ratio (SPR), this portion of the stock has been removed from harvest. 
Therefore, the overall yield is reduced by whatever fraction could be 
contributed to overall harvest from this protected stock, and mitigated 
only by the possibility of spillover or larval contribution, as 
discussed above.

[GRAPHIC] [TIFF OMITTED] T9780.003

Pragmatic perspective
    Examination of the scores of coastal species from the mid to south 
Atlantic, Gulf, and U.S. Pacific coasts reveals that very few species 
are known to be both overfished and/or experiencing overfishing, and 
are sedentary. Those candidates that are in both categories, and may 
possibly benefit from and nMPA, are found in widely differing 
geographic ranges, with optimal potential nMPA sites far apart (e.g. 
lingcod and surf perch in the Pacific, red porgy in the Atlantic and 
gray triggerfish in the Gulf). To establish an nMPA for the benefit of 
those few species would remove harvest potential of the scores of 
sympatric forms, most of which are not overfished. And while this may 
not reduce the overall harvest of these species, it would definitely 
reduce efficiency and increase fishing effort in other, adjacent areas.
    Far better would be to impose more traditional methods to restore 
the overfished stocks, as has been done for many species. This becomes 
more and more successful as we adopt more precautionary harvest levels, 
improve our methods of stock assessment, stock/recruit relationships, 
and life history information.
    Current plans or suggestions regarding closure of large areas of 
the U.S. mainland continental shelf to harvest are simply not 
scientifically supportable from a fishery management perspective. The 
suggestion, for example, that as much as 40% of the Southern California 
shelf should be designated an nMPA is totally without merit from a 
fishery harvest perspective. Though there may be other aesthetic 
benefits, such a closure would severely reduce harvest potentials, 
shift effort to other areas, and likely have a substantial negative 
economic impact on both the commercial and recreational fishing 
industries.

                            LITERATURE CITED

    Bohnsack, J.A. 1996. Marine Reserves, Zoning, and the Future of 
Management. Fisheries 21(9): 14-16.
    Bolden, S. K. 2000. Long-distance Movement of Nassau Grouper 
(Epinephelus striatus) to a Spawning Aggregation in the Central 
Bahamas. Fish. Bull. 98:642-645.
    Botsford, L. W., L. E. Morgan, D. R. Lockwood, and J. E. Wilen. 
1999. Marine Reserves and Management of the Northern California Red Sea 
Urchin Fishery. Cal. Coop. Oceanic Fish. Invest. Rep. 40:87-93.
    Cailliet, G.M. 2000. Biological Characteristics of Nearshore Fishes 
of California: A Review of Existing Knowledge and Proposed Additional 
Studies. Final Report to the Pacific states Marine fisheries 
Commission. 103 p.
    Coleman, F. C., C. C. Koenig, and L. A. Collins. 1996. Reproductive 
Styles of the Shallow-water Groupers (Pisces: Serranidae) in the 
Eastern Gulf of Mexico and the Consequences of Spawning Aggregations. 
Env. Bio. of Fishes 47:129-141.
    Colin, P. L. 1992. Reproduction of the Nassau Grouper, Epinephelus 
striatus, (Pisces: Serranidae) and its Relationship to Environmental 
Conditions. Env. Bio. of Fishes. 34:357-377.
    DeMartini, E. E., 1993. Modeling the Potential of Fishery Reserves 
for Managing Pacific Coral Reef Fishes. Fish. Bull. 91:414-427.
    Fogarty, M.J., J. A. Bohnsack, and P. K. Dayton. 2000. Marine 
Reserves and Resource Management. In: Sheppard, C (ed.) Seas at the 
Millennium. Elsevier Science Ltd. London.
    Goodyear, C. P. 1995. Red Snapper in U.S. Waters of the Gulf of 
Mexico: 1992 Assessment Update. NMFS-SEFSC, MIA-92/93-76.
    Gulland, J. A. 1977. Fish Population Dynamics. John Wiley and Sons. 
New York, 372 p.
    Hastings, A. and L. Botsford. 1999. Equivalence in Yield from 
Marine Reserves and Traditional Fisheries Management. Science 284:11-2.
    Holland, D. S. and R. J. Brazee. 1996. Marine Reserves for 
Fisheries Management. Marine Resource Economics 11:157-171.
    Houde, Ed, chair, Committee on the Evaluation, Design, and 
Monitoring of Marine Reserves and Protected Areas in the United States. 
Marine Protected Areas, Tools for Sustaining Ocean Ecosystems. 2001. 
National Academy of Sciences. Washington, DC.
    Ingram, G. W. 2001. Movement, Growth, Maturity Schedules and 
Fecundity of Gray Triggerfish (Balsites capriscus) from the North-
central Gulf of Mexico. Ph.D. diss. Univ. of South Alabama.
    Iverson, E. S. 1996. Living Marine Resources, their Utilization and 
Management. Chapman and Hall, New York. 403p.
    Johnson, D.R., N. A. Funicelli, and J. A. Bohnsack. 1999. 
Effectiveness of an Existing Estuarine No-take Fish Sanctuary within 
the Kennedy Space Center, Florida. N. Amer. J. of Fish. Manag. 
19(2):436-453.
    MacCall, D., A. McArdle, J.C. Ogden, J. Roughgarden, R.M. Starr, 
M.J.Tegner, and M. M. Yoklavich. 1999. No-Take Reserve Networks: 
Sustaining Fishery Populations and Marine Ecosystems. Fisheries 24 
(11): 11-25.
    Manooch, C.S.,III and W.W. Hassler. 1978. Synopsis of Biological 
Data on the Red Porgy (Pagrus pagrus) Linnaeus. NOAA Tech. Rep. NMFS 
Circ. 412, 19 p.).
    Murray, S.N., R.F. Ambrose, J. A. Bohnsack, L. W. Botsford, M.H. 
Carr, G.E. Davis, P.K. Dayton, D. Gotshall, D.R. Gunderson, M.A. Hixon, 
J. Lubchenco, M. Mangel, A. MacCall, D. A. McArdle, J. C. Ogden, J. 
Roughgarden, R. M. Starr, M. J. Tegner, and M. M. Yoklavich. 1999. No-
Take Reserve Networks: Sustaining Fishery Populations and Marine 
Ecosystems. Fisheries 24 (11): 11-25.
    National Marine Fisheries Service. 2001. Report to Congress. Status 
of Fisheries of the United States. Silver Spring Maryland. 119p.
    National Oceanic and Atmospheric Administration (NOAA). 1999. Our 
Living Oceans: Report on the Status of U.S. Living Marine Resources, 
1999. NOAA Technical Memorandum NMFS-F/SPO-41. Silbver Spring, MD.
    National Resources Defense Council. 2001. Keeping Oceans Wild. 
April 2001 report.
    Nowlis, J. S. and C. M. Roberts. 1999. Fisheries Benefits and 
Optimal Design of Marine Reserves. Fish. Bull. 97:604-616.
    Patterson III, W. F., J. C. Watterson, R. L. Shipp, and J. H. 
Cowan. 2001. Movement of Tagged Red Snapper in the Northern Gulf of 
Mexico. Trans. Amer. Fish. Soc. 130:533-545.
    Polacheck, T. 1990. Year Around Closed Areas as a Management Tool. 
Natural Resource Modeling 4:327-354.
    Roberts, C. M., J. A. Bohnsack, F. Gell, J. P. Hawkins, and R. 
Goodridge. 2001. Effects of Marine Reserves on Adjacent Fisheries. 
Science 294:1920-1923.
    Robins, C.R., C. G. Ray, and J. Douglass. 1986. A Field Guide to 
Atlantic Coast Fishes. The Peterson Field Guide Series. Houghton 
Mifflin, Boston.
    Rothschild, B. J. 1986. Dynamics of Marine Fish Populations. 
Harvard Univ. Press, Cambridge, MA. 272p.
    Rounsefell, G. A. 1975. Ecology, Utilization, and Management of 
Marine Fisheries. C. V. Mosby, St. Louis. 516p.
    Sadovy, Y., and A. E. Eklund. 2000. Synopsis of Biological Data on 
the Nassau Grouper, Epinephelus striatus (Bloch, 1792) and the Jewfish, 
E. itajara (Lichtenstein, 1822). NOAA Tech. Rep. NMFS 146. FAO 
Fisheries Synopsis 157.
    Schirripa, M.J, and C.M. Legault. 1999. Status of the Red Snapper 
Stock in U.S. Waters of the Gulf of Mexico: updated through 1998. NOAA/
NMFS, SFD-99/00-75.
    Shipp, R. L. 1986. Dr. Bob Shipp's Guide to the Fishes of the Gulf 
of Mexico. KME Seabooks, Mobile, AL. 186p.
    Shipp, R.L. 1999. Status of exploited fish stocks in the Gulf of 
Mexico, 196-204. In: The Gulf of Mexico Large Marine Ecosystem, H. 
Kumpf, K. Steidinger, and K. Sherman, eds. Blackwell Science, Malden, 
MA.
    Soh, S., D.R. Gunderson, and D. H. Ito. 2001. The Potential Role of 
Marine Reserves in the Management of Shortraker Rockfish (Sebastes 
borealis) and rougheye rockfish (S. aleutianus) in the Gulf of Alaska. 
Fish. Bull. 99:168-179.
    Turner, S.C., C.E. Porch, D. Heinmann, G. P. Scott, and M.Ortiz. 
2001. Status of the Gag Grouper Stocks of the Gulf of Mexico: 
assessment 3.0. NMFS/SEFSC contri. SFD-01/02-134.
    Vaughan, D.S., G. R. Huntsman, C.S. Manooch, III, F.C. Rohde, and 
G.F. Ulrich. 1992. Population Characteristics of the Red Porgy, Pagrus 
pagrus, Stock off the Carolinas. Bull. Mar. Sci. 50 (1): 1-20.
    Watterson, J. C., W. F. Patterson III, R. L. Shipp, and J. H. 
Cowan, Jr. 1998. Movement of Red Snapper, Lutjanus campechanus, in the 
North Central Gulf of Mexico: Potential Effects of Hurricanes. Gulf of 
Mexico Science 1998(1):92-104.
    Yoklacich, M.M., H. G. Greene, G. G. Cailliet, D. E. Sullivan, R. 
N. Lea, and M. S. Love. 2000. Habitat Associations of Deep-water 
Rockfishes in a Submarine Canyon; an Example of a Natural Refuge. Fish. 
Bull. 98:625-641.

                            ACKNOWLEDGMENTS

    I am grateful to Drs. Ray Hilborn, University of Washington, and 
James Cowan, Louisiana State University for their comments on this 
manuscript. This research was funded in part by a grant from the 
Fishamerica Foundation.
    Robert L. Shipp, Ph.D. is chair of the Department of Marine 
Sciences, University of South Alabama and Director of the Alabama 
Center for Estuarine Studies. He administers more than $2,000,000 
annually of marine and estuarine research funds. He served nine years 
on the Gulf of Mexico Fishery Management Council, twice as chair, and 
was chairman of the Council's Essential Fish Habitat Committee. He 
edited Systematic Zoology for 4 years, and was a governor of the 
American Society of Ichthyologists and Herpetologists for five years. 
He has published some 40 refereed papers and one book on marine fishes, 
and has been asked to testify before Senate and National Research 
Council Committees on fisheries and fishery management.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Dr. Shipp.
    Mr. Gilmore?

  STATEMENT OF JIM GILMORE, DIRECTOR, PUBLIC AFFAIRS, AT-SEA 
                     PROCESSORS ASSOCIATION

    Mr. Gilmore. Thank you, Mr. Chairman and Congressman 
Underwood for inviting the At-Sea Processors Association to 
testify today. I am Jim Gilmore, the director of public affairs 
for the association.
    The catcher-processor fleet represented by APA participates 
in the nation's largest fishery, the Bering Sea-Aleutian 
Islands Groundfish Fishery, as well as the West Coast Pacific 
Whiting Fishery. Participants in the North Pacific fisheries 
have followed closely but anxiously the emerging national 
debate on Marine Protected Areas. The breadth and scope of the 
MPA Executive Order issued by President Clinton is still 
unclear, and the impacts on fishing communities are unknown.
    A March 2002 report issued by NOAA finds that policymakers 
must still undertake the basic task of, quote, identifying MPA 
goals and defining MPA terminology. It is difficult for fishing 
organizations to develop a coherent position on MPAs absent a 
definition of what an MPA is.
    However, it is our view that MPAs should be broadly defined 
to include any marine area that is closed permanently or 
seasonally or an area in which some or all types of fishing 
gear are restricted. The purposes for such closures or 
restrictions, or both could include fish stock management, by-
catch avoidance, gear conflict reduction, protection of 
endangered species or protection of sensitive habitat.
    Using those guidelines, the map on page 2 of my written 
testimony shows that in the Bering Sea-Aleutian Islands 
Management Area, Federal fishery managers have already created 
Marine Protected Areas encompassing more than 30,000 square 
miles of ocean. An additional 45,000 square miles of the Gulf 
of Alaska are managed as Marine Protected Areas.
    While the MPA debate is in its seminal stages at the 
national level, for two decades the North Pacific Council has 
been using MPAs to achieve management and conservation 
objectives, reflecting an ecosystem-based management approach. 
As a result of the essential fish habitat provisions of the 
1996 Sustainable Fisheries Act, there is a new focus on MPAs at 
the regional fishery management council level. The EFH mandate 
directed councils to describe and identify essential fish 
habitat and fishery management plans; identify adverse impacts 
from fishing on such habitat; and take necessary measures to 
ensure conservation and enhancement of EFH.
    In some regions, the focus of EFH might be to restrict 
fishing in habitat areas of particular concern to allow fish 
populations to rebuild. That has not been the emphasis in the 
North Pacific, where fish stocks are already healthy and 
robust.
    Efforts by the North Pacific Council to implement EFH 
requirements are focused more on identifying habitat areas of 
particular concern and developing mitigation measures to 
protect sensitive habitat areas from adverse impacts of 
fishing. This is a difficult and time-consuming task, and the 
council is allocating substantial resources in a multi-year 
project that could result in a significant expansion of MPAs in 
the North Pacific.
    While the focus of this hearing on MPAs is as a fishery 
management tool, concerns about the lack of a coherent national 
policy regarding existing state, Federal and locally 
administered MPAs should be noted. The situation is exacerbated 
by the lack of clarity and agreement on definition of MPAs and 
a lack of articulated goals and objectives. One example of a 
Federal regulatory action that could significantly impact the 
fishing industry is a proposal by the Environmental Protection 
Agency that, among other things, would designate special ocean 
sites for purposes of limiting ocean discharges.
    EPA, under this proposal--
    Mr. Gilchrest. Special ocean sites for what? For 
eliminating--
    Mr. Gilmore. It is a new initiative in which EPA could 
designate special ocean sites.
    Mr. Gilchrest. For what purpose?
    Mr. Gilmore. For limiting ocean discharges from vessels--
seafood processing waste, for example.
    Mr. Gilchrest. Oh, to limit the discharge of vessels in 
those areas?
    Mr. Gilmore. Correct.
    Mr. Gilchrest. I got you.
    Mr. Gilmore. EPA or any petitioning party could seek to 
designate an area as a special ocean site, an SOS. The 
definition of a candidate site is so broad as to include any 
area designated under the Endangered Species Act as providing 
critical habitat for threatened or endangered species. In the 
North Pacific, over 10,000 square miles of ocean are already 
designated as critical habitat for endangered Steller sea 
lions.
    The draft proposal by EPA further reads if these areas are 
already designated for protection under other authorities, EPA 
believes that SOS status may also be appropriate as an 
additional level of protection. Currently, there are more than 
100 catcher-processors using trawl, longline or pot gear 
fishing in Bering Sea-Aleutian Islands Management Area under a 
general ocean discharge permit issued under the Clean Water 
Act. An SOS designation could affect fishing operations in that 
fleet of vessels by limiting the existing permit that we have.
    EPA did not consult with the North Pacific Fishery 
Management Council or fishing communities in developing this 
proposal, although there were consultations with NOAA. This is 
just one example of a proposed Federal action under the MPA 
Executive Order that could greatly impact the fishing industry. 
We expect that there are others.
    The fishing industry agrees with those calling for a 
comprehensive review, an inventory, if you will, of existing 
MPAs giving due consideration to fishery management measures 
that are already in effect. The purpose for creating and 
maintaining MPA status for protected areas should be reviewed, 
and the effectiveness of MPAs in achieving their original goals 
and objectives should be evaluated.
    Within the context of that review, definitions and policy 
objectives must be clearly defined. There should be an adequate 
understanding of the regulatory burden on fishery managers and 
the fishing community in complying with broad, new EFA 
mandates.
    In light of that, Federal agencies should suspend new 
initiatives until it is clearly understood what MPAs are, and 
the efficacy of the current program has been evaluated. To the 
extent that such initiatives continue to move forward and 
affect fishing activities, Federal agencies should work 
collaboratively with regional fishery management councils to 
coordinate actions and to promote stakeholder involvement from 
the fishing community.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Gilmore follows:]

         Statement of Jim Gilmore, Director of Public Affairs, 
                     At-Sea Processors Association

    Thank you, Mr. Chairman and members of the Subcommittee, for the 
invitation to testify today on the use of marine protected areas (MPAs) 
as a fishery management tool. I am Jim Gilmore, Director of Public 
Affairs for the At-sea Processors Association (APA). APA represents 
seven companies that operate 19 U.S.-flag catcher/processor vessels. 
The catcher/processor fleet participates in the Nation's largest 
fishery, the Bering Sea/Aleutian Islands groundfish fishery, and in the 
West coast Pacific whiting fishery.
Marine Protected Areas (MPAs) and the North Pacific Fisheries.
    Participants in the North Pacific fisheries have followed closely, 
but anxiously, the emerging national debate on marine protected areas. 
The breadth and scope of Executive Order 13158, issued by President 
Clinton almost two years ago today, is still unclear and the impacts on 
fishing communities unknown. A March 2002 report issued by the National 
Oceanic and Atmospheric Administration (NOAA), ``Marine Protected Areas 
Needs Assessment Final Report'' finds that policy makers must still 
undertake the basic task of ``identifying MPA goals and defining MPA 
terminology.''
    It is difficult for fishing organizations to develop a coherent 
position on MPAs absent a definition of what an MPA is. However, there 
appears to be general agreement that MPAs include marine areas that are 
closed permanently or seasonally to achieve fishery management 
objectives. Fishery management regulations for such areas might also 
restrict the use of some or all types of fishing gear. The purposes for 
such closures could include:
    <bullet> Managing natural resources;
    <bullet> Reducing fishing gear conflicts;
    <bullet> Protecting endangered species;
    <bullet> Protecting sensitive habitat;
    <bullet> Providing research opportunities; and
    <bullet> Conserving biodiversity.
    The map below shows that in the Bering Sea/Aleutian Islands 
management area, Federal fishery managers have already created marine 
protected areas encompassing more than 30,000 square nautical miles of 
ocean. The MPA website maintained by NOAA identifies a number of these 
closures on the inventory of U.S. MPAs.
    Some of the MPAs in effect in the Bering Sea/Aleutian Islands 
management zone close areas to all or some fishing to reduce, or 
eliminate, the effects of fishing on marine mammals, including 
threatened and endangered species. Other closures are designed to 
reserve access to fishing grounds to certain gear types or certain-
sized fishing vessels. Fishery managers have also imposed MPAs to 
reduce the likelihood of incidentally harvesting non-target species 
that might be intercepted in such areas, and another type of MPA is 
designed to protect certain types of sensitive habitat. Virtually all 
of the protected areas identified below restrict trawling for some or 
all of the year. In other cases, trawl area closures are triggered if 
``prohibited species'' bycatch caps are reached.

[GRAPHIC] [TIFF OMITTED] T9780.004


    According to a paper presented by North Pacific Fishery Management 
Council staff member Jane DiCosimo in November 1998, the three king 
crab closures in Bristol Bay alone comprise ``approximately 25% of the 
continental shelf where commercial quantities of groundfish can be 
taken with bottom trawl gear,'' exceeding the ``theoretical minimum of 
20% of available habitat...of an effective marine reserve suggested by 
Lauck et al. (1998).''
    There is an effective monitoring and enforcement program in place 
in the North Pacific fisheries to ensure compliance with MPA fishing 
restrictions. Among other management measures, there is comprehensive 
Federal fishery observer coverage onboard vessels as well as a 
requirement that vessels be equipped with Vessel Monitoring System 
(VMS) units that electronically record and report vessel locations on a 
real-time basis to NOAA Fisheries.
    The existing MPAs in the Bering Sea/Aleutian Islands management 
area (along with the MPAs for the Gulf of Alaska management area that 
total another 45,000 square miles) were developed through the regional 
fishery management council process. When a resource management problem 
is identified, the North Pacific Council develops a suite of management 
alternatives that address the problem. The Council then conducts a 
thorough analysis of the alternatives for public review and comment and 
takes action based on the best scientific information available. The 
council process, authorized under the Magnuson-Stevens Fishery 
Conservation and Management Act, operates in accordance with 
requirements of the National Environmental Policy Act (NEPA), the 
Endangered Species Act (ESA) and the Administrative Procedure Act 
(APA), among other laws.
    Fishery managers must often balance competing priorities and 
objectives in utilizing MPAs as a fishery management tool. There are 
incidental catch considerations. Fishing effort that is shifted from 
fishing grounds newly designated as a marine protected area could 
result in increased non-target species catches elsewhere. For smaller 
vessels, there are safety issues associated with MPAs that close near 
shore areas and move fishing effort offshore. MPAs for fishery 
management purposes also need to be adaptive as climate change can 
affect migratory patterns and abundance on a species-by-species basis. 
In our view, the North Pacific Council has acted proactively and 
aggressively in addressing resource management and conservation needs. 
The Council has been precautionary in its approach and developed 
adaptive management measures that respond to ever changing 
environmental conditions in creating MPAs for fisheries management 
purposes covering 75,000 miles of the management area under its 
jurisdiction.

MPAs and Essential Fish Habitat (EFH).
    The Essential Fish Habitat (EFH) provisions of the 1996 Sustainable 
Fisheries Act directed regional fishery management councils to describe 
and identify EFH in fishery management plans, identify adverse impacts 
on such habitat and take necessary measures to ensure conservation and 
enhancement of such habitat. The North Pacific Council is preparing an 
Environmental Impact Statement (EIS) as part of a comprehensive 
approach to fulfilling the mandate of the new EFH requirements.
    In April 2002, the Council issued a report describing the fishing 
gear used in the fisheries under the Council's jurisdiction as well as 
a description of fishing operations. In addition, the report describes 
the habitat where each fishery occurs and describes existing rules to 
minimize the effects of fishing on the environment. A Council 
stakeholder committee is identifying candidate Habitat Areas of 
Particular Concern (HAPC) within EFH and will recommend to the Council 
such measures as may be necessary to minimize, to the extent 
practicable, adverse effects on essential fish habitat caused by 
fishing.
    In some regions, the focus on EFH might be to restrict fishing in 
HAPC to allow fish populations to rebuild. This has not been the 
emphasis in the North Pacific where the fish stocks are already healthy 
and robust. For example, no Alaska groundfish stocks are overfished or 
approaching overfished status, according to NOAA Fisheries' most recent 
annual report to Congress. Environmental conditions have resulted in 
low abundance of some crab stocks, but harvests have been significantly 
scaled back, or fisheries closed, to allow stock rebuilding until more 
favorable environmental conditions return. Efforts by the North Pacific 
Council to implement EFH requirements are focused more on identifying 
HAPC and, if necessary, developing mitigation measures to protect 
sensitive habitat areas from adverse impacts of fishing. This is a 
difficult and time-consuming task, and the Council is allocating 
substantial resources to a multi-year project that could result in a 
significant expansion of MPAs in the North Pacific.
    We urge Congress, Federal agencies and Federal advisory panels that 
are engaged in developing MPA definitions and articulating policy 
objectives and goals to recognize that existing law already provides 
regional councils ample authority to impose MPAs when circumstances 
warrant such action. Moreover, the North Pacific Council has exercised 
this authority numerous times, including dedicating substantial staff 
time and funding to meet its responsibilities under EFH. We recommend 
that any new MPA initiatives to achieve conservation and management 
objectives be promoted within the existing fishery management council 
structure. The North Pacific Council has an excellent track record for 
protecting natural resources, and the council process provides 
stakeholders with maximum opportunity to participate in the decision 
making process.

MPAs and Marine Reserves.
    While ill defined at present, MPAs should not be confused with no-
take marine reserves, which have been proposed by some as a way of 
increasing productivity and overall catch levels. The science regarding 
the efficacy of marine reserves to increase long-term fishery 
productivity is incomplete and inconclusive. In the case of pollock, 
for example, the principal species fished by APA catcher/processors, 
there is no evidence to suggest that marine reserves would be effective 
for enhancing catches. Pollock stocks are currently approaching 
historically high levels of abundance. NOAA Fisheries' scientists 
estimate that the spawning biomass of Bering Sea pollock is 
approximately 11 million metric tons, roughly 2.4 billion pounds of 
adult fish.
    Pollock stock abundance is a function, in part, of how much 
phytoplankton and zooplankton is available as food, and the 
availability of plankton is determined by environmental conditions that 
are unrelated to fishing (e.g. water temperature, wind direction, ocean 
currents, etc.). A second key factor in pollock abundance is predation, 
including predation on juvenile pollock by cannibalistic, adult 
pollock.
    Fishery managers have also adopted a precautionary approach to 
fisheries management by employing conservative harvest levels. In fact, 
in 2002 the total allowable catch level of Bering Sea pollock is only 
two-thirds of the catch limit that is biologically acceptable. In 
addition, the Council has developed an effective harvest monitoring and 
enforcement regime that includes requirements for comprehensive Federal 
fishery observer coverage on vessels, weighing of all catch on 
certified scales, electronic catch reporting and use of Vessel 
Monitoring System (VMS) technology.
    Pollock is also a pelagic, not sedentary, species. Pollock spawn in 
the open ocean waters, are distributed over vast areas of the Bering 
Sea and are highly mobile. And pollock have a relatively short life 
span, reproducing by age 3 and living only until about age 10 or 12. 
Given that pollock abundance is dictated by environmental factors, that 
managers employ risk averse harvest strategies, that fish stocks 
migrate great distances throughout the Bering Sea, and that the species 
is relatively short-lived, marine reserves do not serve as a useful 
management tool for this fishery.

Non-Fishery Management MPAs--A Case Study.
    While the focus of this hearing is on MPAs as a fishery management 
tool, concerns about the lack of a coherent national policy regarding 
existing state, Federal and locally administered MPAs should be noted. 
The situation is exacerbated by the lack of clarity and agreement on 
definitions of MPAs and a lack of articulated goals and objectives. 
Uneasiness about the current state of affairs is heightened as 
disparate agencies respond to E.O. 13158 with far-reaching initiatives 
that are not coordinated, lack adequate stakeholder participation and 
ignore management measures that are already in place.
    One example of a Federal regulatory action that could significantly 
impact the fishing industry is a proposal by the Environmental 
Protection Agency (EPA) that, among other things, would designate 
Special Ocean Sites (SOS). In January 2001 in the final days of the 
Clinton administration, EPA submitted to the Federal Register a final 
rule relating to ocean discharge criteria. The rule was not published 
before the Bush administration came into office, and the rule was 
pulled back for review. However, EPA has informed interested parties 
that it will continue to press for adoption of this measure consistent 
with the executive order on MPAs.
    Under the proposal, EPA, or any petitioning party can seek to 
designate an area as a Special Ocean Site. The draft rule states that 
an SOS would be an area of ``outstanding ecological, environmental, 
recreational, scientific or esthetic value'' and could include any area 
``designated under the Endangered Species Act as providing critical 
habitat for threatened or endangered species.'' The draft further 
reads, ``If these areas are already designated for protection under 
other authorities, EPA believes that SOS status may also be appropriate 
as an additional level of protection (emphasis added) if needed.''
    More than 100 trawl, longline and pot at-sea processing vessels 
fish in the Bering Sea/Aleutian Islands management area under a 
National Pollutant Discharge Elimination System (NPDES) general permit 
issued by EPA under Section 402 of the Clean Water Act. EPA's new 
proposal under E.O. 13158 ``would prohibit any new permits for 
discharge at the site, as well as prohibit the significant expansion of 
existing discharges.''
    This proposal raises numerous concerns. One concern is the 
potentially broad designation of SOS areas. The rule indicates that a 
critical habitat designation could be the basis for an SOS designation. 
In the Bering Sea/Aleutian Islands and Gulf of Alaska management areas, 
critical habitat for endangered Steller sea lions encompasses tens of 
thousands of square miles of ocean waters. Fishing is permitted in some 
but not all sea lion critical habitat as scientists recognize that some 
portions of critical habitat (e.g. those closer to rookeries and 
haulouts) are more important to the animals than other areas farther 
from shore. An overlapping SOS designation with associated restrictions 
on vessel operations (i.e. ocean discharges) could severely impact the 
at-sea processing sector.
    EPA did not consult with either the North Pacific Council or the 
fishing industry in developing this proposal, although I understand 
that NOAA Fisheries was consulted. This is just one example of a 
proposed Federal action under E.O. 13158 that could greatly impact the 
fishing industry. There are likely others.
    The fishing industry agrees with those calling for a comprehensive 
review--an inventory--of existing MPAs. The purpose for creating and 
maintaining MPA status for protected areas should be reviewed and the 
effectiveness of MPAs in achieving the original goals and objectives 
should be evaluated. Within the context of that review, definitions and 
policy objectives must be clearly defined. Federal agencies should 
suspend new initiatives until it is clearly understood what MPAs are 
and should be and the efficacy of the current program has been 
evaluated. To the extent that such initiatives continue to move forward 
and affect fishing activities, Federal agencies should work 
collaboratively with regional fishery management councils to coordinate 
actions and to promote stakeholder involvement from the fishing 
community.
Summary and Recommendations.
    <bullet> Any definition of MPAs should be broad enough to include 
fishery management actions that close an area permanently or seasonally 
and/or restrict the use of a certain type or types of fishing gear for 
purposes of achieving conservation and management objectives.
    <bullet> We do not believe that a percentage-based goal, such as 
designating 20% of a management area as an MPA, is appropriate or 
useful, but if Congress or Federal agencies set such an arbitrary goal, 
calculations should not be based solely on no take designations but on 
the vast areas already designated as MPAs for fishery management 
purposes or to achieve other conservation goals.
    <bullet> Regional fishery management councils and stakeholders are 
working diligently to implement far-reaching EFH requirements of the 
Sustainable Fisheries Act. Regional councils and NOAA Fisheries are 
identifying EFH and HAPC and evaluating the impacts of fishing on such 
areas. Where necessary, mitigation measures will be proposed, affecting 
fishermen. The fishing community is deeply involved in this process and 
will find it difficult to commit resources to monitoring other Federal 
MPA initiatives that could substantially affect their livelihoods.
    <bullet> Federal MPA activities affecting fisheries should be put 
on hold until MPAs are properly defined and goals and objectives are 
identified. However, if other MPA initiatives are forthcoming, those 
that affect fishing should be considered in close consultation with 
regional fishery management councils and the fishing community.
    <bullet> Half of all fish and shellfish landings in the U.S. come 
from Federal and state waters off Alaska. The North Pacific fishing 
community should be adequately represented on NOAA's MPA Advisory 
Committee established under E.O. 13158.
    That concludes my testimony, Mr. Chairman. I am pleased to answer 
any questions that Members of the Subcommittee might have. Thank you, 
again, for the opportunity to testify.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Gilmore.
    Mr. Davis?

   STATEMENT OF GERRY DAVIS, GUAM DEPARTMENT OF AGRICULTURE, 
    ACTING CHIEF, DIVISION OF AQUATIC AND WILDLIFE RESOURCES

    Mr. Davis. Chairman Gilchrest, Ranking Member Mr. 
Underwood, it is an honor and a privilege to be here with you 
today to talk about the MPA issue, and I thank you very much 
for this opportunity.
    I am waiting here for a few minutes to try to get a 
PowerPoint projector up on the wall here, and hopefully, that 
will enable me to better describe what Guam has done on this 
issue, which I think is the best way for me to try to address 
the region's issues on MPAs.
    I do not know whether you can see that from up there or 
not--
    Mr. Gilchrest. We are getting ready to use our technical 
skill to reduce the amount of light in the room.
    [Laughter.]
    Mr. Gilchrest. We have got a good man doing it, though. 
Keep going, Kevin. We should have it like that all the time. 
That is perfect. I think that is perfect. Thanks.
    Mr. Underwood. Very good.
    Mr. Davis. Just to make sure we are all talking about the 
same part of the world that I am, we have to take a step about 
halfway around the globe from here to get around to the 13 
degree mark above the equator where Guam is located. If you 
look in the upper part of your screen there, the Northern 
Marianas Islands, U.S., and Guam are located there. And I think 
it is real critical in reviewing the MPA issue to realize that 
you are going to have to look at MPAs on a site-by-site basis, 
just because they all have very different applications, and 
that word has very different meanings to different people in 
different places.
    The MPAs that I am talking about for Guam are no-take 
areas, and we went through a pretty extensive process that I 
would kind of like to outline to you today just to try and 
emphasize why we think these areas are critical to the long-
term future at least in the islands.
    Guam is a tourist destination, and the bulk of our economy 
is driven by this. As you can see from this, we have only got a 
very small reef area of 69 kilometers. But it is valued at 
about $143 billion, and that is largely because of the 
protections it provides for that industry and also the many 
resources that it provides to the community there.
    There is not much that you can do on an island that is not 
related to the reef. I mean, what you do on land today is in 
the ocean tomorrow. It is only 32 miles long and 10 miles wide 
at its widest place, so it is not a very big place. It is a 
large ocean.
    The other thing is I cannot advocate enough how critical 
that is to our economy there. If you look at something simple 
as the industry of diving, Guam certifies more divers than any 
other place in the world except the U.S., and for a little tiny 
rock like that, that is a pretty significant income. Without a 
healthy reef, this industry goes away. So MPAs represent our 
economic future.
    In addition to that, fishing and the use of those resources 
is heavily interwoven into the cultural and social fabric of 
the island, and it is something that often is overlooked in 
this process. I mean, if you think about the value of a father 
and his son out there fishing, it is often something you do not 
put a dollar value on. But if you trade that for somebody 
watching a TV, I think you are losing. And so, there are things 
like that that I think provide tremendous value to a culture 
and to a community that often get overlooked in this process 
that we need to get a better handle on evaluating.
    Now to the hard part: many of us in the islands have seen 
this happen in places that have gone through urban development, 
and this diagram up there basically shows you that we are 
having a stock decline problem on Guam. Please note that it 
interfaces both the effort and the catch statistics, and this 
is something that my office has spent a great deal of money and 
time doing over the years, and it has also been the foundation 
for where the MPAs need came from.
    Fifteen years ago, we were catching 70 percent more fish 
than we are now. The effort has only continued to increase 
there from a fishing standpoint, and the stocks continue to 
decline. It is not only a fishing issue.
    One of the things my office also has done is spent a great 
deal of time trying to deal with this issue of size over 
fishing, and it is a concept that much of the public does not 
really take the time to understand. The two fish you see before 
you are things that are highly prized on Guam as consumptive 
food items. The upper left is a five-inch female Goatfish, and 
the lower is a 10-inch female Goatfish. Like it or not, guys, 
it is only the females that count in this industry, because 
that is where all of the eggs come from, and that is always the 
way it is going to be.
    Most people in the public tend to think if you have got two 
of the top ones, you come out equal to having the one on the 
bottom. It does not work like that at all. The top one produces 
about 1,000 eggs once per year, and that is as much as you are 
going to get from that guy--or girl. The bottom one produces 
about 25,000 eggs and can spawn four to five times a year. And 
so, when you start looking at it graphically, this is the 
picture you are really looking at.
    As a manager, I have always struggled with the idea of 
saying to the fisherman throw the big one back, because that is 
the one he wants to catch. But that is really the one you have 
got to save, because if you have got to determine how many eggs 
you want to keep in the pocket, you have got to come up with a 
number of either dealing with all of the small ones or dealing 
with the one big one. And that is where the concept of the MPAs 
works very well.
    I also mentioned that it is not just a fishing issue. All 
right, yes, the stocks are down, but like I told you, what you 
do on land today ends up in the ocean tomorrow. Guam has been 
fraught with problems with sedimentation, herbicides, 
pesticides, petroleum products that all end up in our coastal 
areas very quickly. The science behind the impacts of these has 
also only become known recently, just because the reproductive 
process of many of the fauna that exist on Guam were not well 
known until the last few years.
    If you are not working on every piece of this puzzle and 
trying to fix the problem, you are going to fail. And that is 
one of the things that it is very important for fishermen to 
hear is that it is not just them that is causing the problem. 
This just kind of graphically illustrates some of the 
challenges that we have. The upper left is a storm drain that 
comes off one of our roads in the coastal area that is dumping 
a lot of sediment, petroleum products in the run-off and other 
herbicides and pesticides that is causing large-scale habitat 
loss.
    The center picture is actually habitat loss due to Jet Ski 
use. As I told you, we get a million plus tourists there a 
year, and they want to do recreational things. They come there 
for clean water, warm climate and beautiful beaches, and they 
want to do things in the water. And so, naturally, we have a 
lot of things that attract them to using the areas. Well, those 
new uses have impacts. The idea that tourism is a clean 
industry is not something that we all accept, and anytime you 
bring a million people someplace, they create sewage. They need 
food. They are going to create human impacts on the reef. These 
are all things that need to be addressed in changing the way we 
manage those systems. Jet Skis have their place, but when you 
put them in shallow places, they cause large-scale loss to that 
habitat.
    The area to the right was an area that was buried by 
sediment nearly 10 years ago. As you notice, there are no fish 
in that picture; there is nothing growing there. Recovery is 
slow. Prevention is always the best way to go.
    The far left is a beach that is supposed to be a place 
where tourists want to go to, but you can see that there is a 
lot of storm debris there, and that is not a pretty sight. It 
is not someplace that someone is likely to come back to. It is 
something you have to address.
    The middle picture is a disaster. This is a sewage outfall. 
Federal sewage laws in terms of where those outfalls occur do 
not work for Guam. Sixty feet of water on a coastal plate is 
miles offshore. In Guam, you can throw a rock to it. This is a 
classic example of where local law has got to have a different 
set of rules.
    The far right is a classic example of what people target 
there as a fishery. When we went through a huge economic boom 
in the mideighties, the use of subsistence resources quickly 
changed to commercial use. It has been shown in many places 
around the world that commercial fisheries do not survive long 
on coral reefs. Those fish are pretty hard to find these days.
    We went through a 14 and a half year process, seven 
hearings, thousands of testimonies, and I wish that I could 
step back in time and have started that process over again, 
because if there was nothing more important learned in that 
process, it has to be transparency and public inclusion, 
because I was the one that took the responsibility of 
overseeing those hearings, and I can tell you that the first 
set of hearings that we had was nothing short of a disaster. I 
became the biggest target on the island and was public enemy 
No. 1.
    But it taught me that I was wrong, because it was my plan 
and not theirs. And so, we took a big step backwards; went 
through a huge educational process; and ended up with something 
that I think was generally publicly accepted. There were 
thousands of testimonies; it was 90 percent against in the 
beginning and 90 percent in favor in the end. I think the basic 
issues were public distrust in the beginning; public 
education--we had not done a very good job of providing the 
data that we had collected over the years. Public involvement 
was nonexistent, and it took 14 and a half years to get 
majority acceptance.
    What are we talking about? Guam has set aside 28 percent of 
its coastal areas--that is more than anyplace else in the U.S., 
and it is the only place that presently lives up to the U.S. 
Coral Reef Action Plan of setting aside 20 percent of coastal 
coral reef areas by the year of 2010. When we proposed setting 
up these areas, there were actually nine areas on the table, 
five of them permanent, four of them rotating. Through the 
process, what basically happened was the fishermen accepted 
that the permanent areas were needed, and we did not need the 
rotating ones because we convinced them that we were in dire 
straits and needed to do something. The rotating areas were 
basically for their education, because it is the large fish we 
were missing.
    I would support what some of my colleagues have said that 
you must make sure your objectives are clear and your goals are 
understood. In Guam's case, it was to restore the resource and 
get the big fish back into the populations.
    These are two examples of places that are protected on 
Guam. The one in the top is a village setting, not much 
development, and the way this works is they basically get a 
recovered fishery. They get big fish back in the system; things 
that come out of the preserve, they can catch, and definitely, 
increases in recruitment.
    The lower one is right in the heart of our tourism 
district, and this is something that is going to sell itself. 
We have an area there, and I will let you see for yourself, 
that has really been enforced for only about 2 years that was 
known for an area that did not have fish. And I think that has 
changed quite a bit. I will let you decide for yourself what 
you think. This was an area that a one-time swim with a video 
camera captured. It was not a set-up thing. You could go there 
any day and see this kind of thing. This was an area that 
pretty much did not have fish, and the target behind the MPAs 
was to get food fish back in the system, the big guys.
    A lot of the fish you are seeing here are fish that are 
highly prized in a consumptive arena, and that is a big part of 
being able to give something back to them. The deliverables 
must be well-defined, and so, this is part of that process. We 
had data before, and we have data after. And I think generally 
or at least right now, we are on target for delivering what it 
is we told them we were going to do.
    For Guam and for most of the coral reef areas, I think 
there have been quite a few recent works that are showing this 
is a successful way to manage coral reef systems. The typical 
size restrictions or area restrictions do not work real well 
there just because like on Guam, we have 1,000 species of fish 
and over 300 that we harvest there for consumptive purposes. We 
would have to have a different size for each one. You would 
have to go get a Ph.D. to be able to do that. You would be 
counting cheek scales and fin rays to know what you are allowed 
to catch.
    That is a disaster from an enforcement standpoint, let 
alone from a fisherman's standpoint. Education and enforcement 
are the keys. There was a tremendous amount of distrust at the 
public level of whether the Government of Guam could even 
enforce these areas. And a lot of that depends on the eyes and 
ears of the public to say this is something wrong. So if it is 
not a bottom-up approach, it is not going to work, because I 
depend on those people to call and say there is somebody doing 
something wrong.
    There are lots of other places in the world that have 
longstanding traditions, hundreds of years if not thousands, of 
doing these types of things, and they were community-based. I 
think it is time that the U.S. adopt some of what other parts 
of the world have known for a long time: community-based, 
grassroots approaches to conservation are a very effective way 
to go with things. You must enlist the public early, and that 
was the lesson I learned if nothing else. Deliverables must be 
well-defined. Your goals must be clearly outlined, and if they 
do not work, then, you have got to retool what you are doing.
    If an MPA does not work, then, close it and do something 
else.
    Cultural and socioeconomics need more attention in this 
process. The valuation process for these things gets overlooked 
in every permit that I have ever been involved with, and I 
think that is a tremendous part of the culture and social 
aspects that are being lost. And if we do not do something to 
preserve the resource, you are going to lose that aspect.
    That pretty much concludes my presentation. If you have 
questions, I would be more than happy to answer at this time.
    [The prepared statement of Mr. Davis follows:]

  Statement of Gerry W. Davis, Guam Division of Aquatic and Wildlife 
                               Resources

    Good morning. I am Gerry Davis, Chief of the Guam Division of 
Aquatic and Wildlife Resources. It is a pleasure to speak before you 
today regarding marine protected areas and to report on Guam's 
activities to implement this concept as a management tool.
    Guam is a U.S. Territory in the tropical Western Pacific. Guam is 
the largest and most Southern most island of the Marianas Archipelago. 
Guam is roughly 212 square miles in size and located 13 degrees north 
of the equator. Guam is a volcanic island surrounded by fringing coral 
reefs. These lush reef ecosystems have provided the social and cultural 
fabric through Guam's history. Over 300 species of hard coral, over 
1000 species of fish and several thousand invertebrates are common to 
Guam's waters.
    Guam continues to depend extensively on coral reefs to provide 
food, social and cultural values and more recently the main attractant 
for tourism. Guam sees more than a million tourists annually looking 
for a warm climate and clear water and white sand beaches.
    A little over 15 years ago Guam's fisheries resources began to show 
signs of collapse. Catches dropped while fishing activity continued to 
increase. A flourishing economy put additional pressure on the coastal 
resource that were historically only used for subsistence. Present 
catches are 70% less than just 15 years ago and this is a stock based 
decline. The decline is attributed to overfishing but also extensive 
habitat loss from poor land management practices causing sedimentation 
and the introduction of toxic chemical to the coastal waters.
    The Government began looking for tools to aid and protect these 
valuable resources. The traditional tools used for managing fishery 
resources in the U.S. were reviewed but not practical for Guam. Using 
size limits with so many species and many types which are very similar 
in appearance would be difficult for the public and near impossible for 
enforcement. Regulating gear types would result in the usual special 
interest user group objection in trying to get laws in place. Seasonal 
closures for species posed many enforcement complication the were seen 
to be difficult to overcome. In the end a comprehensive package 
improving language of existing laws coupled with a proposal to 
establish 5 permanent marine protected areas and 4 rotating marine 
protected areas was proposed. Guam law requires a public hearing be 
held before regulations can be submitted to the legislature. Due the 
importance of the fishing on Guam, it was decided to hold three 
hearings spread out within the island. The first set of hearings were 
emotional, heated at times and stirred up the community. It forced the 
regulatory agency to step back and realize that if this effort was 
going to work, the public had to be given a chance to see and 
understand the information about the status of the resource and the 
options available to try if fix some of the problems.
    There were a number of issues that are critical to having 
successful marine protected area on coral reefs in the islands that 
must be considered. Islanders think of coral reefs as sources of food 
and play a significant role in social and cultural issue. These issues 
must be imbedded in the mission of the preserves from beginning or they 
will not work. The goals must be clear, measurable and deliverable. The 
public must be engaged from the beginning. There must be well thought 
out criteria in selecting areas or enforcement and public understanding 
will be impossible. Guam also had a large advantage in have very good 
stock and harvest data that tracked the decline in the resource and 
also was able to demonstrate the size overfishing impact on the 
resource. This became a major goal, to restore the large animals in the 
populations because they were the major egg producers.
    In May of 1997 Guam passed into law 5 no-take marine protected 
areas. It took years before enforcement protocols could be resolved. 
The preserve areas have been fully enforced now for two years and are 
show the expected increases in biomass both in numbers and size. In 
time, marine fauna egg production should be restored to the point that 
Guam's reefs are capable of recovering. This effort protects 28% of 
Guam's coral reefs and made Guam the only U.S. area to have reached the 
protection of 20% of our U.S. coral reef areas by the year 2010 
established in the Coral Reef National Action Plan.
    Guam's effort took 14.5 years, seven hearing, many meetings with 
fishermen, businesses before progress in getting a plan that the 
majority of the people could support. Thousands of testimonies were 
given and the proposal took on many changes based on public input. The 
nine (9) proposed areas was reduced to the five (5) permanent areas and 
a village ask that one area that had be proposed to be rotating be made 
permanent.
    Given what Guam has experienced the following are critical to the 
Marine Preserve Area issue.
    1. Research is showing that Marine Protected areas are appear to 
be working on Guam and have worked in other areas.
    2. Marine Preserve Area establishment must be a bottom up approach 
and include the public early.
    3. Having good baseline data goes a long way in helping the public 
understand and continued monitoring has to be part of any plan. If it 
not working than the management approach must be changed.
    4. Cultural and Social aspect of preserves need to be give much 
more attention in future efforts.
    That concludes my testimony. Thank you for the opportunity to 
testify. I will be pleased to respond to any questions that you might 
ask.
                                 ______
                                 
    [A statement submitted for the record by Mr. Davis 
follows:]

    Prepared by Gerry Davis, Guam Division of Aquatic and Wildlife 
                               Resources

Guam MPA Goals and Objectives
    <bullet> To restore and sustain depleted coastal resources, 
focusing especially on food resources.
    <bullet> To develop community understanding and partnerships in 
managing coastal resources.
    <bullet> To maximize the benefits
Background
    Guam is the most Southern island in the Marianas Archipelago. Guam 
is 212 square miles in area and located 13 degrees north of the equator 
in the Western Pacific. Guam hosts lush fringing coral reefs consisting 
over of a thousand species of fish, over 300 stony coral species and 
thousands of other invertebrate species.
    In the mid-1980's, this small unincorporated U.S. Territory 
experienced a significant economic boom that placed tremendous 
additional pressure on the coral reef ecosystem. We began to see more 
than a million tourists annually. Guam experienced large scale 
development focused on tourism. Guam began to experience increased 
problems with sedimentation, herbicides, pesticides, storm water 
discharges and recreational user conflicts. Utilities failed to keep up 
with the growth, causing regular power outages and sewage treatment 
exceeding capacity. The demand for food to feed the growing tourism 
industry went haywire and traditional and subsistence fisheries quickly 
became commercial to meet this demand. Coastal fishery stocks were 
exhausted quickly and catch per unit of effort plummeted. Habitat loss, 
overfishing and size overfishing were destroying the health of the 
coastal environment.
    In 1986, the Division of Aquatic and Wildlife Resources determined 
that fish stocks were beginning to show signs of decline. Over a 15 
year period there had been a 70% decline in harvest and catch per unit 
of effort (CPUE) values. The decision was made that actions were needed 
to stop the declines of the coral reef fishery and begin restoration. 
An evaluation of practical approaches was made and it was determined 
that regulation of fisheries and attention to restoring water quality 
were two primary threats that needed priority treatment. After 
evaluating potential fishery management tools a study was conducted to 
identify suitable sites to establish marine preserves. The study looked 
at 60 sites and targeted setting aside 20% of Guam's shoreline and 
adjacent reef area with a final goal of protecting 10% the shoreline 
and adjacent reef protected. The results of this study were based on 
criteria that included habitat diversity, species richness, usership, 
enforceability, cultural practices and economic benefit. Nine areas 
were selected, 5 permanent sites and 4 rotating areas (2 open for two 
years and two closed for two years and then rotated) In 1987, a was put 
forward but was not well received within the Agency. The predominate 
conflict, was the inclusion of a ban on SCUBA spearfishing. It took 
four years to fine tune this document and the removal of the ban on 
SCUBA spearfishing before the proposal was administratively approved. 
The proposal was circulated among various Government agencies for 
general comment. There were considerable comments from the other 
agencies and this caused significant changes to the proposal. The 
agencies included in the review were: Guam Visitors Bureau, Guam 
Environmental Protection Agency, Guam Department of Public Works, Guam 
Bureau of Planning, Guam Department of Land Management and the Guam 
Port Authority. The proposal included several key changes. A huge 
definition section to eliminate uncertainty, greater regulation on 
commercial fishing, proposed marine fishing licenses, limitations on 
imports and exports of aquatic species, 5 proposed permanent marine 
preserves, 4 rotating marine preserves, greater regulation of 
invertebrates and a freshwater fishing license.
    In December of 1993, three public hearings were held; one North 
(Dededo), one Central (Agana), one South (Merizo). The hearings were 
well attended at Merizo and Agana. Public notice was poor prior to the 
first hearing and the Dededo hearing was therefore poorly attended. 
There was a lot of hostility and opposition presented toward licensing, 
preserves, and the regulation of imports and exports. There were 1031 
testimonies (written or oral) of which 971 were against and 60 in favor 
of the proposal. Out of the 971 nay sayers, 650 of these were the 
result of a fisherman opposed group call ``Inekton Y Pescadores''. 
These testimonies were reviewed and incorporated into a new draft. Each 
of the individuals who opposed the proposal was contacted and their 
issues were discussed to determine is there was a solution to their 
concerns. Several meetings were held with the leaders and membership of 
``Ineketon Y Pescadores''. In many cases the fishermen did not believe 
the decline data and a number of them challenged the data. After 
considerable revision and community contact, the hearing process was 
restarted. The new package removed licensing, removed regulation of 
imports and exports and reduced the number of preserves back to 5 
permanent sites. This changes to the preserve areas proposed were 
largely due to an agreement with the fisherman group to drop the 
rotating areas because the accepted the decline data an the marine 
preserve concept. In July of 1995 a second round of three hearings was 
held. During this process one community asked that a temporary preserve 
that was removed be made into a permanent preserve (Achang Marine 
Preserve in Merizo). This effort was well received. The comments were 
reviewed, appropriate changes made to the proposal and the proposal 
submitted to the legislature. At the legislature, a number of changes 
were made: One preserve was removed (Anae Island), the freshwater 
fishing license was rewritten to apply only to ``non-resident aliens'', 
and the existing misdemeanor penalty law was rewritten to allow the 
Department to create their on penalty structure. In rewriting the 
penalty section the severability section was removed. Although flawed, 
this document became Public Law 24-21. The Governor signed Public Law 
24-21 in May of 1997. A legal opinion was rendered that made parts of 
the proposal unconstitutional and others severely flawed. Again the 
Agency went through the triple A process and held a hearing proposed to 
correct these flaws. In January of 2000 the fishing regulation package 
became fully enforceable after 14 years.
    There is attached addendum that provides more of the specifics on 
the fishery statistics that was used to justify the establishment of 
the marine preserves.
Lesson Learned
    1. The community needs to be part of the plan in establishing 
Marine Preserves.
    2. Be sure to have sound baseline data and well developed 
monitoring plans that preferable include the public.
    3. Marine Preserves must be well defined, well enforced and goals 
and objectives clearly understood.

Recommendations
    1. Marine protected areas work in place with stocks that have been 
depleted and species that are not highly migratory. Federal programs 
should encourage and fund the development of such systems within state 
jurisdictions.
    2. There is still no clear law that protects coral reefs 
Federally. There are many laws which are used to attempt to do this but 
this is a piece meal approach to the issue.
    3. Loss of established protected areas can be critical to the long 
term recovery of ecosystems. There needs to be a programs that provides 
funding to address short and long terms negative impacts to these 
declared critical resources.
    4. Deliverable must be simple, closely monitored and reported to 
the public.
    5. Cultural and Socio-economic components of marine preserve have 
been severely unaddressed in many cases and this needs attention.
    6. The no-take issue needs to focus on biological sustainability 
and be sensitive to cultural and traditional uses.
    7. The term MPAs needs to imply some type of significant resource 
protection and management at the sustainable level. A stricter 
definition would be acceptable but nothing less.

November of 1991

JUSTIFICATION FOR PROPOSED AMENDMENTS TO THE FISHING REGULATIONS
    The following document addresses the sequence of events and 
justifications for the proposal to modify the Department of 
Agriculture's fishing regulations. The following information has been 
provided for reference:

BACKGROUND
    The Department of Agriculture, Division of Aquatic and Wildlife 
(DAWR) is delegated the responsibility to control and regulate fish and 
game in and about Guam under Title 5, Guam Code Annotated (GCA) in 
Section 63102.
    Guam has gone through a rapid economic growth over the last 10 
years and this has had a significant impact on the health and use of 
Guam's marine resources. Historically our coastal marine resources were 
used primarily for subsistence fishing and has always been an important 
part of the social fabric. Westernization has steadily shifted the use 
of these resources toward recreational and commercial activities. These 
changes coupled with a growing tourism industry, diversified water 
recreation. This resulted in many new coastal users and many new 
coastal environmental impacts. The end result of these increased user 
was user conflicts between fishermen and swimmers, divers, boaters, jet 
skiers, windsurfers, etc. The economy also made it possible for more 
residents to afford boats, making access possible to more remote, 
seldom utilized coastal areas. Fishing itself also changed through the 
introduction of modern rods and reels, more powerful spear guns, the 
use of SCUBA gear, the use of monofilament nets and underwater 
flashlights. Increases in population and diverse ethnic groups also 
changed the levels and types of pressures on these resources. Finally, 
poor land management practices degraded water quality all around Guam, 
negatively effecting the health of the coral reef habitat and 
interfering with reproduction processes. Wildland fires, poor erosion 
control plans for proposed developments, extended droughts, storm 
drainage, pollution and storm surge all have caused significant habitat 
loss in recent years and pose greater risks for the future. All of 
these factors have increased the pressure on the fragile marine 
resources surrounding Guam and justify the need to take some proactive 
measure to protect and restore the coastal natural resources.
    DAWR has been monitoring the fisheries resources around Guam for 
over 20 years and has recently determined that the near shore fish 
resources are presently showing trends of rapid decline. Table 1 shows 
total harvest by method per year for the nearshore fishery during the 
years from 1986-91: Table 2 shows the top ten families of fish 
harvested over the same period and Table 3 the total harvest (lbs.) by 
fishing method over the same period. This time period from 1986 to 1991 
was selected because the data gathering methodology was changed in 1986 
to include night surveys. For this reason a shorter data set had to be 
utilized. The information presented represents shoreline fishing and 
excludes fishing from a boat, but method trends in the reef boat based 
fisheries are similar. This information is also based on an expansion 
of samples and therefore is limited in its application to looking at 
trends.

Total Harvest by method
    The total harvest by method values present in Table 1, show 
declines across the 6 year time period in all categories. Logic would 
tell you that this is likely to be a stock decline because you would 
not expect all fishermen in all group to suddenly be less able to catch 
fish. This is an important first step defining a potential resource 
depletion and potential stock management need.

Top Ten Families Caught.
    The top ten families of fish caught as presented in Table 2, merely 
identifies those families that account for the top ten ranking fish 
families by pounds harvested. Of the families identified, the 
surgeonfish family always accounts each year for the number one group 
in total pounds harvested. This is true primarily because it represents 
a large number of types of fish, many of which are important food fish 
(unicornfish, surgeonfish, tangs, etc.). The other families on this 
list which always make the top ten and are the goatfish, rabbitfish, 
jacks and emperors. Lastly, there are a couple groups which would 
either always appear higher on the list or which are not presently on 
the list but would have been there before. These groups are the 
parrotfish and wrasses. Notice that in each case there has been a 
significant decline in harvest. The top ten families of fish harvested 
annually from Guam's waters make up 70% or more of the total harvest 
and often exceeds 80%. True, there are some categories that do not show 
as marked a decline as these but the trend of decline is consistent 
throughout. Remembering that these are the key groups, the data 
presented shows a 60 to over a 80% reduction in some of the top ten 
families and these are the most highly prized and traditionally caught 
fish types. Decline in harvest of key species and shifts in species 
composition are a second piece of a puzzle that indicates a warning 
requiring more information.

Total Harvest (lb.) by Method by Fiscal Year
    Table 3 three shows steady significant declines in CPUE. This is 
the critical and final piece to the puzzle showing stock decline and 
potential collapse for some species. In addition to harvest, it is 
important that fishing effort be analyzed because if less fish is being 
caught it could merely mean that less people are fishing or less time 
is being spent fishing. If less people fish then there should be more 
fish to catch by less people. This would mean that the catch rate would 
be high, but in fact the catch rate is also declining. These facts all 
together indicate that the marine fishery resources have been hurt, but 
this does not determine how.
    Provided is a copy of a Division of Aquatic and Wildlife Resources 
(DAWR) Annual Report about the yellowstripe goatfish (Tiao' or 
Somonette). This report gathers the information that would be needed to 
manage this fish if necessary. In the process of gathering data it 
became obvious that Guam's population of yellowstriped goatfish are in 
trouble. A general problem in managing reef fisheries is not 
understanding how these resources sustain themselves. Many marine 
creatures, fish, corals, starfish, etc, release their eggs and sperm 
into the water to be fertilized. Once fertilized, the gametes go to the 
open sea at the mercy of the currents. After an extended period of 
time, for fish 30 to 60 days, provided currents, temperatures, and food 
were all acceptable, the young swimming larvae will return to Guam. 
Because of this phenomenon many forms of marine life rely on producing 
large numbers of gametes in hopes that sufficient numbers will survive 
to return. With respect to the production of gametes, this process is 
most dependant on the female population of the species. A few males can 
produce enough sperm to fertilize many females. Females on the other 
hand are limited by the number of eggs they can produce. The 
yellowstripe goatfish provides a good example of the importance of a 
healthy female population. A six inch female yellowstripe goatfish is 
just old enough to be mature and can produce about half a million eggs 
at one time. Because it is young and exerting a lot of energy into 
growth it probably will not produce eggs more than once a year. On the 
other hand a 12 inch yellowstripe goatfish would be considered a large 
old adult. Many people would look at the size and expect that this fish 
would produce twice as much as the six inch fish. Much to the surprise 
of many the large fish would produce 45.5 million eggs nearly 90 times 
more eggs. In addition, this fish could spawn several times during a 
year producing hundreds of times more eggs. If you review the report 
provided on the yellowstripe goatfish it paints and ugly picture. This 
fish has lost 95% of it ability to produce eggs for Guam. This is 
because there are very few big fish in the fishery. More than 60% of 
the reproductive potential and up to as much as 85% is vested in the 
larger fish. This explains why the tiao' (recruiting yellowstripe 
goatfish) runs are no longer like they were. This is one example of 
many and they all point to finding a way to preserve resources without 
losing the culture, food source and recreation.
    Before any misunderstandings develops, it is important to remember 
that no one group or event is being blamed for the decline of fish 
around Guam. Also, if efforts are taken now there is no reason why 
these resources can not be restored to be what they once where. 
Management is a word which often is thought of as a bad thing because 
immediately it is associated with taking something away from the 
public. The true meaning of this word is ``wise use of resources''. The 
data gathered indicates some significant declines in fish resources. 
During the hearings, some fishermen questioned this information and 
there are two important considerations which should be presented: Most 
of the fishermen that expressed this concern based there doubt on their 
continued ability to catch fish. We certainly agree that it is still 
possible to have a good catch. The information presented does not 
contradict this either, but what is does show is that you can not 
consistently catch as much or as big a fish on average in the same 
amount of time as fishermen did just 8 years ago. The differences are 
not small, they are significant. Second, common sense would tell you 
that it is a lot less work and headache to do nothing than to go 
through several public hearing and get badgered for changing the 
regulations. We would much prefer to have a healthy resource which does 
not need any regulatory restrictions to protect it. If you observe the 
systems which have been developed in many other Pacific Island 
Countries, their regulations are more restrictive. We are behind the 
times in protecting our marine resources and the proposed changes 
should go a long way in protecting the future of our marine resources.
    The proposal presented attempts to restore what was lost and 
maintain uses of resources. Nobody has been excluded from fishing in a 
traditional way or from catching their favorite fish and this was 
intentional.
    This proposal alone will recover the fishery resources. The 
government and the public must be diligent about restoring water 
quality and dealing with pollution or the coral reef habitat will 
continue to degrade and there will be not place for fish resources to 
recover. In addition, there are statutory laws that need clarification, 
revision and creation to address the many changes in coastal use which 
have occurred recently
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Mr. Davis. I know you 
traveled halfway around the world to give us that presentation, 
and we appreciate it.
    Dr. Warner?

 STATEMENT OF ROBERT WARNER, PROFESSOR, DEPARTMENT OF ECOLOGY, 
 EVOLUTION AND MARINE BIOLOGY, UNIVERSITY OF CALIFORNIA, SANTA 
                            BARBARA

    Dr. Warner. Thank you for the opportunity to speak today, 
and thank you also, Gerry, for traveling 20 hours--that is what 
he said it took him to get here.
    I am in the Department of Ecology, Evolution and Marine 
Biology at UC-Santa Barbara, also home of the National Center 
for Ecological Analysis and Synthesis. I have been a member of 
three working groups over the past 3 years at the National 
Center, NCEAS, as it is called. One of these groups 
concentrated particularly on the science of marine reserves, 
and I would like to describe some of the findings from that 
group today.
    I would like to place my own written testimony into the 
record and also to place into the record a paper about to 
appear in one of the premier peer-reviewed journals published 
by the Ecological Society of America; it contains a summary of 
the working group's findings.
    Mr. Gilchrest. Without objection.
    [The report referred to follows:]



   in press: ecological applications, a peer-reviewed journal of the 
                     ecological society of america

 Plugging a Hole in the Ocean: The Emerging Science of Marine Reserves

     Jane Lubchenco,\1\ Stephen R. Palumbi,\2\ Steven D. Gaines\3\ 
                         and Sandy Andelman\4\
---------------------------------------------------------------------------

    \1\ Department of Zoology, Oregon State University, Corvallis OR 
97331-2914
    \2\ Department of Organismic and Evolutionary Biology, Harvard 
University, Cambridge, MA 02138
    \3\ Department of Ecology, Evolution, and Marine Biology, 
University of California, Santa Barbara, Santa Barbara, CA 93106
    \4\ National Center for Ecological Analysis and Synthesis, Santa 
Barbara, CA 93101
---------------------------------------------------------------------------
    Rapid and radical degradation of the world's oceans is triggering 
increasing calls for more effective approaches to protect, maintain, 
and restore marine ecosystems (Allison et al. 1998; National Research 
Council 1999a, 2000a; Murray et al. 1999, National Center for 
Ecological Analysis and Synthesis 2001). A broad spectrum of land and 
ocean-based activities, coupled with continued growth of the human 
population and migration to coastal areas, is driving unanticipated, 
unprecedented and complex changes in the chemistry (National Research 
Council 2000b; Boesch et al. 2001), physical structure (Lubchenco et 
al. 1995; Watling and Norse 1998) and biology (ibid, Vitousek et al. 
1997; Botsford et al. 1997; National Research Council 1999b; National 
Marine Fisheries Service 1999;FAO 2000; Carlton, 2001; Jackson et al. 
2001) of oceans worldwide. Symptoms of complex and fundamental 
alterations to marine ecosystems abound, including increases in: coral 
bleaching, zones of hypoxic or anoxic water, abrupt changes in species 
composition, habitat degradation, invasive species, harmful algal 
blooms, marine epidemics, mass mortalities, and fisheries collapses 
(Botsford et al. 1997; Vitousek et al. 1997; National Research Council 
1999b, 2000a; Harvell et al. 1999). Fishing practices, coastal 
development, land-based chemical and nutrient pollution, energy 
practices, aquaculture, land use and land transformation, water use and 
shipping practices combine to alter the structure and functioning of 
marine ecosystems globally (Lubchenco et al. 1995). Fundamental 
alterations to ecosystem structure include changes in species 
diversity; population abundance, size structure, sex ratios and 
behavior; habitat structure; trophic dynamics; biogeochemistry; 
biological interactions and more. These changes in turn affect the 
functioning of marine ecosystems and the consequent provision of goods 
and services (Lubchenco et al. 1995; Peterson and Lubchenco 1997). As 
both the value and vulnerability of marine ecosystems become more 
broadly recognized, there is an urgent search for effective mechanisms 
to prevent or reverse widespread declines and to protect, maintain and 
restore ocean ecosystems.
    Fully protected marine reserves are an emerging tool for marine 
conservation and management. Defined as ``areas of the ocean completely 
protected from all extractive activities,'' fully protected marine 
reserves (hereafter, simply ``marine reserves'') have explicit 
prohibitions against fishing and the removal or disturbance of any 
living or non-living marine resource, except as necessary for 
monitoring or research to evaluate reserve effectiveness. Sometimes 
called ``ecological reserves'' or ``no-take areas,'' marine reserves 
are a special class of ``marine protected areas,'' (MPAs). MPAs are 
defined as ``areas of the ocean designated to enhance conservation of 
marine resources.'' The actual level of protection within MPAs varies 
considerably; most allow some extractive activities such as fishing, 
while prohibiting others such as drilling for oil or gas. A third 
definition will complete the set and allow use of the appropriate terms 
throughout this special issue. A ``network of marine reserves'' is ``a 
set of marine reserves within a biogeographic region, connected by 
larval dispersal and juvenile or adult migration.'' (National Research 
Council 2000a; IUCN 1994; National Center for Ecological Analysis and 
Synthesis 2001).
    By protecting geographical areas, including both resident species 
and their biophysical environments, marine reserves offer an ecosystem-
based approach to conservation or fisheries management, which is 
distinct from the traditional focus on single species conservation or 
management (National Research Council 1999a; National Marine Fisheries 
1999). Marine reserves may provide multiple benefits including: 
protection of habitat; conservation of biodiversity; protection or 
enhancement of ecosystem services; recovery of depleted stocks of 
exploited species; export of individuals to fished areas; insurance 
against environmental or management uncertainty; and sites for 
scientific investigation, baseline information, education, recreation, 
and inspiration (Allison et al. 1998; National Research Council 2000a). 
Research is demonstrating that marine reserves are powerful management 
and conservation tools, but they are not a panacea; they cannot 
alleviate all problems, such as pollution, climate change or 
overfishing, that originate outside reserve boundaries. Marine reserves 
are thus emerging as a powerful tool, but one that should be 
complemented by other approaches.
    Despite keen interest on the part of some, but serious skepticism 
by others with respect to the potential of marine reserves to protect 
biodiversity, protect habitats, and restore depleted fisheries, 
concrete information about marine reserves has been fragmentary until 
recently. In 1997, few syntheses of results from the various marine 
reserves around the world existed, modeling studies of marine reserves 
left critical questions unanswered, similarities and differences 
between terrestrial parks and marine reserves were fuzzy, and possible 
conflicts between different goals for marine reserves (e.g., between 
conservation and fishery enhancement) were unresolved. A symposium on 
marine reserves at the 1997 Annual Meetings of the American Association 
for the Advancement of Science, (see Allison et al. 1998) concluded 
that marine reserves appeared to hold substantial promise, but that 
progress in evaluating this potential would require a serious effort at 
analysis, modeling and synthesis.
    As a direct result of that symposium, a Working Group on Marine 
Reserves was convened in 1999 at the National Center for Ecological 
Analysis and Synthesis. The goal of this effort was to advance the 
theory of marine reserve design, synthesize data on the performance of 
existing reserves, and develop tools to apply the new theory to 
practical situations. This Special Issue is one product. The 16 papers 
herein, plus a suite of other contributions, have substantially 
increased our understanding of the role of marine reserves in 
protecting and restoring marine ecosystems, and allowed us to define 
the next stages of implementation of this critical management option. 
In addition to the papers in this volume, see Barber et al. 2000; 
Botsford et al. 2001b; Hastings and Botsford 1999; Palumbi 2000; 
Palumbi and Hedgecock 2001 for other papers from the NCEAS Marine 
Reserves Working Group.
    The papers presented here address three key aspects of marine 
reserve science. The first set of papers (Allison et al. this issue, 
Botsford et al. this issue, Gaines et al., this issue, Gerber et al., 
this issue, Hastings and Botsford, this issue and Largier, this issue) 
examines the theoretical underpinning of reserves, especially the 
relationship between reserve design and fisheries/conservation 
functions. An important advance is the development of models of 
networks of reserves that explore how multiple reserves arrayed along a 
coastline may interact to augment the contributions of individual 
reserves. Both reviews of existing theory and new models show how 
dispersal, reserve configuration, catastrophes, climate variability, 
and fisheries effort interact to influence the value of reserves. A 
common goal of these theoretical efforts is the search for inherent 
compromises between reserves designed to meet fisheries versus 
conservation goals. Surprisingly few compromises have emerged as many 
of the design principles that promote population persistence converge 
on the principles that promote sustainability in fisheries.
    A second set of papers (Carr et al., this issue, Grantham et al., 
this issue, Halpern, this issue, Neigel, this issue, Palumbi, this 
issue, and Shanks et al., this issue) reviews existing data on several 
key ecological and life history features of marine species and 
communities. Data on species-area relationships, dispersal distances, 
genetic structure and larval developmental periods represent timely 
contributions that are used to parameterize marine reserve models and 
to contrast patterns with terrestrial species.
    Finally, the third set of papers (Airame et al., this issue, Leslie 
et al., this issue, Roberts et al., this issue, and Roberts et al., 
this issue) examines the practical application of reserve design 
criteria in real world settings. These contributions focus on lessons 
learned from existing reserves as well as on criteria for the design 
and implementation of marine reserve networks that are ``comprehensive, 
representative and adequate,'' the three goals identified for 
terrestrial conservation efforts (Margules & Pressey 2000). Some 
important examples of the implementation of reserves around the world 
are included and provide insights into the benefits and challenges of 
integrating ecological theory into marine reserve policy. The use of 
mathematical siting algorithms (Possingham et al. 2000; Airame et al., 
this issue; Leslie et al., this issue), coupled with geographic 
information systems, provides an explicit and transparent mechanism for 
identifying spatially explicit maps of alternative reserve network 
scenarios that efficiently represent the full range of biodiversity 
that is characteristic to a region. Such methods provide a level of 
design flexibility that cannot be obtained through exclusively expert-
opinion driven approaches.
    Marine reserve research has benefitted from a large number of 
excellent reviews and collections of papers (for example, Agardy 1994, 
2000; Dayton et al. 1995; McManus 1997; Roberts et al. 1995; Roberts 
and Polunin 1991; Ballantine 1999). The papers published in this 
special issue represent an incremental contribution that brings 
together new theory and syntheses of empirical data to advance 
understanding of the role of marine reserves in protecting and 
restoring marine ecosystems. More importantly, they demonstrate 
unequivocally that marine reserves are a viable and useful management 
tool in a wide variety of different settings.
    Based on the reviews just cited and on the findings reported in 
this issue, a Scientific Consensus Statement on Marine Reserves and 
Marine Protected Areas was written and released at a Symposium entitled 
``The Science of Marine Reserves'' at the 2001 American Association for 
the Advancement of Science. The full statement, its context, statement 
and list of 161 signatories are available from the National Center for 
Ecological Analysis and Synthesis in Santa Barbara, CA, USA (http://
www.nceas.ucsb.edu/Consensus). The core of the statement was a new 
consensus by marine scientists about marine reserves that was endorsed 
by all of the authors of papers in this special issue as well as a 
large number of other scientists with expertise in marine reserves. The 
scientific consensus statement synthesizes the findings reported in 
this issue in language that is useful to scientists and non-scientists 
alike:

THE SCIENTIFIC CONSENSUS
    The first formal marine reserves were established more than two 
decades ago. Recent analyses of the changes occurring within these 
marine reserves allow us to make the following conclusions:
    Ecological effects within reserve boundaries:
    1) Reserves result in long-lasting and often rapid increases in 
the abundance, diversity and productivity of marine organisms.
    2) These changes are due to decreased mortality, decreased habitat 
destruction and to indirect ecosystem effects.
    3) Reserves reduce the probability of extinction for marine 
species resident within them.
    4) Increased reserve size results in increased benefits, but even 
small reserves have positive effects.
    5) Full protection (which usually requires adequate enforcement 
and public involvement) is critical to achieve this full range of 
benefits. Marine protected areas do not provide the same benefits as 
marine reserves.
    Ecological effects outside reserve boundaries:
    1) In the few studies that have examined spillover effects, the 
size and abundance of exploited species increase in areas adjacent to 
reserves.
    2) There is increasing evidence that reserves replenish 
populations regionally via larval export.
    Ecological effects of reserve networks:
    1) There is increasing evidence that a network of reserves buffers 
against the vagaries of environmental variability and provides 
significantly greater protection for marine communities than a single 
reserve.
    2) An effective network needs to span large geographic distances 
and encompass a substantial area to protect against catastrophes and 
provide a stable platform for the long-term persistence of marine 
communities.

ANALYSES OF THE BEST AVAILABLE EVIDENCE LEADS US TO CONCLUDE THAT:
    <bullet> Reserves conserve both fisheries and biodiversity.
    <bullet> Reserves must encompass the diversity of marine habitats 
in order to meet goals for fisheries and biodiversity conservation.
    <bullet> Reserves are the best way to protect resident species and 
provide heritage protection to important habitats.
    <bullet> Reserves must be established and operated in the context 
of other management tools.
    <bullet> Reserves need a dedicated program to monitor and evaluate 
their impacts both within and outside their boundaries.
    <bullet> Reserves provide a critical benchmark for the evaluation 
of threats to ocean communities.
    <bullet> Networks of reserves will be necessary for long-term 
fishery and conservation benefits.
    <bullet> Existing scientific information justifies the immediate 
application of fully protected marine reserves as a central management 
tool.'' (National Center for Ecological Analysis and Synthesis, 2001)
    This statement and the papers in this issue on which it is based 
demonstrate the emergence of a science of marine reserves, a dynamic 
discipline that has made major strides in the past 5 years. This 
increase in knowledge allows us to see where the next phases of 
critical research lie. Two are worth highlighting--one biological, the 
other socioeconomic. Even though marine reserves are inherently a 
multispecies, ecosystem-based approach to management, the theoretical 
basis for their design remains largely focused on single species. 
Considerations of multi-species responses continue to rest on simple 
extrapolations from single species predictions. Although empirical 
studies have shown important consequences of ecological interactions 
following the establishment of reserves, our understanding of how such 
interactions affect the design principles of reserves is still 
rudimentary. Perhaps an even greater need lies in the interface between 
ecological and socio-economic disciplines. Our workshops only began to 
address the crucial interaction between the broad range of human 
stakeholders and reserve success (see Roberts et al., this issue), or 
the best methodologies for engaging different interest groups in the 
process of marine reserve research and design. The various 
socioeconomic disciplines have much to offer to the topic of marine 
reserves.
    The design and implementation of comprehensive, representative and 
adequate reserve networks is the next great challenge for marine policy 
and resource management. Current information suggests that several 
features of marine ecosystems will dominate design principles. Although 
the topology of a network of marine protected areas can be complex, and 
there can be many differences between potential network designs, all 
networks have four key features that play fundamental roles in their 
functioning. These include (1) the span of the network (the length of 
coastline or area of habitat between the most distant protected units), 
(2) the size and shape of individual reserve units, (3) their number, 
and (4) their placement. Together these features determine other 
critical network features like the amount of area dedicated to 
protection and connectivity among reserve units. There are of course 
important network features that are unique to particular settings, but 
the above features seem to be common to most if not all networks, and 
provide useful focus to crystallize generalizations.
    The answer to the question, ``how much is enough'' is the holy 
grail of conservation in both marine and terrestrial ecosystems. The 
goal of marine reserves is to ensure the persistence of the full range 
of marine biodiversity--from gene pools to populations, to species and 
whole ecosystems--and the full functioning of the ecosystem in 
providing goods and services for present and future generations. 
Because there will always be opportunity costs to conservation, there 
is a limit to how much we can conserve. Hence the crucial need to 
identify and debate criteria for adequacy. In the context of designing 
and managing marine reserve networks, decisions about adequacy are 
particularly challenging, given the complex life histories of many 
marine organisms, and our limited ecological knowledge of marine 
ecosystems. Although we cannot yet offer definitive answers to the 
question of adequacy, some important new insights have emerged from the 
body of work in this volume.
    A century ago, T. H. Huxley stated that the oceans were an 
inexhaustible source of food and industrial products for humans to use 
with confidence. Our challenge today is to help ensure that this 
statement becomes true by building a heritage of reserve networks that 
will safeguard marine communities, and will complement more traditional 
fisheries management tools, making it more likely that future 
generations will inherit the beauty and productivity of the oceans.
Acknowledgments
    We thank Jim Reichman and Marilyn Snowball at the National Center 
for Ecological Analysis and Synthesis for enabling our Working Group on 
Marine Reserves to be productive; the Communication Partnership for 
Science and the Sea (COMPASS) for creating the climate for the 
generation of the Scientific Consensus Statement; Megan Dethier for co-
drafting the initial Scientific Consensus Statement and Lou Pitelka for 
his patience. Financial support for this issue was provided by the 
David and Lucile Packard Foundation through a grant to COMPASS, and a 
grant to the Partnership for Interdisciplinary Studies of Coastal 
Oceans (PISCO). This paper is PISCO publication number 74. The NCEAS 
Working Group and Sandy Andelman were supported by the National Science 
Foundation, the University of California at Santa Barbara and the State 
of California.

References
Agardy, M. T. 1994. Advances in marine conservation: the role of marine 
        protected areas. Trends in Ecology and Evolution 9:267-270.
Agardy, M.T. 2000. Information needs for marine protected areas: 
        scientific and societal. Bulletin of Marine Science 66(3):875-
        888.
Allison, G. W., S. D. Gaines, J. Lubchenco, and H. P. Possingham. 
        Ensuring persistence of marine reserves: Catastrophes require 
        adopting an insurance factor. Ecological Applications, in press
Allison, G. W., J. Lubchenco, and M. H. Carr. 1998. Marine reserves are 
        necessary but not sufficient for marine conservation. 
        Ecological Applications 8(1):79-92.
Airame, S., J.E. Dugan, K.D. Lafferty, H.M. Leslie, D.A. McArdle and 
        R.R. Warner.
Applying ecological criteria to marine reserve design: a case study 
        from the California Channel Islands. Ecological Applications, 
        in press.
Ballantine, W. J. 1999. Marine reserves in New Zealand: The development 
        of the concept and the principles. pp 3-38 in Proceeding of 
        International Workshop on Marine Conservation. Korean Ocean 
        Research and Development Institute, Cheju Island, Korea, 
        November 1999. 189pp.
Barber, P. H., S. R. Palumbi, M. V. Erdmann, and M.K. Moosa. 2000. A 
        marine Wallace's line? Nature 406:692-693.
Boesch, D.F., R.H. Burroughs, J.E. Baker, R.P. Mason, C.L. Rowe and 
        R.L. Siefert. 2001. Marine Pollution in the United States. 50 
        p. Pew Oceans Commission, Arlington, Virginia.
Botsford, L.W., J.C. Castilla, and C.H. Peterson. 1997. The management 
        of fisheries and marine ecosystems. Science 277:509-515.
Botsford, L. W., A. Hastings, and S. D. Gaines. 2001. Dependence of 
        sustainability on the configuration of marine reserves and 
        larval dispersal distances. Ecology Letters, in press
Botsford, L.W., F. Micheli, and A. Hastings. Principles for the design 
        of marine reserves. Ecological Applications, in press
Carlton, J.T. 2001. Introduced Species in U.S. Coastal Waters: 
        Environmental Impacts and Management Priorities. 28 p. Pew 
        Oceans Commission. Arlington, VA.
Carr, M.H., J.E. Neigel, J.A. Estes, S.J. Andelman, R.R. Warner, and 
        J.L. Largier.
Comparing marine and terrestrial ecosystems: Implications for 
        principles of reserve design in coastal marine ecosystems. 
        Ecological Applications, in press.
Committee on Environment and Natural Resources. 2000. An Integrated 
        Assessment of Hypoxia in the Northern Gulf of Mexico. Pp. 58. 
        National Science and Technology Council, White House Office of 
        Science and Technology Policy, Washington, D.C.
Dayton, P.K., S.F. Thrush, M.T. Agardy, and R.J. Hofman. 1995. 
        Environmental effects of marine fishing. Aquat. Conserv. Mar. 
        Freshwater Ecosyst. 5:205-232.
FAO (Food and Agriculture Organization) 2000. The state of world 
        fisheries and aquaculture 2000. United Nations, Rome.
Gaines, S.D., B. Gaylord, and J.L. Largier. Avoiding current oversights 
        in marine reserve design. Ecological Applications, in press.
Gerber, L.R., L.W. Botsford, A. Hastings, H.P. Possingham, S. D. 
        Gaines, S. R. Palumbi and S.J. Andelman. Population models for 
        marine reserve design: A retrospective and prospective 
        synthesis. Ecological Applications, in press.
Grantham, B. A., G. L. Eckert, and A. L. Shanks. Dispersal profiles of 
        marine invertebrate communities: Implications for marine 
        reserve design. Ecological Applications, in press
Halpern, B. The impact of marine reserves: Do reserves work and does 
        reserve size matter? Ecological Applications, in press
Harvell, C.D., K. Kim, J.M. Burkholder, R.R. Colwell, P.R. Epstein, D. 
        J. Grimes, E.E. Hofmann, E.K. Lipp, A.D. M.E. Osterhaus, R.M. 
        Overstreet, J.W. Porter, G.W. Smith, and G.R. Vasta. 1999. 
        Emerging marine diseases -- climate links and anthropogenic 
        factors. Science 285:1505-1510.
Hastings, A., and L. W. Botsford. 1999. Equivalence in yield from 
        marine reserves and traditional fisheries management. Science 
        284:1537-1541.
Hastings, A., and L. W. Botsford. Comparing designs of marine reserves 
        for fisheries and for biodiversity. Ecological Applications, in 
        press
Hutchings, J. 2000. Collapse and recovery of marine fishes. Nature 
        406:882-885.
IUCN (World Conservation Union). 1994. Guidelines for Protected Area 
        Management Categories. IUCN, Gland, Switzerland and Cambridge, 
        UK.
Jackson, J.B.C., M.X. Kirby, W.H. Berger, K.A. Bjorndal, L.W. Botsford, 
        J.J. Bourque, R.H. Bradbury, R. Cooke, J. Erlandson, J. A. 
        Estes, T.P. Hughes, S. Kidwell, C.B. Lange, H.S. Lenihan, J.M 
        Pandolfi, C.H. Peterson, R.S. Steneck, M.J. Tegner, R.R. 
        Warner. 2001. Historical overfishing and the recent collapse of 
        coastal ecosystems. Science 293:629-638.
Leslie, H.M., M. Ruckelshaus, I.R. Ball, S.J. Andelman and H.P. 
        Possingham. Using siting algorithms in the design of marine 
        reserves. Ecological Applications, in press.
Lubchenco, J., G.W. Allison, S.A. Nararrete, B.A. Menge, J.C. Castilla, 
        O. Defeo, C. Folke, O. Kussakin, T. Norton, and A. M. Wood. 
        1995. Biodiversity and Ecosystem Functioning: Coastal Systems 
        in United Nations Environment Programme, Global Diversity 
        Assessment. Cambridge University Press, Cambridge, UK.
Margules, R.R. and R.L. Pressey. 2000. Systematic conservation 
        planning. Nature 405:243-253.
McManus, J.W. 1997. Tropical marine fisheries and the future of coral 
        reefs: A brief review with emphasis on Southeast Asia. Coral 
        Reefs 16:S121-S127.
Murray, S.N., R.F. Ambrose, J.A. Bohnsack, L.W. Botsford, M.H. Carr, 
        G.E. Davis, P.K. Dayton, D. Gotshall, D.R. Gunderson, M.A. 
        Hixon, J. Lubchenco, M. Mangel, A. MacCall, D.A. McArdle, J.C. 
        Ogden, J. Roughgarden, R.M. Starr, M.J. Tegner, and M. M. 
        Yoklavich. 1999. No-take reserve networks: Sustaining fishery 
        populations and marine ecosystems. Fisheries 24:11-25.
National Center for Ecological Analysis and Synthesis. 2001. Scientific 
        Consensus Statement on Marine Reserves and Marine Protected 
        Areas signed by 161 academic PhD scientists with expertise on 
        marine reserves. http://www.nceas.ucsb.edu/Consensus/
National Marine Fisheries Service, 1999. Ecosystem-Based Fishery 
        Management: A Report to Congress by the Ecosystem Principles 
        Advisory Panel. Pp. 54 pp. U.S. Department of Commerce, 
        National Oceanic and Atmospheric Administration, Washington, 
        DC.
National Research Council. 1999a. Sustaining Marine Fisheries. National 
        Academy Press, Washington, D.C.
National Research Council. 1999b. Our Common Journey: A Transition 
        Toward Sustainability. National Academy Press, Washington D.C.
National Research Council 2000a. Marine Protected Areas: Tools for 
        Sustaining Ocean Ecosystems. National Academy Press, 
        Washington, D.C.
National Research Council. 2000b. Clean Coastal Waters: Understanding 
        and Reducing the Effects of Nutrient Pollution. National 
        Academy Press, Washington, D.C.
Neigel, J. Marine species area curves. Ecological Applications, in 
        press
Palumbi, S.R. 2000. The ecology of marine protected areas. Pp. in press 
        in M. Bertness, ed. Marine Ecology: The New Synthesis. Sinauer 
        Press, Sunderland, MA.
Palumbi, S. R. Population genetics, demographic connectivity and the 
        design of marine reserves. Ecological Applications, in press
Palumbi, S. R., and D. Hedgecock. 2001. The life of the sea in E. Norse 
        and L. Crowder, eds. Marine Conservation Biology. Island Press, 
        New York.
Peterson, C.H. and J. Lubchenco. 1997. Marine ecosystem services. pp 
        177-194 in G. Daily, ed, Natures' services: Soceital Dependence 
        on Natural Ecosystems. Island Press, Washington D.C.
Possingham, H., I. Ball and S. Andelman. 2000. Mathematical methods for 
        identifying representative reserve networks. Pp. 291-306 in S. 
        Ferson and M. Burgman, eds.
Quantitative methods for conservation biology. Springer, New York.
Roberts, C. How much of the sea should be included in fully protected 
        marine reserves? Ecological Applications, in press
Roberts, C.M., S. Andelman, G. Branch, R.H. Bustamante, J.C. Castilla, 
        J. Dugan, B. Halpern, K.D. Lafferty, H. Leslie, J. Lubchenco, 
        D. McArdle, H. Possingham, M. Ruckelshaus, and R.R. Wagner. 
        Ecological criteria for evaluating candidate sites for marine 
        reserves. Ecological Applications, in press
Roberts, C.M., W.J. Ballantine, C. D. Buxton, P. Dayton, L.B. Crowder, 
        W. Milon, M.K. Orback, D. Pauly, J. Trexler, and C. J. Walters. 
        1995. Review of the use of marine fishery reserves in the U.S. 
        southeastern Atlantic. NOAA Technical Memorandum NMFS-SEFSC-
        376. 31pp
Roberts, C.M., G. Branch, R.H. Bustamante, J.C. Castilla, J. Dugan, B. 
        Halpern, K.D. Lafferty, H. Leslie, J. Lubchenco, D. McArdle, M. 
        Ruckelshaus, and R.R. Wagner. Application of ecological 
        criteria in selecting marine reserves and developing reserve 
        networks. Ecological Applications, in press
Roberts, C.M., and N.V.C. Polunin. 1991. Are marine reserves effective 
        in management of reef fisheries? Reviews in Fish Biology and 
        Fisheries 1:65-91.
Shanks, A.L., B. Grantham, and M. Carr. Propagule dispersal distance 
        and the size and spacing of marine reserves. Ecological 
        Applications, in press
Vitousek, P.M., H.A. Mooney, J. Lubchenco, and J.M. Melillo. 1997. 
        Human domination of Earth's ecosystems. Science 277:494-499.
Watling, L., and E.A. Norse. 1998. Disturbance of the seabed by mobile 
        fishing gear: A comparison to forest clearcutting. Conservation 
        Biology 12:1180-1197.
                                 ______
                                 
    Dr. Warner. Thank you.
    Mr. Chairman, Mr. Underwood, it has been estimated that 
marine ecosystem services have a value of $20 trillion a year, 
with most of that being provided from coastal ecosystems. But 
these ecosystems have altered dramatically over the past 
decades. In some places, they have essentially collapsed. Many 
of the fisheries of the world are depleted, and the species 
that we catch are getting smaller and further down the food 
chain, as Gerry was referring to.
    The problems of habitat alteration, overfishing, pollution, 
exotic species and climate change all converge on the species 
that make up ecosystems. And the effects on one species can 
severely affect others. Evaluating and responding to these 
threats in an integrated fashion is the challenge we currently 
face. Let me make this clear: there is a real need to shift our 
attention to ecosystems-based management of the marine 
environment, away from the confusing and often conflicting mass 
of single-species management plans.
    Marine reserves, which are areas of the ocean completely 
protected from all extractive activities, can be a useful tool 
for ecosystem-based management. They cannot solve all the 
problems of the coastal ocean, but they can stop habitat 
alteration and allow the recovery of depleted populations of 
many species at a time. Scientific evidence suggests that 
reserves can rebuild coastal ecosystems and recharge coastal 
fisheries. This is one of the few instances where we can 
combine benefit to both the extractive users and to the 
conservation community.
    Well, do they work? We saw on a PowerPoint that one of them 
did, at least. Our NCEAS group attempted to locate as many 
peer-reviewed reports of biological responses to reserve 
protection in the U.S. and around the world. The results were 
striking. Regardless of whether the reserve was in the tropics 
or in temperate waters, there was strong evidence that reserves 
increase the abundance and size of many species within their 
borders. The biomass or capacity for reproduction in these 
species showed the most dramatic increase, at least doubling on 
average, regardless of the location of the reserves.
    Now, not surprisingly, exploited species show the strongest 
positive response to protection, including species thought to 
be too mobile to benefit from reserve protection. But I want to 
stress that the changes seen inside reserves are ecosystem-
level changes, not just the recovery of exploited species. Not 
all species increase inside reserves, but the overwhelming 
result from over 20 years of studies is that reserves generate 
broad changes within their boundaries in virtually all 
settings.
    This is good news for ecosystem-based management. Reserves 
cannot stop pollution, prevent catastrophes or slow the arrival 
of exotic invaders into marine ecosystems, but they can help to 
withstand these threats, simply because they contain larger 
populations and more species.
    Now, while the major role envisioned for reserves is the 
protection of habitats and ecosystems, there is added benefit 
if they export some of their population to surrounding areas, 
especially if reserves are viewed as a fishery management tool. 
Now, several studies, as Dr. Houde referred to, have shown that 
numbers and sizes of species are greater in areas near reserve 
boundaries and that catches near reserves are higher than in 
other areas. This can benefit particularly small-scale 
fisheries; the smaller fishermen, the recreational fisheries.
    Substantial larval export of scallops in particular has 
apparently occurred in the Georges' Bank in the one example of 
a marine reserve large enough to have the potential to recharge 
commercial fisheries. Areas predicted to receive heavy larval 
export from reserves are in fact now yielding higher catches 
than in other areas.
    How large should the reserves be? You will notice that we 
have all danced around this question. In general, as far as 
biodiversity is concerned, the larger the reserve, the better 
it is for biodiversity conservation. But that leaves very 
little area left in which to fish. Most fishery models of 
reserves suggest that the greatest impacts on yields occur when 
between 20 and 50 percent of the area is set aside. As Dr. 
Shipp referred to, the more depleted the fishery is on the 
outside, the more substantial the benefit from reserves.
    So where does this leave conservation interests? To what 
extent can set-asides at this level work to rebuild ecosystems? 
The most recent scientific findings have suggested a solution: 
networks of smaller reserves. Networks can seed each other. 
They can provide spillover into fished areas, because they have 
extensive borders, and they can boost regional production of 
young as long as the aggregate area in reserves is sufficiently 
large.
    Overall, the solution to managing multiple threats to the 
ocean requires an integrated approach that includes the need to 
preserve intact marine ecosystems on a regional basis. Marine 
reserves are one of the best tools we have to address 
management of entire marine ecosystems. While they are not the 
solution to every problem facing the coastal ocean, they can 
stem habitat destruction; they can alleviate the effects of 
local overfishing; they can simplify the simultaneous 
management of multiple species, and they can restore 
biodiversity within their borders.
    While reserves are ideal tools for habitat protection and 
ecosystem preservation, they are best used as a complement to 
traditional fisheries management, as you have heard many times 
before.
    The conclusion of the summary paper that I have included in 
the record contains the consensus statement on marine reserves, 
a remarkable document signed by over 160 Ph.D.-level academic 
scientists from around the world. The article is remarkable 
first because I have never seen 160 marine scientists agree on 
anything before, but second for the force of its 
recommendations.
    I will conclude with the last line of the statement: 
existing scientific information justifies the immediate 
application of fully protected marine reserves as a central 
management tool.
    Thank you again for inviting me here, and I am more than 
willing to answer questions.
    [The prepared statement of Dr. Warner follows:]

Statement of Robert R. Warner, Professor of Marine Ecology, University 
                      of California, Santa Barbara

    Good morning, and thank you Mr. Chairman and the members of the 
committee for inviting me to testify today. My name is Robert Warner, 
and I am a Professor of Marine Ecology at the University of California, 
Santa Barbara, and have served as Chair of the Department of Ecology, 
Evolution, and Marine Biology. I served on the Science Advisory Panel 
to the Marine Reserves Working Group for the Channel Islands National 
Marine Sanctuary, and currently serve on the Sanctuary Advisory Council 
as the Research Chair. Over the past three years I have been a member 
of three working groups at the National Center for Ecological Analysis 
and Synthesis, all of which were concerned with coastal marine 
ecosystems. One of these working groups concentrated on the science of 
marine reserves, and today I'd like to outline some of our findings 
regarding the use of marine reserves as a tool for ecosystem-based 
management. In addition, I'd like to place into the record a paper just 
about to appear in one of the premier peer-reviewed journals of our 
field, sponsored by the Ecological Society of America. The paper 
contains a summary of the working group's findings.
    Mr. Chairman, we depend on ocean life in many ways, far beyond the 
80 million metric tons of food that we draw from the sea each year. The 
ecologist Stuart Pimm recently estimated that marine ecosystem services 
have a value of $20 trillion, with most of that being provided from 
coastal ecosystems. Yet these ecosystems have been altered dramatically 
over the past decades--in some places, they have essentially collapsed. 
Many of the fisheries of the world are depleted, and the species we 
catch are getting smaller and further down the food chain. The problems 
of habitat alteration, pollution, aquaculture, exotic species, and 
climate change all converge on the species that make up ecosystems, and 
effects on one species can severely affect others. For example, in 
Hawaii, nutrient pollution fuels algal growth, and fishing removes the 
fishes that eat the algae, and corals die underneath the encroaching 
seaweeds. In every marine ecosystem that one of the NCEAS working 
groups investigated, there was clear evidence of fundamental change and 
loss of resources, and these losses are accelerating. Ecosystem health 
is often measured in terms of productivity and species diversity, and 
it is precisely these measures that are declining in many coastal 
habitats.
    Entire marine ecosystems are affected by threats at many levels, 
and evaluating and responding to these threats in an integrated fashion 
is the challenge we currently face. Let me make this clear: there is a 
real need to shift our attention to ecosystems-based management of the 
marine environment, away from the confusing and often conflicting mass 
of single-species management plans. On the West coast, there are 88 
species that generate more than $1 million a year in fisheries revenue. 
In New England, there are 41 such species, and in both areas 
invertebrates like urchins, squid, and lobsters are the most valuable 
resources. Multiple overlapping single-species management plans can 
become cumbersome and difficult. A complementary approach to this 
problem is a scheme of ecosystem-based management.
    Marine reserves, areas of the ocean completely protected from all 
extractive activities, can be a useful tool for ecosystem-based 
management. They cannot solve all of the problems of the coastal ocean, 
but they can stop habitat alteration and allow the recovery of depleted 
populations of several species at a time. Reserves are a place- and 
habitat-based approach to management, distinctly different from single-
species management.
    Because much of the sea is hidden from our view, and because the 
ocean is so vast, we have not been as aware of changes in marine 
ecosystems as we are of terrestrial changes. On land, many of the 
larger animals went extinct soon after humans arrived on the scene, and 
commercial hunting disappeared at the turn of the last century. In the 
sea, many of the large animals are rare but still present, and 
harvesting of wild animals continues at high levels. There is hope in 
this fact--it may be possible to restore marine ecosystems in some 
places to conditions approaching their former glory, because most of 
the key players are still present. This is a chance to do more than 
build a small monument to what existed before. We have a much more 
rewarding goal: rebuilding coastal ecosystems and recharging coastal 
fisheries. This is one of the few instances where we can combine 
benefit to both the extractive users and to the conservation community. 
It can be done.
    The simplest question to ask is what happens when reserves are 
established. That is, can we document the effect of reserves on coastal 
ecosystems?
Documented responses of animals and plants to protection inside 
        reserves
    The overall coastal area currently under full protection in marine 
reserves is less than a fraction of one per cent. Although reserves are 
rare in the US, several have been the subject of careful study. The 
NCEAS working group summarized these studies and scores of other peer-
reviewed reports of the responses of animals and plants to reserve 
protection around the world. The results were striking. Regardless of 
whether the reserve was in the tropics or in temperate waters, there 
was strong evidence that reserves function to increase the abundance 
and size of many species within their borders. On average, population 
sizes of animals nearly double, and the animals themselves average 
about 30% larger. This means that the biomass (or capacity for 
production) of these species showed a dramatic increase, at least 
doubling regardless of the location of the reserves.
    Not surprisingly, it is exploited species that show the strongest 
positive response to protection, including species thought to be too 
mobile to benefit from reserve protection. But I want to stress that 
the changes seen inside reserves are ecosystem-level changes--not just 
the recovery of exploited species. For example, when reserves were 
established in New Zealand, the increase in lobsters resulted in a 
major decrease in sea urchins, the lobster's prey. This, in turn 
allowed kelp beds to flourish (because urchins eat kelp), and the 
overall productivity of the area has increased.
    When year-round area closures were instituted on the Georges Bank 
to aid in the recovery of cod and other finfish, it was scallops that 
responded the most quickly, becoming unbelievably abundant inside the 
closed areas. Thus many species can be simultaneously affected by any 
particular closure.
    Responses occurred in reserves of all sizes, and they appear rather 
quickly--reserves only two to four years old showed increased levels of 
animal abundance and size equivalent to reserves that had been 
established for decades.
    As I mentioned previously, not all species increase inside 
reserves, but the great majority show a strong positive response. 
Neither will all species show a rapid response, especially those that 
are long-lived and slow-growing. However, the overwhelming result from 
over 20 years of studies is that species recover within reserve 
borders, becoming more numerous and larger. Although local conditions 
may affect the exact result in any particular place, the value of 
reserves in generating broad changes within their boundaries has been 
demonstrated in scores of well-documented studies in virtually all 
settings. This is good news for ecosystem-based management.
    While reserves cannot stop pollution, prevent catastrophes, or slow 
the arrival of exotic invaders into marine ecosystems, they can help to 
withstand these threats simply because they contain larger populations 
and more species. Many studies have shown that healthy ecosystems are 
more resilient to chronic or acute threats, and species-rich ecosystems 
are more resistant to invasion.
Effects outside of reserve borders
    While the major role envisioned for reserves is the protection of 
habitats and ecosystems, there is added benefit if they export some of 
their population to surrounding areas. This function is particularly 
important when reserves are viewed as a fishery management tool, 
because this export could be used to replenish species subject to 
harvest in non-reserve areas.
    The large variety of life histories, movement patterns, and time 
spent as a planktonic, drifting larva means that spillover will occur 
differently for different species. There are so few reserves 
established, and most of them are so small, that there have been 
relatively few studies done on spillover. Nevertheless, the evidence is 
compelling that reserves can recharge nearby areas.
    Spillover can take two forms. The first is simple movement of adult 
animals out of reserves. Several studies have shown that numbers and 
sizes of species are greater in areas near reserve boundaries, and 
other studies have shown that the catches of fishers near reserves are 
higher than in other areas. Fishermen may not have read these studies, 
but they often know where the fish are, and this has led to 
concentrations of recreational and commercial fishing activity along 
reserve borders, an activity known as ``fishing the line''.
    The other major potential contribution of marine reserves to 
fisheries is through larval export. Most marine species produce tiny 
young that drift in the water for days or weeks. We know that the rate 
of production of young by animals inside reserves can be tremendous--at 
the Edmonds Underwater Park in Washington, for example, it is estimated 
that the large lingcod there produce 20 times as many young than are 
produced in equivalent areas outside. But do some of these young make 
their way into the fishery? There has been little documentation of the 
effects of larval spillover, mostly because reserves are simply too 
small to have much effect. The Edmonds reserve, for example, is only 25 
acres in extent, a tiny fraction of the area over which the larvae 
produced there could be expected to drift.
    In one U.S. example of a marine reserve large enough to have the 
potential to recharge fisheries through larval export, this apparently 
has occurred. On the Georges Bank, several large areas were set aside 
in 1994 to preserve cod and other groundfish, and as I have mentioned 
the strongest response so far has been in the fast-growing scallops. By 
1998 scallops were 14 times more dense in the protected areas than 
outside, and dense settlement of young was predicted in downcurrent 
areas near the reserves. These areas are in fact now yielding higher 
catches than other areas, and overall revenues have increased from $91 
Million in 1995 to $123 million in 1999.
Reserve Size and Reserve Networks
    A common perception is that conservation and fishery objectives for 
marine reserves are incompatible, and there will be inevitable conflict 
between these competing interests. That is certainly what appears to be 
happening at this point, but models of reserve function suggest that 
this need not be so. It is true that the larger the reserve, the more 
species will be able to complete their entire life cycles inside 
reserves. A reserve too small will not be self-sustaining because most 
larvae produced in it will be transported elsewhere, and thus a small 
reserve needs to be seeded from a fished area. Very large reserves, on 
the other hand, leave little area left to in which to fish.
    Most single-species fisheries models of reserves suggest that the 
most substantial impacts on yields occurs when between 20 and 50% of 
the area is set aside. The amount of area required in reserves varies, 
but few models show significant benefit at levels below 10%. The more 
depleted the fishery is on the outside, the more substantial the 
benefit from reserves.
    Where does this leave conservation interests? To what extent can 
set-asides at this level work to rebuild ecosystems? Fortunately, the 
most recent scientific findings have suggested a solution: networks of 
smaller reserves. While these reserves may individually be too small 
for self-seeding, they are close enough together so that one reserve 
can seed another. In addition, networks can provide high amounts of 
spillover into fished areas because they have extensive borders, and 
networks can boost regional production of young as long as the 
aggregate area in reserves is sufficiently large.
    Studies also suggest networks of reserves can provide additional 
protection against catastrophic loss (because we're not putting all of 
our eggs in one basket), and they may make reserve siting easier and 
more flexible because there are simply more options available.
Where to put a marine reserve?
    Recent scientific work on the criteria for siting marine reserves 
has emphasized that in any management area, there are many different 
reserve designs that might fit the biological needs of the protected 
community. That is, science can suggest a range of options that can 
then be evaluated for other criteria, like their social, economic, or 
political impact. This flexibility is good news for the process of 
establishing marine reserves, because it can include input from many 
different sectors of the community in forming the final decisions.
    The most important criterion for designing reserves is to include 
representation of all habitat types within an area, preferably adjacent 
to one another, simply because many species use different habitats over 
the course of their lives. A common misconception is that reserves 
should be placed in the areas of best fishing. In fact, reserves should 
show the best response in areas that were formerly productive but are 
currently overfished--protection can allow these areas of proven 
potential to recover.
Conclusions
    I realize that much of the regulatory process is constrained by 
mandated consideration of one species at a time. However, the solution 
to managing multiple threats to the oceans requires an integrated 
approach that includes the need to preserve intact marine ecosystems on 
a regional basis. Single species management is not sufficient for the 
future, especially since many fisheries already affect many different 
species through by-catch.
    Marine reserves are one of the best tools we have to address 
management of entire marine ecosystems. While they are not the solution 
to every problem facing the coastal ocean, they can stem habitat 
destruction, alleviate the effects of local overfishing, simplify the 
simultaneous management of multiple species, and restore biodiversity 
within their borders. The healthier ecosystems inside reserves can be 
more resistant to threats from the outside, and more resilient in their 
recovery. A regional network of marine reserves may be the best 
solution for the broad enhancement of coastal ecosystems, with 
substantial contributions to biodiversity and recruitment of young both 
inside and outside their borders. While reserves are ideal tools for 
habitat protection and ecosystem preservation, they are best used as a 
complement to traditional fisheries management.
    The conclusion of the summary paper that I have included in the 
record contains the Consensus Statement on Marine Reserves, a 
remarkable document signed by over 160 Ph.D. level academic scientists 
from around the world. The full listing of the signatures can be found 
on the website of the National Center for Ecological Analysis and 
Synthesis. The document is remarkable first because it's one of the few 
times I have ever seen 160 marine scientists agree on anything, and 
second for the force of its recommendations. Much of what it states has 
already been covered by this testimony, but I'd like to conclude with 
the last line of the statement: ``Existing scientific information 
justifies the immediate application of fully protected marine reserves 
as a central management tool.''
    Thank you again for inviting me to testify here today.
                                 ______
                                 
    [A statement submitted for the record by Dr. Warner 
follows:]

[GRAPHIC] [TIFF OMITTED] T9780.005

[GRAPHIC] [TIFF OMITTED] T9780.006

[GRAPHIC] [TIFF OMITTED] T9780.007

[GRAPHIC] [TIFF OMITTED] T9780.008

[GRAPHIC] [TIFF OMITTED] T9780.009

[GRAPHIC] [TIFF OMITTED] T9780.010

[GRAPHIC] [TIFF OMITTED] T9780.011

[GRAPHIC] [TIFF OMITTED] T9780.012

[GRAPHIC] [TIFF OMITTED] T9780.013

[GRAPHIC] [TIFF OMITTED] T9780.014

[GRAPHIC] [TIFF OMITTED] T9780.015

[GRAPHIC] [TIFF OMITTED] T9780.016


    Mr. Gilchrest. Thank you very much, Dr. Warner.
    Could Dr. Houde and Dr. Warner explain what you mean by 
networks? When you say networks in marine reserves, I am 
assuming that I see a corridor type of concept. What are marine 
reserve networks?
    Dr. Warner. A network is an alternative to setting aside 
simply one large area in which we might be able to conserve the 
maximum number of species in terms of self-seeding. For many 
species, we do not know how far they disperse, and we are 
almost certain that much of the dispersal would go outside of 
the small reserve. One answer is to build a very large reserve, 
to conserve as many species as possible.
    Mr. Gilchrest. What would be a very large reserve? Would 
George's Bank, which is now--the two areas in George's Bank 
that have been set aside, would you consider those very large 
areas?
    Dr. Warner. I would consider those moderately large. They 
only cover about, depending on the species that you are talking 
about, between 25 and 30 percent of the fishable area there.
    The idea, though, is that a network of smaller reserves may 
indeed encompass and allow self-seeding of species within their 
borders for some species but then also, because they are spread 
around in different places, are able to capture some of the 
dispersal out of other reserves, such that we then can both 
capture for conservation purposes species with low dispersal 
and species with relatively high dispersal.
    Now, the nice thing about them also is that a whole series 
of smaller reserves have more edges than does one big reserve, 
and edges are where spillover occurs. So the idea overall is to 
designate a certain percentage set-aside in a particular area 
and then divide that set-aside into smaller areas in a network. 
The network may not necessarily be along a line of ocean 
currents, because I can tell you as an oceanographer that 
currents change over time. And it is probably a much better 
idea at this point to establish them of varying sizes, of 
varying distances over the entire management area.
    Mr. Gilchrest. But the networks or the areas, the smaller 
series of areas would benefit from ocean currents as far as 
larvae and plankton are concerned, would they not?
    Dr. Warner. No doubt, but the one thing that we cannot be 
certain of is that species always go from place A to place B.
    Mr. Gilchrest. What criteria, then, would you use to 
develop a network?
    Dr. Warner. I would use, as Dr. Houde--I should probably 
give him the floor sooner or later--as Dr. Houde described, 
areas of potentially high production are probably the areas 
of--the best places to place some of these reserves. I will 
point out, however, that that does not necessarily mean that 
they are the areas of best fishing. In fact, in terms of 
reserve response, some of the best places to expect a very 
rapid response in terms of reserves are places that used to be 
good fishing and now are not, where the habitat still exists or 
can be preserved, and then, species can recover within these 
areas that we know once held large populations.
    Mr. Gilchrest. Thank you.
    Dr. Houde?
    Dr. Houde. Yes; I think I agree with most of what Dr. 
Warner has said. I would just like to say that the sea is a 
highly connected kind of environment compared to the 
terrestrial environment. We do have three dimensions. We have 
water currents flowing. So if you could design Marine Protected 
Areas in networks, they ought to be most effective. If you knew 
the source areas, areas that the adult fish had their highest 
productivity in terms of production of eggs and larvae, we 
might want to protect these areas as sources to reseed or spill 
over into areas that are still open to fishing as a source of 
recruits.
    But I would also like to say that you need to know a lot 
about the ocean environment, so this is an area where we--
    Mr. Gilchrest. So do you want to leave it--
    Dr. Houde. --need to have a lot of research.
    Mr. Gilchrest. You want to leave it up to us?
    [Laughter.]
    Mr. Gilchrest. To designate those network areas?
    Dr. Houde. I guess I am saying that I do not think we are 
quite ready to designate those networks yet.
    Mr. Gilchrest. I see.
    Dr. Houde. We think the concept is a very good one, and in 
fact, I think the Executive Order 13158 says that NOAA or 
Commerce and Interior should look into developing a framework 
for a network of systems of MPAs in the United States.
    Mr. Gilchrest. Do you think NOAA, Commerce and Interior are 
moving quickly enough?
    Dr. Houde. I am not certain that they are moving as fast as 
they could. Your questions earlier about why the advisory 
committee is not in place was a question I also might have 
asked, wondering why that has not taken place in the past 
several months.
    I think the term network that has been used in that bill 
may be somewhat different than what we are talking about here. 
When they talk about network, I think they may have been 
referring to a system rather than a network on a national scale 
of MPAs, which may be different.
    Mr. Gilchrest. When you mention the word network, you are 
talking about specific areas in reserves that are close 
geographically with each other, like the Gulf of Maine or the 
Gulf--
    Dr. Houde. Yes, potentially quite close to each other that 
take advantage of the known life histories of organisms that 
are in an ecosystem to achieve the best production you can, 
including spillover to add to the fishery potential in the 
region.
    Mr. Gilchrest. Do you think that the existing authority, 
statutory authority, within those three departments and the 
Executive Order is sufficient to develop that type of a system? 
Do we need to have legislation added to that?
    Dr. Houde. I am not an expert in this area, but when we did 
the National Academy study, there was quite a bit of discussion 
about developing networks of MPAs, and we came up with 
examples. For instance, it might well be that to develop an 
effective system of MPAs, you might have to have part of a 
terrestrial environment connected to an estuary out onto the 
coastal ocean. And we then saw local, state and Federal 
agencies all with overlapping jurisdictions and 
responsibilities and authority having to duke it out, so to 
speak, to develop these MPA networks.
    So there may well be a need, but I am not an expert and 
could not--
    Mr. Gilchrest. We do that all the time up here, duke it 
out. We do most of our duking before we get here--at least, it 
is better that way. We duked out before the markup. We were 
pretty pleasant about it, I think, I hope.
    One quick question to Dr. Shipp in relation to Marine 
Protected Areas and are they appropriate for a management tool 
for various species, and in several cases in your written 
testimony, you seemed to suggest that no-take reserves may be 
particularly effective for rebuilding stocks that are at very 
low levels. Could you give us a comment on Red Porgy and Gray 
Triggerfish in the Gulf of Mexico?
    Dr. Shipp. Yes, and the Red Porgy comments were derived 
before I spoke to Bob Mahood. I assumed that Red Porgy was in 
terrible shape, and it was in terrible shape. Bob Mahood, who 
is the executive director of the South Atlantic Fishery 
Management Council says that they are recovering very rapidly 
with traditional management measures.
    The Gray Triggerfish, on the other hand, in the Gulf of 
Mexico, is a species that has received intensive fishing 
pressure because of the limitations on Red Snapper, which have 
been put on when that stock was in such decline, and therefore, 
Gray Triggerfish, even though officially, it is not overfished, 
all of us know that it is. And we have also learned that it is 
a relatively sedentary species that undergoes very little 
migration.
    So that is one of the species that I think would very much 
be appropriate for a Marine Protected Area if we could 
designate sites that are the best for the Gray Triggerfish. 
However, you know, once they are recovered, then, my feeling is 
that the need for the MPA as far as production and yield is 
concerned would not be necessary. I agree with my colleagues on 
about 85 or 90 percent of their comments. It is just that there 
are some yellow flags on this harvest potential.
    Mr. Gilchrest. Thank you very much.
    Mr. Underwood?
    Mr. Underwood. Thank you, Mr. Chairman, and thank you all 
for your testimonies, and I especially thank Gerry for coming 
this far to give us good reason to think seriously about Marine 
Protected Areas and particularly with regard to community 
involvement and broad-based community support. That has been a 
very strong feature of the Marine Protected Areas program in 
Guam, and even then, there is always still some controversy 
there, still people who disagree with it, and I have heard from 
those individuals as well, let me assure you; and also to Gerry 
for providing good reason why we should go to Guam, Mr. 
Chairman.
    Mr. Gilchrest. Guam and Minnesota.
    [Laughter.]
    Mr. Underwood. In that order.
    [Laughter.]
    Mr. Underwood. The area that he was identifying as the top 
tourist destination, I went to a high school when I was in high 
school that was just above that area, and when I was in high 
school in the sixties, that area was not pristine, but very 
clearly, when you would go into the water, you could see a wide 
variety of species almost immediately. And now, you know, as a 
result of the Marine Protected Area, some of it is coming back.
    I am interested in many of the points that have just been 
made by the Chairman. I note, Dr. Shipp, I know that to some 
extent, you have been overadvertised as being critical of MPAs, 
and I understand the clarification that you have given about 
the belief that MPAs as a fishery management tool perhaps is, 
you know, oversold. Maybe that is the term, and you made 
mention of the fact that the migratory nature of various 
species makes it not as effective as perhaps commonly assumed. 
Am I characterizing that correctly?
    Dr. Shipp. Yes, Mr. Underwood, you certainly are.
    Mr. Underwood. OK; Dr. Warner or Dr. Houde, how would you--
how could you respond to that, not to create, you know, any 
controversy.
    Dr. Warner. I promise I will not hit him. That is all 
right.
    [Laughter.]
    Dr. Warner. If indeed most of the species that are intended 
for protection are as mobile as is characterized by Dr. Shipp, 
then, the results of these dozens, scores of studies of 
responses inside reserves, particularly for exploited species, 
should not be true. If the species are moving out of the 
reserves very quickly, then, there will not be a response 
inside of reserves, and we have seen larger, bigger fish inside 
reserves, including some species that would be characterized as 
quite mobile.
    On the other hand, if species are moving a very great deal 
in and out of reserves constantly, then reserves will have 
virtually no effect on the fishery. They might be in the 
reserve at one point; they will be on the outside of the 
reserve at another point.
    Mr. Underwood. Thank you.
    Dr. Houde?
    Dr. Houde. I think I generally agree with Dr. Shipp in most 
of his analysis here, that the species that are likely to be 
most protected by Marine Protected Areas are those that are 
mostly sedentary. In fact, the reef-tract environments that 
you, Mr. Underwood, and Mr. Davis talked about are probably the 
kinds of marine ecosystems that will provide, or that MPAs can 
provide, the greatest benefit.
    The increase in biomass and age and fecundity of fish 
within those areas, as Dr. Shipp has pointed out, could be 
achieved by other methods if they were reliable. And that is 
the problem: in many cases, the science that we use for stock 
assessment and the management measures that we have applied in 
a conventional way which try to regulate the catch and try to 
regulate the amount of effort that goes into it are not always 
reliable. So the oldest argument for MPAs is that we have 
uncertain science and uncertain management, and MPAs are a good 
form of insurance I think still does apply.
    But I will agree with Dr. Shipp that conventional methods, 
which essentially try to limit the fishing mortality rate, can 
be effective. And we are seeing some of the results of that, I 
think, at least on the East Coast of the United States since 
the 1996 reauthorization of Magnuson-Stevens.
    On the other hand, on the West Coast, I do not think that 
we have seen so much recovery; in fact, declines. And the kinds 
of fish that Dr. Warner is probably very familiar with, the 
Pacific Rockfishes, a group of about 60 species of fish that 
are exploited are quite sedentary at least during their 
juvenile through long adult lives are the kinds of stocks that 
MPAs could achieve, I think, some very big benefits.
    Mr. Underwood. Well, your comments have kind of cast a 
different light on the role of MPAs in my own mind just 
thinking about this. Are you saying that had all the other 
kinds of approaches that we used before we used MPAs, had they 
been scientifically based, perhaps we would not have a need for 
MPAs?
    Dr. Houde. No, I am not saying they were not scientifically 
based. They are scientifically based. There is a lot of 
uncertainty in fisheries science that will never be overcome. I 
think the public thinks that the uncertainty is equated to poor 
science. It is not necessarily. It is related to these changes 
in the environment, the El Ninos, the other kinds of things 
that take place on decadal scales that are really difficult to 
predict and may not be predictable, at least in the next couple 
of decades.
    So that uncertainty means that using these spatial methods, 
setting aside some areas to account for the uncertainty, is 
good insurance.
    Mr. Underwood. Kind of a last resort?
    Dr. Houde. Yes, I would not be so bleak as to call it a 
last resort, but it is insurance.
    Mr. Underwood. A last resort that needs legislation?
    Dr. Houde. In my written testimony, I said I did not think 
there was a need for a national standard in the Magnuson-
Stevens Act for MPAs. I did say, though, that I thought that in 
my mind, it would be very advisable to put some strong 
supporting language into the Magnuson-Stevens Act that talked 
about spatial management; that related it to essential fish 
habitat and to the conceptual idea of developing fishery 
ecosystem plans, which I think is a good one, and we hoped that 
we would essentially move to.
    Mr. Underwood. Well, you know, just going to Gerry Davis' 
presentation, where he outlined a process that took roughly 14 
years to get everyone to kind of buy into it, and in an area, 
in a coral reef environment, where with an MPA you could almost 
immediately see the benefits. And I know it is far different in 
other areas.
    Maybe Mr. Gilmore or the rest can speak to the issue--are 
the problems that we are having with MPAs based in some way--
perhaps we are not adequately explaining it, or we are not 
adequately dealing with recreational and cultural interests and 
social interests and other interests in the communities 
involved? I mean, obviously, a lot of the discussion that we 
are having today could be immediately discounted by a large 
part of the public, because, simply, it is very difficult to 
comprehend all of it, you know.
    As the Chairman added, has noted, we duke it out here, and 
sometimes, we duke it out without all of the facts or in 
complete agreement--most of the time in ignorance of many of 
the things that we are talking about. But it seems so critical 
that to me, at least, that if you do not get people to buy into 
it at some level, you are just going to create the opportunity 
for failure no matter what the science says, no matter how 
strongly you make the case.
    And since Mr. Gilmore has perhaps had a slightly different 
perspective, maybe he would like to address that.
    Mr. Gilmore. Well, thank you, Mr. Underwood.
    I guess the point in my testimony today is not a fear of 
Marine Protected Areas. It is that we have entered into this 
Executive Order, and NOAA itself has said, well, we have not 
really defined what a Marine Protected Area is. We have had 
vigorous discussions at the North Pacific Council over the last 
two decades about Marine Protected Areas, but all of those 
closures shown in my testimony were negotiated out in the 
regional fishery management council process with a lot of 
stakeholder input. I think they qualify as Marine Protected 
Areas, and we are in a very intense discussion right now, 
implementing the essential fish habitat provisions from the 
Sustainable Fisheries Act. That entails developing an 
environmental impact statement and choosing candidate sites for 
additional Marine Protected Areas probably with more of an 
emphasis on protecting sensitive habitat than the management 
measures to date, which have been to reduce interactions with 
marine mammals, including walrus concentrations or Steller sea 
lions, or to avoid trawling in crab nursery grounds, for 
example.
    So I think the basis of the debate is--it shifts rather 
quickly when you start talking about equating a marine reserve 
and a Marine Protected Area, although almost all of those 
management measures that I point out have closed--those 30,000 
square miles have been closed to trawling but not all fishing 
activity. Crab fisherman, for example, are allowed to fish 
those areas.
    So I do not think the industry anywhere around the country 
has a problem with Marine Protected Areas. I think we have 
probably been creating MPAs for a long time. The positive 
aspect of the Executive Order is to call for an advisory 
committee to be set up and to try to bring some order to 
developing MPAs so that people can operate in one environment, 
and as stakeholders, they know that they are afforded one-stop 
shopping, and they do not have to worry about different 
agencies within Commerce and Interior and EPA and everybody 
else having their own version of MPAs.
    Mr. Underwood. Thank you very much, and thank you very much 
for the hearing, Mr. Chairman. I hope that we get that advisory 
council on board very quickly. And just to note, Mr. Gilmore 
talked about crabbing. You know, is there such a thing as 
catch-and-release crabbing?
    [Laughter.]
    Mr. Gilchrest. Oh, sure. My wife does it all the time.
    Mr. Underwood. Thank you.
    [Laughter.]
    Mr. Gilchrest. She does not like to hurt those little 
critters.
    Mr. Underwood. I would just point out that Mr. Davis has a 
50-pound coconut crab at his house.
    Mr. Gilchrest. A 50-pound coconut crab?
    Mr. Davis. And it is 106 years old, too.
    Mr. Underwood. And just one more thing: I would like to 
insert into the record a statement by the National 
Res<plus-minus>ources Defense Council.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    [The statement of the National Resources Defense Council 
submitted for the record follows:]

Statement of the Natural Resources Defense Council on Marine Protected 
                                 Areas

    To the Members of the Subcommittee,
    The Natural Resources Defense Council is a national, non-profit 
organization dedicated to protecting the environment. NRDC has more 
than 500,000 members. We believe that marine protected areas (MPAs) are 
an essential part of comprehensive ocean management--including the 
perpetuation of sustainable fisheries and the conservation of the 
ecosystems on which fisheries depend. We strongly support the creation 
of marine protected areas, particularly no-take marine reserves, in 
U.S. waters based on sound science and public input.
    Existing fisheries management techniques have not been sufficient 
to keep marine life and habitats from declining. More than a third of 
known, managed fish populations are considered overfished, and the 
proportion of species whose status is unknown continues to grow. The 
American Fisheries Society recently identified more than 80 species of 
marine fish at risk of extinction. Overfishing and indiscriminate 
fishing gears have destroyed habitats and intricate food webs, making 
the ocean we see today very different from that of fifty or one hundred 
years ago. Bringing back these species and habitats is expensive, time-
consuming, and extremely difficult. When management fails, the costs 
are high not only for fish but also for fishermen. We need to improve 
fisheries management so that we increase protection for populations in 
danger, and help insure the oceans against future collapses. Marine 
protected areas are a key part of this improvement strategy.
    The benefits of no-take marine reserves have been proven by 
hundreds of peer-reviewed, scientific studies. Habitats in marine 
reserves remain undamaged by fishing gear. Fish inside reserves are 
more numerous, bigger and more productive, and more diverse than in 
unprotected areas. Areas that have been subject to fishing pressure 
have fewer top predators--not only larger species such as sharks, but 
also fish like California sheephead, which keep kelp forests thriving 
by eating sea urchins. Marine reserves are also one of the only 
effective tools for managing emerging fisheries. When new fisheries 
start up, it may take years before management can catch up with fishing 
activity. Since marine reserves protect all species inside their 
borders, they keep at least a small portion of the population off the 
landings dock and allow managers a glimpse at what the unfished 
populations might resemble.
    In some cases, limited take MPAs can also offer substantial 
benefits. One good example is the Sitka Pinnacles closed area in 
Alaska, where only bottom- fishing is prohibited to protect rockfish 
spawning grounds. However, by not safeguarding both predators and prey 
throughout the water column, we lose the opportunity to have an 
undisturbed reference site against which to measure the effects of 
management in other locations, as in the case of no-take reserves. For 
instance, the tiny existing reserves on the West Coast have larger fish 
populations than adjacent sites, despite enduring the same fluctuating 
oceanographic conditions. The only difference between the sites is 
fishing. This information allows for direct, quantitative analysis of 
management effectiveness.
    There is no question that marine reserves work, but we do not 
expect them to singlehandedly replace all other management tools such 
as gear and effort restrictions. MPAs must be complemented by 
appropriate fisheries management outside the area, as well as 
appropriate regulations to safeguard water quality. Effective 
enforcement is also critical, making reserves sometimes preferable to 
MPAs because enforcement is simpler. Enforcement absolutely depends on 
involving the public early and often in the decision process of siting 
reserves. NRDC has supported public involvement throughout efforts to 
create MPAs in the Florida Keys and in California, and we will continue 
to do so. However, MPAs must be based on sound ecological information 
if they are to truly succeed. Too many of the MPAs collected in NOAA's 
list under Executive Order 13158 offer no real protection for the 
wildlife and habitat inside them, restrict few or no destructive 
activities, and were not sited to act as a network and thus provide the 
maximum benefits. These MPAs should be improved through scientific and 
public review so that it can contribute to the sustainable fisheries 
and resource protection mandates of U.S. law.
    MPAs have strong support from the public. The most recent 
nationwide poll found that more than 80% supported creating protected 
areas in the ocean, particularly in National Marine Sanctuaries. A 
California poll taken in February of this year found that not only did 
71% of voters support fully-protected marine reserves, but that the 
support remained high even among fishermen after they were told they 
might lose the ability to fish those areas. Americans recognize that 
the ocean is a public resource that deserves to be protected for all of 
us and for future generations.
                                 ______
                                 
    Mr. Underwood. Thank you.
    Mr. Gilchrest. Just a closing comment, because we would 
like to continue to pursue your input into this area so that we 
can be a part of the executive branch to develop a more--to 
develop some clarity as to the purpose and the goals that the 
Administration is now pursuing. So all of you can help us 
understand one of the most important aspects of MPAs and what 
we should do, and what part we ought to play.
    Dr. Houde, I would just like to read part of the bill that 
we marked up this morning related to MPAs, and in the coming 
weeks, maybe we can work actually with all of you if you see 
the need to change any of that. None of the amendments today 
dealt with this language. Maybe they did not know about this 
language. I am not sure.
    But in the area that we call miscellaneous parts of the 
Magnuson Act, here is the language: Designate closed areas, 
seasonal closures, time closures, gear restrictions or other 
methods for limiting impacts on habitat, limiting by-catch 
impacts of gear, or limiting fishing impact on spawning 
congregations in specific geographic areas. Now, that is the 
authority, slightly enhanced although not greatly enhanced, 
that is now given to the councils. We can get you a copy of 
this, and if there is any area that you think that we ought to 
change or emphasize, change some of the language or emphasize 
something else, we would appreciate it. Dr. Houde?
    Dr. Houde. Well, I would be happy to communicate with you 
about that language, as I am sure all of us here at the table 
would be.
    Mr. Gilchrest. Thank you. And these are discretionary 
provisions for each council now.
    Dr. Houde, Dr. Shipp from Southern Alabama, Mr. Gilmore, 
Mr. Davis, Dr. Warner, we hope you feel that your presence here 
was useful and productive, because we certainly did, and we 
respect that you took so much time out of your careers to come 
here to Washington and travel such great distances.
    We appreciate it. We will take your counsel under 
advisement. We hope to communicate with you over the next 
coming weeks and months.
    Thank you very much. The hearing is--
    Mr. Underwood. Oh, Mr. Chairman?
    Mr. Gilchrest. Mr. Underwood?
    Mr. Underwood. Will the record be left open for a week and 
additional comments?
    Mr. Gilchrest. The record will be left open for a week for 
the continental U.S. and for 2 weeks for outside the 
continental U.S.
    Mr. Underwood. Thank you.
    Mr. Gilchrest. The hearing is adjourned.
    [Whereupon, at 1:32 p.m., the Subcommittee adjourned.]


</pre></body></html>
